<html>
<title> - CREATING A CLIMATE RESILIENT AMERICA: SMART FINANCE FOR STRONG COMMUNITIES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
    CREATING A CLIMATE RESILIENT AMERICA: SMART FINANCE FOR STRONG 
                              COMMUNITIES

=======================================================================

                                HEARING

                               BEFORE THE

                        SELECT COMMITTEE ON THE 
                             CLIMATE CRISIS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                           DECEMBER 11, 2019

                               __________

                           Serial No. 116-16
                           
                           
                           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                           
                           


                              www.govinfo
   Printed for the use of the Select Committee on the Climate Crisis
   
   
                          ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
41-272               WASHINGTON : 2020    
   
   
   
                 SELECT COMMITTEE ON THE CLIMATE CRISIS
                     One Hundred Sixteenth Congress

                      KATHY CASTOR, Florida, Chair
BEN RAY LUJAN, New Mexico            GARRET GRAVES, Louisiana,
SUZANNE BONAMICI, Oregon               Ranking Member
JULIA BROWNLEY, Calfornia            MORGAN GRIFFITH, Virginia
JARED HUFFMAN, California            GARY PALMER, Alabama
A. DONALD MCEACHIN, Virginia         BUDDY CARTER, Georgia
MIKE LEVIN, California               CAROL MILLER, West Virginia
SEAN CASTEN, Illinois                KELLY ARMSTRONG, North Dakota
JOE NEGUSE, Colorado
                              ------                                
                Ana Unruh Cohen, Majority Staff Director
                  Marty Hall, Minority Staff Director
                        climatecrisis.house.gov
                        
                        
                            C O N T E N T S

                              ----------                              

                   STATEMENTS OF MEMBERS OF CONGRESS

                                                                   Page
Hon. Kathy Castor, a Representative in Congress from the State of 
  Florida, and Chair, Select Committee on the Climate Crisis:
    Opening Statement............................................     1
    Prepared Statement...........................................     3
Hon. Garrett Graves, a Representative in Congress from the State 
  of Louisiana, and Ranking Member, Select Committee on the 
  Climate Crisis:
    Opening Statement............................................     3

                               WITNESSES

Mark Gaffigan, Managing Director, Natural Resources and 
  Environment, US Government Accountability Office
    Oral Statement...............................................     5
    Prepared Statement...........................................     7
Damon Burns, President and CEO, Finance Authority of New Orleans
    Oral Statement...............................................    13
    Prepared Statement...........................................    15
Charles ``Chuck'' Wemple, Executive Director, Houston-Galveston 
  Area Council
    Oral Statement...............................................    17
    Prepared Statement...........................................    19
Marion Mollegen McFadden, Senior Vice President, Public Policy 
  and Senior Advisor, Resilience, Enterprise Community Partners
    Oral Statement...............................................    21
    Prepared Statement...........................................    23

                                APPENDIX

Questions for the Record from Hon. Kathy Castor to Mark Gaffigan.    54
Questions for the Record from Hon. Kathy Castor to Damon Burns...    59
Questions for the Record from Hon. Garret Graves to Damon Burns..    60
Questions for the Record from Hon. Garret Graves to Charles 
  ``Chuck'' Wemple...............................................    61
Questions for the Record from Hon. Kathy Castor to Marion 
  Mollegen McFadden..............................................    64


    CREATING A CLIMATE RESILIENT AMERICA: SMART FINANCE FOR STRONG 
                              COMMUNITIES

                              ----------                              


                      THURSDAY, DECEMBER 11, 2019

                          House of Representatives,
                    Select Committee on the Climate Crisis,
                                                    Washington, DC.
    The committee met, pursuant to call, at 2:49 p.m., in Room 
210, Cannon House Office Building, Hon. Kathy Castor 
[chairwoman of the committee] presiding.
    Present: Representatives Castor, Bonamici, Huffman, Neguse, 
Graves, Griffith, Palmer, Carter, and Miller.
    Ms. Castor. All right. The committee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    Communities are on the front lines of the climate crisis, 
and when it comes to the physical, humanitarian, and financial 
impacts of this crisis, low-income families and people of color 
face disproportionately higher risks.
    That is why today's discussion will center around making 
every one of our communities stronger by leveraging Federal 
funds, private capital, and insurance to increase resilience 
and accelerate disaster recovery.
    I now recognize myself for 5 minutes to give an opening 
statement.
    Local leaders are already taking bold action to protect 
their communities from the costly impacts of the climate 
crisis. Action at the local level is one big piece of the 
climate puzzle, helping to protect our families when climate-
fueled disasters hit. The unwavering commitment of cities, 
states, and businesses to climate action can help the United 
States significantly reduce emissions, according to a report 
released this week by America's Pledge.
    But in order to solve the climate crisis, we will need a 
thoughtful, comprehensive approach. We need to make sure that 
the Federal Government is fully engaged, acting as a robust 
partner for communities across America, which leaves us with an 
important question: How do we maximize every Federal dollar 
spent on protecting American families?
    That is what we are discussing today. We will examine how 
Congress can make sure no community gets left behind by 
emphasizing innovative finance, prioritizing resilience, and 
accelerating recovery in the places that need it most.
    Since 2005, the Federal Government has spent almost a half-
trillion dollars in disaster assistance after extreme weather 
events. Whether it is catastrophic hurricanes that we know all 
too well, flooding in the Midwest, or wildfires in the West, 
the Federal Government is increasingly stepping in to respond 
to natural disasters.
    While it is vital that we continue to help communities 
after disasters hit, it is critical that we also focus on 
increasing resilience and hazard mitigation, which can protect 
families before disasters happen and help us protect the bottom 
line as well.
    We also need to help local governments become more risk-
aware and finance-savvy so they can attract private investment 
that benefits everyone in their communities, with an 
understanding that some local communities do not have the 
resources to do all they should be doing.
    The cost of climate inaction is increasing. For example, 
the National Flood Insurance Program currently owes over $20 
billion to the U.S. Treasury. This program is vital for 
communities to recover from devastating floods, which are 
unfortunately happening in more places and in some cases 
lasting longer.
    The Federal Government's fiscal exposure from NFIP is one 
of the reasons that the Government Accountability Office has 
included climate change risks on its high-risk list. The need 
for strategic, cost-saving approaches that prioritize 
resilience and hazard mitigation is clear.
    I have had the opportunity in this position to travel to 
coastal South Carolina, California, Virginia in Hampton Roads. 
We look forward to getting to Louisiana and Texas. And on a 
recent committee trip, I spoke with the mayors of two flood-
prone cities in south Florida.
    One of these cities, Miami Beach, has been able to invest 
in innovative solutions to reduce flooding, thanks in part to a 
strong tax base. However, nearby North Bay Village doesn't have 
the same resources, so when the king tide rolls in, these 
communities may experience different levels of flooding because 
of their very different fiscal situations.
    So we have to level the playing field for vulnerable 
communities. We can't let wealth determine how resilient 
communities are.
    One of the problems is that we don't have an objective way 
to assess a community's ability to bounce back after a 
disaster, so, in the absence of a uniformly applied metric, the 
Federal Government may continue to use wealth as a proxy. That 
means the government may overvalue the benefit of protecting 
property in wealthy areas while lower-income neighborhoods 
don't see the same kind of investment.
    So I hope today's discussion will identify ways we can help 
ensure a level playing field and environmental justice across 
America, especially for low-income communities and communities 
of color, who are disproportionately affected by the climate 
crisis.
    So we all look forward to hearing your ideas.
    At this time, I will recognize the ranking member for 5 
minutes for an opening statement.
    [The statement of Ms. Castor follows:]

                Opening Statement of Chair Kathy Castor

          Hearing on ``Creating a Climate Resilient America: 
                 Smart Finance for Strong Communities''

                 Select Committee on the Climate Crisis

                           December 11, 2019

                        As Prepared for Delivery

    Local leaders are already taking bold action to protect their 
communities from the effects of the climate crisis. Action at the local 
level is one big piece of the climate puzzle, helping protect our 
families when climate-fueled disasters hit. The unwavering commitment 
of cities, states and businesses to climate action can help the United 
States significantly reduce its emissions, according to a report 
released this week by America's Pledge.
    In order to solve the climate crisis, we will need a thoughtful and 
comprehensive approach. We need to make sure the federal government is 
fully engaged, acting as a robust partner for communities across the 
America, which leaves us with an important question--how do we maximize 
every federal dollar spent on protecting American families?
    That's what we're discussing today. We'll examine how Congress can 
make sure no community gets left behind by emphasizing innovative 
finance, prioritizing resilience, and accelerating recovery in the 
places that need it most.
    Since 2005, the federal government has spent almost half a trillion 
dollars in disaster assistance after extreme weather events. Whether 
it's catastrophic hurricanes, flooding in the Midwest, or wildfires in 
the West, the federal government is increasingly stepping in to respond 
to natural disasters.
    While it's vital that we continue to help communities after 
disasters hit, it's critical that we also focus on increasing 
resilience and hazard mitigation, which can protect families before 
disasters happen and protect the bottom line as well.
    We also need to help local governments become more risk aware and 
finance-savvy, so they can attract private investment that benefits 
everyone in their communities--with an understanding that some local 
communities do not have the resources to do all they should be doing.
    The cost of climate inaction is increasing. For example, the 
National Flood Insurance Program currently owes over 20 billion dollars 
to the U.S. Treasury. This program is vital for communities to recover 
from devastating floods, which are unfortunately happening in more 
places and--in some cases--lasting for months. The federal government's 
fiscal exposure from the NFIP is one of the reasons that the Government 
Accountability Office has included climate change risks on its High 
Risk List.
    The need for a strategic, cost-saving approach that prioritizes 
resilience and hazard mitigation is clear. On a recent committee trip, 
I spoke with the mayors of two flood-prone cities in South Florida. One 
of these cities, Miami Beach, has been able to invest in innovative 
solutions to reduce flooding, thanks in part to a strong tax base. 
However, nearby North Bay Village doesn't have the same resources. So 
when the King Tide rolls around, these communities may experience 
different levels of flooding because of their different fiscal 
situations.
    We must level the playing field for vulnerable communities. We 
can't let wealth determine how resilient our communities are.
    One of the problems is we don't have an objective way to assess a 
community's ability to bounce back after a disaster. So, in the absence 
of a uniformly-applied metric, the federal government may continue to 
use wealth as a proxy. That means the government may overvalue the 
benefit of protecting property-wealthy areas, while lower-income 
neighborhoods don't see the same kinds of investments.
    I hope today's discussion will identify ways we can help ensure a 
level playing field and environmental justice across the country, 
especially for low-income communities and people of color, who are 
disproportionately affected by the climate crisis. I look forward to 
hearing your ideas.

    Mr. Graves. Thank you, Madam Chair.
    And, Madam Chair, I want to thank you once again for 
holding this hearing. And after many hearings, we have gotten 
to the point now to where we have a bipartisan witness that has 
written prolifically on Louisiana and our coastal master plan, 
which is what I used to do.
    You have brought in our committee staffer's first cousin 
and a guru from New Orleans on finance.
    While Mr. Wemple did not mention Louisiana in your 
testimony, I will say your testimony is music to my ears. I 
love your thought process on how you are moving forward.
    And, of course, Ms. McFadden also often mentions Louisiana 
in her testimony.
    But, Madam Chair, as you and I have discussed in the past, 
this is an area where I do believe that this committee should 
be spending a lot of time focusing, because it is an area where 
we absolutely should be on the same page. There is no one in 
this country, hopefully, that would ever wish disasters and 
vulnerability upon anyone.
    And just like you noted in your opening statement, you and 
I both have been through traumatic disasters in the communities 
that we represent, the communities where we live. And they are 
absolutely awful, including, which none of us can forget, 
Hurricane Katrina, where we lost 1,500 of our brothers, our 
sisters, our community members. And it is absolutely 
unacceptable to allow anything like that to ever happen again.
    And so I will say it again: Thank you for focusing so much 
on this topic. Whether you are a fiscal conservative and you 
believe the statistics that show anywhere from $3 in cost 
savings for every $1 you invest or the studies on the high end 
from the National Institute of Building Sciences which 
indicates that you get $11 in cost savings for every $1 you 
invest in pre-disaster mitigation or proactive hazard-
mitigation-type investments, or perhaps you are completely on 
the other side of the spectrum and you care about the impact to 
our ecological production and our coastal areas and the 
benefits that that provides to our nation, whether it be 
seafood, the wetlands, the submerged aquatic vegetation and all 
the wildlife that that supports, again, we should all be 
working on this together.
    And even if we are there for different reasons, this is an 
area where it benefits our nation from a fiscal policy 
perspective, it improves our environment and ecological 
production, and, mostly importantly, it sustains our important 
coastal communities, where we have nearly 42 percent of our 
nation's population currently living.
    So I am not going to go on much longer, but I do want to 
say, I want to thank each of you. I think you all bring an 
interesting perspective and expertise to the table. I am 
looking forward to your testimony and, more importantly, 
looking forward to having dialogue with you and figure out a 
new path forward for the United States.
    So, with that, I yield back.
    Ms. Castor. Well, thank you very much.
    Without objection, members who wish to enter opening 
statements into the record may have 5 business days to do so.
    Now I want to welcome our witnesses. I think the ranking 
member is correct; we have an outstanding panel today.
    Mark Gaffigan works at the Government Accountability 
Office, where he is the Managing Director for Natural Resources 
and the Environment. Mr. Gaffigan and his team have an 
important task: keeping Congress informed on the use of 
taxpayer dollars to protect our environment and manage our land 
and water resources.
    Damon Burns is the President and CEO of the Finance 
Authority of New Orleans, whose aim is to boost economic 
development and increase climate-resilience projects in 
Louisiana's most populous city. Mr. Burns has 15 years of 
experience in public finance, entrepreneurship, economic 
development, and financial technology.
    Chuck Wemple is the Executive Director of the Houston-
Galveston Area Council, a regional association of local 
officials from the Texas Gulf Coast Planning Region. The 
council works to promote efficient and accountable use of 
local, state, and Federal tax dollars. Mr. Wemple also served 
on several state-level disaster recovery policy committees.
    Mary McFadden is the Senior Advisor for Resilience at 
Enterprise Community Partners. Ms. McFadden previously worked 
at the Department of Housing and Urban Development, where she 
served as Deputy Assistant Secretary for Grant Programs. She 
oversaw multiple Federal programs at HUD, including the 
Community Development Block Grant Program.
    Without objection, the witnesses' written statements will 
be made part of the record.
    With that, Mr. Gaffigan, you are now recognized to give a 
5-minute presentation of your testimony. Welcome.

  STATEMENTS OF MARK GAFFIGAN, MANAGING DIRECTOR, GOVERNMENT 
ACCOUNTABILITY OFFICE; DAMON BURNS, EXECUTIVE DIRECTOR, FINANCE 
 AUTHORITY OF NEW ORLEANS; CHARLES WEMPLE, EXECUTIVE DIRECTOR, 
  HOUSTON-GALVESTON AREA COUNCIL; AND MARION MCFADDEN, SENIOR 
 VICE PRESIDENT FOR POLICY AND SENIOR ADVISOR FOR RESILIENCE, 
                 ENTERPRISE COMMUNITY PARTNERS

                   STATEMENT OF MARK GAFFIGAN

    Mr. Gaffigan. Thank you.
    Chairwoman Castor, Ranking Member Graves, and members of 
the Select Committee, good afternoon. Thank you for the 
opportunity to discuss GAO's recent work on climate resilience 
and the Federal role.
    I have submitted a statement for the record which 
summarizes our October 2019 report on climate resilience, but I 
would like to address two points in my opening statement: one, 
the importance of climate resilience; and the potential Federal 
Government role.
    To the first point, I would like to start out by broadly 
noting that the Federal Government is on an unsustainable long-
term fiscal path. With current debt of $22 trillion and annual 
deficits approaching $1 trillion a year, the nation's fiscal 
situation is not healthy.
    And speaking of health, while healthcare is a key driver of 
Federal spending, net interest, already at 8 percent of the 
budget, $350 billion a year, is expected to eventually become 
the largest category of Federal spending, including surpassing 
all non-defense discretionary spending in 4 years.
    However, as dire as these projections are for the Federal 
budget, there are additional unknown fiscal exposures, or 
risks, outside the budget process that may commit the Federal 
Government to future spending that is not projected. One such 
example is disaster assistance.
    As Chairwoman Castor pointed out, the Federal Government 
since 2005 has spent at least $450 billion on disaster 
assistance. And these reactive, unbudgeted costs are likely to 
increase as extreme weather events become more frequent and 
intense due to climate change, as your communities have 
experienced--thus, the importance of considering these risks 
and attempting to be proactive in building climate resilience 
into our communities to protect those communities and to also 
avoid these future costs.
    And as Ranking Member Graves points out, depending on the 
type of resilience project, the estimates range from $3 to $11 
in societal benefits for every $1 invested in resilience. An 
ounce of prevention truly is worth a pound of cure.
    But to my second point, what is the Federal Government's 
role in all this? First, it is important to note that the 
Federal Government is one key stakeholder among many that are 
needed to address this issue. The Federal Government does have 
expertise and funding to offer, but it doesn't have all the 
answers, nor does it have excess funding to spare in our 
unsustainable fiscal situation.
    Thus, the importance of the Federal Government engaging 
with communities who best know their own needs and can help 
ensure that every Federal dollar counts. State, local, Tribal 
governments, academia, nonprofits, and the private sector, 
including businesses and individual citizens, all have 
important roles to play.
    But regarding the particular Federal role in resilience, 
the Federal Government can contribute in three key areas: as a 
provider of information, integration, and incentives. But it 
must start with an overall strategic vision and goals, and that 
is the part that is missing now.
    Consistent with enterprise risk management principles, our 
report highlights six key steps for identifying high-priority 
climate resilience projects for the Federal investment. But it 
starts with step one: the establishment of strategic goals and 
a Federal structure with the authority to lead, identify and 
integrate all stakeholders, define responsibilities, and 
address how the effort will be funded.
    This is the key first step that is missing right now. No 
one is in charge when it comes to identifying and prioritizing 
climate resilience projects across the Federal Government.
    With the establishment of a leading Federal organizational 
arrangement, the other steps of assessing high-risk areas, 
identifying and prioritizing projects, efficient 
implementation, and the monitoring of projects and the evolving 
climate risk, can follow. Without it, there will be nothing to 
follow.
    That is why we concluded in our report that Congress 
consider establishing a Federal organizational arrangement 
charged with the authority to identify and prioritize climate 
resilience projects for Federal investment, consistent with 
clear goals.
    I look forward to hearing from the other witnesses. I look 
forward to our discussion and your questions. And I look 
forward to GAO's continued work to support the work of this 
committee and the Congress.
    Thank you.
    [The statement of Mr. Gaffigan follows:]

             United States Government Accountability Office

     Testimony Before the Select Committee on the Climate Crisis, 
                        House of Representatives

 Climate Resilience: A Strategic Investment Approach for High-Priority 
              Projects Could Help Target Federal Resources

                           Accessible Version

            Statement of Mark Gaffigan, Managing Director, 
                   Natural Resources and Environment

          For Release on Delivery, Expected at 2:00 p.m. ET, 
                     Wednesday, December, 11, 2019

                           December 11, 2019

    Chairwoman Castor, Ranking Member Graves, and Members of the Select 
Committee:
    Thank you for the opportunity to discuss our recent work on climate 
resilience and federal investment strategies. Since 2005, federal 
funding for disaster assistance has totaled at least $450 billion, 
including a 2019 supplemental appropriation of $19.1 billion for recent 
disasters. In 2018 alone, 14 separate billion-dollar weather and 
climate disaster events occurred across the United States, with total 
costs of at least $91 billion, including the loss of public and private 
property, according to the National Oceanic and Atmospheric 
Administration. Disaster costs likely will increase as certain extreme 
weather events become more frequent and intense due to climate change, 
according to the U.S. Global Change Research Program, a global change 
research coordinating body that spans 13 federal agencies.\1\
---------------------------------------------------------------------------
    \1\ U.S. Global Change Research Program, Impacts, Risks, and 
Adaptation in the United States: Fourth National Climate Assessment, 
vol. 2 (Washington, D.C.: 2018).
---------------------------------------------------------------------------
    The cost of recent weather disasters has illustrated the need to 
plan for climate change risks and invest in climate resilience. In 
2013, we included ``Limiting the Federal Government's Fiscal Exposure 
by Better Managing Climate Change Risks'' on our list of federal 
program areas at high risk of fraud, waste, abuse, and mismanagement or 
most in need of transformation.\2\ Enhancing climate resilience means 
taking actions to reduce potential future losses by planning and 
preparing for potential climate hazards such as extreme rainfall, sea 
level rise, and drought. Investing in climate resilience can reduce the 
need for far more costly steps in the decades to come; therefore, we 
and others have recommended enhancing climate resilience to help limit 
the federal government's fiscal exposure to climate change.\3\
---------------------------------------------------------------------------
    \2\ Every 2 years, at the start of a new Congress, GAO reevaluates 
agency progress in addressing issues on the high-risk list against five 
criteria to determine if progress has been made. The criteria are: (1) 
leadership commitment to address the risk, (2) agency capacity to 
resolve the risk, (3) a corrective action plan to addressing the risk, 
(4) a program to monitor the effectiveness of corrective measures, and 
(5) ability to demonstrate progress in resolving the high-risk area. 
GAO, High-Risk Series: An Update, GAO-13-283 (Washington, D.C.: 
February 2013).
    \3\ See GAO, Climate Change: Opportunities to Reduce Federal Fiscal 
Exposure, GAO-19-625T (Washington, D.C.: June 11, 2019), Climate 
Change: Selected Governments Have Approached Adaptation through Laws 
and Long-Term Plans, GAO-16-454 (Washington, D.C.: May 12, 2016), and 
National Research Council of the National Academies, America's Climate 
Choices: Panel on Adapting to the Impacts of Climate Change, Adapting 
to the Impacts of Climate Change (Washington, D.C.: 2010).
---------------------------------------------------------------------------
    Planning for federal investments in climate resilience projects to 
limit fiscal exposure is no longer a hypothetical issue. The Disaster 
Recovery Reform Act of 2018 provides one potential source of funding 
for climate resilience projects.\4\ In particular, it allows the 
President to set aside up to 6 percent of the estimated aggregate 
amount of grants from certain emergency programs under a major disaster 
declaration to implement pre-disaster hazard mitigation activities. The 
Federal Emergency Management Agency (FEMA) will administer the 
associated program--the Building Resilient Infrastructure and 
Communities program. As of the date of this testimony, FEMA had not yet 
developed program guidance, although the agency has sought input from 
the public on program design.\5\ FEMA officials estimate annual funds 
for the program will average $300 million to $500 million.
---------------------------------------------------------------------------
    \4\ FAA Reauthorization Act of 2018, Pub. L. No. 115-254, div. D, 
Sec. Sec. 1206(a)(3), 1234(a)(5) 132 Stat. 3186, 3440, 3462 (2018). The 
FAA Reauthorization Act of 2018, which included the Disaster Recovery 
Reform Act of 2018, became law on October 5, 2018.
    \5\ According to an October 2019 FEMA Disaster Recovery Reform Act 
Annual Report, FEMA plans to publish a draft policy for the Building 
Resilient Infrastructure and Communities program in 2020 for public 
comment. Furthermore, FEMA anticipates releasing the first Notice of 
Funding Opportunity in summer 2020 and plans to open the application 
period in September 2020. See Department of Homeland Security, Federal 
Emergency Management Agency, Disaster Recovery Reform Act (DRRA) Annual 
Report (Washington, D.C.: October 2019).
---------------------------------------------------------------------------
    My statement today focuses on (1) the extent to which the federal 
government has a strategic approach for investing in climate resilience 
projects; (2) key steps that provide an opportunity to strategically 
prioritize projects for investment; and (3) the strengths and 
limitations of options for focusing federal funding on these projects. 
My statement is based on the findings of our October 2019 report on 
climate resilience.\6\ To perform the work for our report, we reviewed 
about 50 relevant reports and interviewed 35 stakeholders with 
expertise in climate resilience and related fields, including federal 
officials, researchers, and consultants. In addition, during the course 
of this work, we identified domestic and international examples of 
governments that invested in climate resilience and related projects. 
We selected two of these examples for in-depth review and presentation 
in our report: the state of Louisiana's coastal master planning effort 
and Canada's Disaster Mitigation and Adaptation Fund. Additional 
information on our scope and methodology is available in our October 
2019 report.\7\
---------------------------------------------------------------------------
    \6\ GAO, Climate Resilience: A Strategic Investment Approach for 
High-Priority Projects Could Help Target Federal Resources, GAO-20-127 
(Washington, D.C.: Oct. 23, 2019).
    \7\ GAO-20-127.
---------------------------------------------------------------------------
    We conducted the work on which this statement is based in 
accordance with generally accepted government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.

 The Federal Government Has Invested in Projects That May Convey Some 
 Climate Resilience Benefits but Does Not Have a Strategic Investment 
                                Approach

    As we reported in October 2019, the federal government has invested 
in projects that may enhance climate resilience but does not have a 
strategic approach for investing in high-priority climate resilience 
projects. Some federal agencies have made individual efforts to manage 
climate change risk within existing programs and operations, and these 
efforts may convey climate resilience benefits. For example, the U.S. 
Army Corps of Engineers' civil works program constructs flood control 
projects, such as sea walls, that could convey climate resilience 
benefits by protecting communities from storms that may be exacerbated 
by climate change.
    However, even with individual agency efforts, federal investment in 
projects specifically designed to enhance climate resilience to date 
has been limited. As we stated in our Disaster Resilience Framework, 
most of the federal government's efforts to reduce disaster risk are 
reactive, and many revolve around disaster recovery.\8\ As a result, we 
reported in October 2019 that additional strategic federal investments 
may be needed to manage some of the nation's most significant climate 
risks because climate change cuts across agency missions and presents 
fiscal exposures larger than any one agency can manage. Our analysis 
shows the federal government does not strategically identify and 
prioritize projects to ensure they address the nation's most 
significant climate risks.
---------------------------------------------------------------------------
    \8\ GAO, Disaster Resilience Framework: Principles for Analyzing 
Federal Efforts to Facilitate and Promote Resilience to Natural 
Disasters, GAO-20-100SP (Washington, D.C.: October 2019). The 
principles in this framework can help identify opportunities to enhance 
federal efforts to promote disaster resilience, including building 
resilience to climate change.
---------------------------------------------------------------------------
    In addition, our October 2019 report discusses our past work that 
shows an absence of government-wide strategic planning for climate 
change. For example, in our March 2019 update to our high-risk list, we 
reported that one area of government-wide action needed to reduce 
federal fiscal exposure is in the federal government's role as the 
leader of a strategic plan that coordinates federal efforts and informs 
state, local, and private-sector action.\9\ For this 2019 update, we 
assessed the federal government's progress since 2017 related to 
climate change strategic planning against five criteria and found that 
the federal government had not met any of the criteria for removal from 
the high-risk list. Specifically, since our 2017 high-risk update, four 
ratings regressed to ``not met'' and one remained unchanged as ``not 
met.''
---------------------------------------------------------------------------
    \9\ GAO, High-Risk Series: Substantial Efforts Needed to Achieve 
Greater Progress on High-Risk Areas, GAO-19-157SP (Washington, D.C.: 
Mar. 6, 2019).
---------------------------------------------------------------------------
    Also, although we have made 17 recommendations that address 
improving federal climate change strategic planning, as of August 2019, 
no action had been taken toward implementing 14 of those 
recommendations--including one dating from 2003. Our enterprise risk 
management framework calls for reviewing risks and selecting the most 
appropriate strategy to manage them.\10\ However, no federal agency, 
interagency collaborative effort, or other organizational arrangement 
has been established to implement a strategic approach to climate 
resilience investment that includes periodically identifying and 
prioritizing projects. Such an approach could supplement individual 
agency climate resilience efforts and help target federal resources 
toward high-priority projects.
---------------------------------------------------------------------------
    \10\ GAO, Enterprise Risk Management: Selected Agencies' 
Experiences Illustrate Good Practices in Managing Risk, GAO-17-63 
(Washington, D.C.: Dec. 1, 2016).
---------------------------------------------------------------------------

  Six Key Steps Provide an Opportunity for the Federal Government to 
   Strategically Identify and Prioritize Climate Resilience Projects

    Six key steps provide an opportunity for the federal government to 
strategically identify and prioritize climate resilience projects for 
investment, based on our review of reports (including a National 
Academies report and the U.S. Global Change Research Program's Fourth 
National Climate Assessment) that discuss adaptation as a risk 
management process, as well as on international standards, our past 
work (including our enterprise risk management criteria), and 
interviews with stakeholders.\11\ The six key steps are (1) defining 
the strategic goals of the climate resilience investment effort and how 
the effort will be carried out, (2) identifying and assessing high-risk 
areas for targeted resilience investment, (3) identifying potential 
project ideas, (4) prioritizing projects, (5) implementing high-
priority projects, and (6) monitoring projects and climate risks. (See 
fig. 1.)
---------------------------------------------------------------------------
    \11\ See National Research Council of the National Academies, 
America's Climate Choices: Panel on Adapting to the Impacts of Climate 
Change, Adapting to the Impacts of Climate Change (Washington, D.C.: 
2010); U.S. Global Change Research Program, Impacts, Risks, and 
Adaptation in the United States: Fourth National Climate Assessment, 
vol. 2 (Washington, D.C.: 2018); International Organization for 
Standardization, ISO 14090:2019, Adaptation to Climate Change--
Principles, Requirements and Guidelines (June 2019); and ASTM 
International, Standard ASTM E3032-15e1: Guide for Climate Resiliency 
Planning and Strategy (2015). The International Organization for 
Standardization is a worldwide federation of national standards bodies. 
ASTM International develops voluntary consensus industry standards.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    In our October 2019 report, we used one domestic and one 
international example to illustrate these key steps: Louisiana's 
Coastal Protection and Restoration Authority (CPRA) coastal master 
planning effort and Canada's Disaster Mitigation and Adaptation Fund 
(DMAF).
    In the domestic example, to address the lack of strategic 
coordination, in 2005 the state of Louisiana consolidated coastal 
planning efforts previously carried out by multiple state entities into 
a single effort, led by CPRA. CPRA periodically identifies high-
priority coastal resilience projects designed to address two primary 
risks: flooding and coastal land loss. To identify potential projects, 
CPRA sought project proposals from citizens, nongovernmental 
organizations, and others. To prioritize projects, CPRA used 
quantitative modeling to estimate project outcomes under multiple 
future scenarios of varied climate and other conditions and coordinated 
with stakeholders to understand potential project impacts. CPRA has 
published three coastal master plans in which it identified and 
evaluated potential projects. For example, in its 2017 Comprehensive 
Master Plan for a Sustainable Coast, CPRA identified $50 billion in 
high-priority projects to be implemented as funding becomes available.
    In the international example, in 2018 the Canadian government 
launched the DMAF, a financial assistance program, to provide $1.5 
billion (in U.S. dollars) over 10 years for large-scale, nationally 
significant projects to manage natural hazard risks, including those 
triggered by climate change. Infrastructure Canada, the entity 
responsible for administering the DMAF, seeks project ideas from 
provinces and territories, municipal and regional governments, 
indigenous groups, and others. These entities apply directly to 
Infrastructure Canada for funding. According to Canadian officials, two 
committees of experts--one composed of experts from other federal 
departments and the other composed of nonfederal experts (e.g., urban 
planners and individuals with regional expertise)--provide feedback on 
potential projects. These projects are prioritized based on multiple 
criteria such as the extent to which they reduce the impacts of natural 
disasters.

     Options for Focusing Federal Funding on High-Priority Climate 
 Resilience Projects Have Strengths and Limitations, and Opportunities 
                    Exist to Increase Funding Impact

    As we reported in October 2019, on the basis of our review of 
relevant reports and our past work, interviews with stakeholders, and 
illustrative examples, we identified two options--each with strengths 
and limitations--for focusing federal funding on high-priority climate 
resilience projects. The options are (1) coordinating funding provided 
through multiple existing programs with varied purposes and (2) 
creating a new federal funding source specifically for investment in 
climate resilience. In addition, our analysis of these sources 
identified opportunities to increase the climate resilience impact of 
these two funding options.
    A strength of coordinating funding from existing sources is access 
to multiple funding sources for a project. For example, one stakeholder 
we interviewed whose community used federal funding to implement large-
scale resilience projects said that having multiple programs is 
advantageous because when funding from one program is not available--
such as when the project does not match that program's purpose or when 
there are insufficient funds--funds could be sought from another 
program. The state of Louisiana's coastal master planning effort also 
uses multi-program coordination to fund projects. Specifically, funding 
for high-priority resilience projects identified in the master plan is 
provided via several federal and nonfederal programs designed for 
wetlands restoration, hurricane risk reduction, oil spill recovery, and 
community development, among other purposes. A limitation of that 
option, according to CPRA officials, is that coordinating funding from 
multiple sources could be administratively challenging and could 
require dedicated staff to identify programs, assess whether projects 
meet program funding criteria, apply for funds, and ensure program 
requirements are met.
    Alternatively, one strength of creating a new federal funding 
source, such as a federal financial assistance program that could 
provide loans or grants or a climate infrastructure bank, is that it 
could encourage cross-sector projects designed to achieve benefits in 
multiple sectors. For example, according to one stakeholder, such a 
funding source could allow experts from multiple sectors--such as 
infrastructure, housing, transportation, and health--to collaborate on 
projects, leading to more creative, comprehensive approaches to enhance 
community resilience. However, such a new funding source would have to 
be created, which would require congressional authorization.
    In addition, we identified opportunities to increase the climate 
resilience impact of federal funding options based on our review of our 
past work, related reports, an international standard, and the 
Louisiana and Canadian examples, as well as interviews with 
stakeholders:

    <bullet>  Using both existing and new funding options. Several 
stakeholders told us that using both funding options--multiple, 
existing federal programs with varied purposes and a new funding source 
for high-priority climate resilience projects--in a strategic, 
coordinated way could help increase the impact of federal investment. 
Two stakeholders told us that in practice, multiple, existing federal 
funding sources that are not specific to climate resilience could be 
coordinated to fund projects when their purposes and rules align and 
adequate funding is available. A funding source specifically for 
climate resilience could be used to fund proposed projects when no 
related program exists or when existing programs do not have sufficient 
funding available, according to these and other stakeholders.
    <bullet>  Helping ensure adequate and consistent funding. Several 
stakeholders we interviewed identified the need for adequate and 
consistent funding to implement high-priority climate resilience 
projects. For example, according to one stakeholder we interviewed, 
inconsistent, inadequate funding makes it difficult to complete large-
scale projects and can lead to additional costs if significant delays 
occur during which existing work deteriorates. In addition to adequate 
and consistent funding, funding options should be designed to 
accommodate long-term projects since high-priority climate resilience 
projects can take multiple years to design and implement, according to 
two stakeholders we interviewed.
    <bullet>  Encouraging nonfederal investment. Several stakeholders 
we interviewed told us that the federal government could use a federal 
climate resilience investment effort to encourage nonfederal investment 
in high-priority climate resilience projects, thereby increasing the 
impact of federal investment. For example, several stakeholders 
identified the importance of a cost-share component so that funding 
recipients are invested in a project's success. Canada's DMAF 
encourages nonfederal investment by partially funding projects of 
national significance and requiring different levels of cost-share from 
funding recipients, ranging from 25 percent for indigenous recipients 
to 75 percent for private-sector and other for-profit recipients. 
Several stakeholders also identified potential funding mechanisms--for 
example, public-private partnerships and loan guarantees--that could 
leverage federal dollars to encourage additional investment in climate 
resilience projects by nonfederal entities, including the private 
sector.
    <bullet>  Encouraging complementary resilience activities. To 
increase the impact of federal investment in climate resilience, a 
federal investment effort presents an opportunity to encourage 
complementary resilience activities by nonfederal actors such as 
states, localities, and private-sector partners, based on interviews 
with several stakeholders, the Canadian example, and reports we 
reviewed. For example, this could include establishing conditions that 
funding recipients must meet in exchange for receiving federal funding. 
Alternatively, the federal government could use incentives (e.g., 
providing greater federal cost-share or giving additional preference in 
the project prioritization process) to encourage complementary 
resilience activities by nonfederal actors. Our Disaster Resilience 
Framework states that incentives can make long-term, forward-looking 
risk reduction investments more viable and attractive among competing 
priorities.\12\ The federal government could use these conditions and 
incentives to encourage several types of complementary resilience 
activities by nonfederal actors. For example, the federal government 
could encourage the use and enforcement of building codes that require 
stronger risk-reduction measures. In addition, a federal investment 
effort could provide an opportunity to encourage communities to limit 
or prohibit development in high-risk areas to minimize risks to people 
and assets exposed to future climate hazards. One example of this would 
be through zoning regulations. Another stakeholder suggested that 
communities receiving federal funding for resilience projects should be 
adequately insured against future climate risks so they have a 
potential source of funding for rebuilding in the event of a disaster.
---------------------------------------------------------------------------
    \12\ GAO-20-100SP.
---------------------------------------------------------------------------
    <bullet>  Allowing funds to be used at various stages of project 
development. Several stakeholders suggested that federal funds be used 
for multiple stages of project development--such as project design, 
implementation, or monitoring--to increase the impact of federal funds. 
For example, two stakeholders we interviewed told us that resilience 
projects can require significant amounts of design work to develop an 
implementable and effective project concept and that making funds 
available for project design could improve the quality of project 
proposals, thereby maximizing the impact of federal funds. In addition 
to providing federal funds for project design, one stakeholder 
suggested making federal funding available to measure project outcomes 
(e.g., how effectively projects increased resilience) to improve future 
decisions by both the federal government and others making resilience 
investments.

    Based on the findings of our October 2019 report, we recommended 
that Congress consider establishing a federal organizational 
arrangement to periodically identify and prioritize climate resilience 
projects for federal investment. Such an arrangement could be designed 
using the six key steps for prioritizing climate resilience investments 
and the opportunities to increase the climate resilience impact of 
federal funding options that we identified in our report.
    Chairwoman Castor, Ranking Member Graves, and Members of the Select 
Committee, this completes my prepared statement. I would be pleased to 
respond to any questions that you may have at this time.

                 GAO Contact and Staff Acknowledgments

    If you or your staff have any questions about this testimony, 
please contact Mark Gaffigan at (202) 512-3841 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f3949295959a94929d9eb394929cdd949c85dd">[email&#160;protected]</a> 
Contact points for our Offices of Congressional Relations and Public 
Affairs may be found on the last page of this statement.
    GAO staff members who made key contributions to this testimony and 
the underlying report are Joseph ``Joe'' Thompson (Assistant Director), 
Celia R. Mendive (Analyst in Charge),Taiyshawna Battle and Paige 
Gilbreath. Also contributing to this report were Alicia Puente Cackley, 
Colleen M. Candrl, Kendall Childers, Steven Cohen, Christopher Curry, 
Cindy Gilbert, Kathryn Godfrey, Holly Halifax, Carol Henn, Susan 
Irving, Richard Johnson, Gwendolyn Kirby, Joe Maher, Gregory Marchand, 
Diana Maurer, Kirk Menard, Tim Persons, Caroline N. Prado, William 
Reinsberg, Oliver Richard, Danny Royer, Jeanette Soares, Kiki 
Theodoropoulos, Sarah Veale, Patrick Ward, Jarrod West, Kristy 
Williams, Eugene Wisnoski, and Melissa Wolf.

    This is a work of the U.S. government and is not subject to 
copyright protection in the United States. The published product may be 
reproduced and distributed in its entirety without further permission 
from GAO. However, because this work may contain copyrighted images or 
other material, permission from the copyright holder may be necessary 
if you wish to reproduce this material separately.

                             GAO's Mission

    The Government Accountability Office, the audit, evaluation, and 
investigative arm of Congress, exists to support Congress in meeting 
its constitutional responsibilities and to help improve the performance 
and accountability of the federal government for the American people. 
GAO examines the use of public funds; evaluates federal programs and 
policies; and provides analyses, recommendations, and other assistance 
to help Congress make informed oversight, policy, and funding 
decisions. GAO's commitment to good government is reflected in its core 
values of accountability, integrity, and reliability.

             Obtaining Copies of GAO Reports and Testimony

    The fastest and easiest way to obtain copies of GAO documents at no 
cost is through our website. Each weekday afternoon, GAO posts on its 
website newly released reports, testimony, and correspondence. You can 
also subscribe to GAO's email updates to receive notification of newly 
posted products.

                             Order by Phone

    The price of each GAO publication reflects GAO's actual cost of 
production and distribution and depends on the number of pages in the 
publication and whether the publication is printed in color or black 
and white. Pricing and ordering information is posted on GAO's website, 
https://www.gao.gov/ordering.htm.
    Place orders by calling (202) 512-6000, toll free (866) 801-7077, 
or TDD (202) 512-2537.
    Orders may be paid for using American Express, Discover Card, 
MasterCard, Visa, check, or money order. Call for additional 
information.

                            Connect with GAO

    Connect with GAO on Facebook, Flickr, Twitter, and YouTube.
    Subscribe to our RSS Feeds or Email Updates. Listen to our 
Podcasts.
    Visit GAO on the web at https://www.gao.gov.

         To Report Fraud, Waste, and Abuse in Federal Programs

    Contact FraudNet:
    Website: https://www.gao.gov/fraudnet/fraudnet.htm
    Automated answering system: (800) 424-5454 or (202) 512-7700

                        Congressional Relations

    Orice Williams Brown, Managing Director, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bee9d7d2d2d7dfd3cdf1fed9dfd190d9d1c8">[email&#160;protected]</a>, (202) 
512-4400, U.S. Government Accountability Office, 441 G Street NW, Room 
7125, Washington, DC 20548

                             Public Affairs

    Chuck Young, Managing Director, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0a73657f646d693b4a6d6b65246d657c">[email&#160;protected]</a>, (202) 512-4800, 
U.S. Government Accountability Office, 441 G Street NW, Room 7149, 
Washington, DC 20548

                Strategic Planning and External Liaison

    James-Christian Blockwood, Managing Director, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="82f1f2e7eec2e5e3edace5edf4">[email&#160;protected]</a>, (202) 
512-4707, U.S. Government Accountability Office, 441 G Street NW, Room 
7814, Washington, DC 20548

    Ms. Castor. Thank you very much.
    Mr. Burns, you are recognized for 5 minutes.

                    STATEMENT OF DAMON BURNS

    Mr. Burns. Thank you, Chair Castor, and thank you, Ranking 
Member Graves and the rest of the members of the committee. 
Thank you for having me here today.
    My name is Damon Burns. I represent the Finance Authority 
of New Orleans. I am also here speaking on behalf of the City 
of New Orleans to just talk a little bit about climate 
resilience and how a disaster can really affect the community.
    So, in New Orleans, we have a history of being innovative. 
Usually, people don't think of New Orleans and innovation, but 
we have been innovative over time. And we find ourselves in a 
position again in the need to be innovative. This time, it is 
about climate, it is about protecting our environment.
    And I think everyone here knows the story of Katrina and 
all of the subsequent disasters that have happened since. Well, 
I want to talk a little bit about what has happened to our 
agency, in particular, and some of the things that we need to 
do to protect other cities so that they don't find themselves 
in the same situation that we are dealing with in New Orleans.
    So, in 2015, the city of New Orleans decided to adopt a 
climate resilience plan. And that climate resilience plan has 
three basic goals: one, educate the community and embrace 
climate resilience; two, physically transform New Orleans; and, 
three, create opportunity for underinvested communities. That 
is a very simple plan, and we think that plan can apply across 
state lines, across city lines.
    It is really important that we make those investments 
today. And the Finance Authority of New Orleans is a prime 
example, living example, of what can happen. So, after 
Hurricane Katrina, the Finance Authority found itself in a 
situation where we needed to reinvent ourselves. And we are 14 
years removed, and we are still coming up with that reinvention 
process.
    So what happened to us? We invested over $650 million in 
New Orleans over three decades. We served over 7,000 families, 
particularly first-time homebuyers. We helped them get into 
their first homes. And that is important because, in many 
cases, we are the only opportunity people have to have a chance 
to access capital. The traditional banking network or system is 
not so favorable to certain communities, underinvested 
communities. So the Finance Authority of New Orleans plays that 
role, where we create access.
    Well, after Katrina, our access was cut off. We lost $350 
million off our balance sheet overnight. That is 95 percent of 
our balance sheet, almost overnight. And that is a direct 
result of us not having resilient infrastructure in our 
neighborhood so that people can stay when disaster strikes. So 
if the infrastructure isn't resilient, people have to move out 
almost immediately. And that happened to us.
    So we still find ourselves in a position of recovery. So, 
moving forward, we have decided to make all of our investments 
climate resilient. It is not just about providing access to 
capital anymore; it is also providing access to capital that 
allows us to protect our communities and protect our 
neighborhoods.
    So there are some things that we are doing on the ground, 
such as providing green mortgages to homeowners and developers. 
And a green mortgage is nothing more than a regular mortgage, 
but it has funding built in so that a family can put in 
permeable pavement, they can put in solar panels into their 
home, they can make that home more energy-efficient.
    So we have to stretch ourselves in order to do these 
things. And, frankly, the system is not set up for us to do 
this on a continuous basis, on a sustainable basis. We are 
doing what we can with what we have, but we honestly need more.
    So I want to give you a few points that I think are 
important for other cities and things that we can adopt to make 
sure that other cities are protected and prepared.
    Number one, everyone has to be educated. There needs to be 
common education across state lines so everyone understands the 
importance and the risk of climate change. Also, it would help 
to create a common market or create a marketplace for cities 
that are investing in climate resilience. Because that doesn't 
exist today, or it exists with little capacity. So we need to 
grow the capacity of that industry.
    Secondly, there is no big difference between a green bond 
and a regular municipal bond today. So we need to encourage and 
incentivize cities to invest in more climate resilience-based 
bonds, and we need to incentivize investors to buy more climate 
resilience bonds.
    Also, tax credits. Ninety percent of the capital projects 
in this country are already funded in the municipal bond 
market. Cities can only take on so much more debt. So it is 
important that we create other types of creative financial 
solutions that cities can leverage and bring in private capital 
so that we can actually make these investments.
    Also, leveraging the Federal Government's resources as an 
insurer. We need insurance products to make these programs run, 
not just debt and equity, but insurance is a third leg of the 
financing solution that we need to have in the cities.
    And last is create an opportunity where it doesn't exist. 
Many communities have been destroyed through underinvestment, 
through racial injustice, et cetera. Climate resilience is an 
opportunity to reinvest in those communities. So someone has to 
put on those solar panels, someone has to put in that permeable 
pavement, someone has to make all those improvements. It is an 
opportunity for us to put those communities back to work and to 
use climate resilience as a chance to reinvest in communities 
where they haven't received any investments.
    And in closing, I would like to say that, you know, for us 
on the ground in New Orleans, climate change is not an opinion; 
it is actually the law of the universe. And we think that the 
climate will always evolve, and we have to evolve with it. And 
our basic stance at this point is, if we don't care of the 
Earth, the Earth won't take care of us.
    So we are doing everything that we can with the investments 
that we have, but I urge you to do more and recreate the system 
so that we can have a more climate resilient America.
    Thank you.
    [The statement of Mr. Burns follows:]

        Statement of Mr. Damon Burns, Chief Executive Officer, 
      Finance Authority of New Orleans, New Orleans, Louisiana on

                ``Creating a Climate Resilient America: 
                 Smart Finance for Strong Communities''

  U.S. House of Representatives Select Committee on the Climate Crisis

                          December 11th, 2019

    Chairwoman Castor, Ranking Member Graves and Committee Members, my 
name is Damon Burns and I am from New Orleans, Louisiana. I am the 
Chief Executive Officer of The Finance Authority of New Orleans; a 
green housing and development finance agency that has invested over 
$650 million into New Orleans since 1978. My organization serves all 
New Orleanians under the leadership of our Honorable Mayor LaToya 
Cantrell. Our long-term vision is to create a climate resilient New 
Orleans that provides all communities with a decent quality of life. It 
is an honor and privilege to be here with you today and discuss 
``Creating a Climate Resilient America: Smart Finance for Strong 
Communities''.
    Now the youthful age of 301, New Orleans, Louisiana is older than 
United States itself. New Orleans has always played an important role 
in the development of America. Be it international trade, mortgage 
backed securities, jazz, gumbo, infrastructure or bounce music: New 
Orleans has given this world some of its best innovations. Prior to 
being known as New Orleans, the land on which it sits was occupied by 
an advanced civilization of mound builders that mastered the art of 
living along the Mississippi River. The spirit of these ancient ``New 
Orleanians'' lives on because we must now re-master the art of living 
with water and other climate risks.
    In New Orleans, our first-hand experience suggests that climate 
change is not an opinion: it is the Law of the Universe and we must 
heed Mother Nature's warnings. New Orleans and surrounding communities 
face climate challenges unlike any city in the United States. In our 
view, climate resiliency is a necessity as opposed to a political 
stance or market ideology. It is the price to pay for being a water 
dependent civilization. With sea levels potentially rising over 10 feet 
within the next 100 years and aging infrastructure, New Orleans must be 
proactive about ensuring a sustainable future for generations.
    The Finance Authority of New Orleans is a living example of the 
potential social and economic damage that climate events can inflict 
upon communities. Prior to Hurricane Katrina in 2005, FANO invested 
more than $650 million into New Orleans over the course of 25 years 
benefiting more than 7,000 families. However, FANO's balance sheet 
assets declined by over $350 million or 95% In the aftermath of 
Hurricane Katrina due to inadequate levees and infrastructure leading 
to families being displaced. The Great Recession immediately followed 
Hurricane Katrina and placed more stress on our financial condition and 
ability to invest in New Orleans. Such a significant loss of community 
wealth is damaging in an impoverished city like New Orleans. For many 
members of our community, FANO is their only access to capital for 
homeownership.
    In 2015, the City of New Orleans established a Climate Resilience 
Plan, which includes (1) embracing environmental change, (2) physically 
transforming New Orleans to increase resiliency against climate events, 
and (3) creating new job opportunities for distressed communities. In 
response, The Finance Authority of New Orleans has updated its business 
model to execute the ``green'' financing component of the City's 
Climate Resilience Plan. Beginning in 2020, FANO will provide capital 
to homeowners, businesses, and government agencies to stimulate the 
development of green homes, green infrastructure, stormwater systems, 
renewable energy, and other investments that advance the City's Climate 
Resilience Plan. These projects must utilize commercially viable 
techniques and technologies, such as permeable pavement, rain barrels, 
solar panels, and clean energy transportation. FANO is also 
prioritizing support for minority owned businesses and early stage 
technology companies developing solutions to help cities mitigate the 
effects of climate change. Our goal is to invest $500 million into the 
New Orleans economy over the next 5 years. Large corporations are being 
engaged to play a role as well. We need all hands-on deck if we are 
going to protect New Orleans from the next Hurricane Katrina.
    New Orleans' story represents Earth's constantly evolving climate 
reality and underscores the lack of investment America has made into 
critical infrastructure to protect our cities. Members of the United 
States Congress must take decisive action to ensure a climate protected 
future. As of today, America is not prepared for this new climate 
reality. Provided below are suggested actions from the perspective of 
local governments for making America more climate resilient:
         educate america about the realities of climate change
    <bullet>  Encourage cities to adopt common Climate Resiliency 
plans. Solutions for climate resiliency will vary per community. 
Nonetheless, cities should be encouraged to develop plans that can 
translate to other communities. Doing so will aid communication between 
cities and help markets develop around the economic activity that will 
stem from cities investing in climate resilience.
    <bullet>  Inform the public that climate change is a reality and 
must be taken seriously. The Federal Government has the responsibility 
to ensure public safety. Climate change is a public safety issue above 
all. Education campaigns targeting households and businesses should be 
launched in collaboration with cities and state governments.
    physically transform america by investing in climate resilience
    <bullet>  Incentive municipal bond investors to buy ``green 
bonds''. There has been interest in municipal green bonds, but issuance 
in 2018 was only $4.9 billion or about 1.5% of total municipal bond 
issuance for 2018. There is currently minimal financial incentive for 
investors to buy green bonds. Green bonds must be placed into a special 
category to encourage investors to make the transition so that we can 
physically transform America. Some are investing in green bonds because 
of internal investment policy mandates but greater stimulation is 
needed to make the municipal bond market fully adopt green bonds.
    <bullet>  Reestablish the renewable energy tax investment credit 
program and create tax credits for green infrastructure. Cities are 
maxed out on municipal debt. The municipal bond market currently funds 
approximately 90% of all capital projects. Cities do not have the 
ability to sell equity to investors as corporations do, which limits 
their market-based sources of funds to invest in climate resiliency. 
There is simply not enough capital to fund the trillions of dollars of 
infrastructure investment America needs to upgrade itself. Robust tax 
credit programs for renewable energy and green infrastructure projects 
would stimulate more public private partnerships and job creation.
    <bullet>  Create a market for affordable climate resiliency 
insurance. Government insurance is a critical component of capital 
markets. Many households and businesses are unable to access capital 
markets without government insurance products. Insurance for climate 
resiliency is no different. Insurance products tailored for climate 
resiliency need to be created to bring efficiency and access to the 
marketplace.
            create opportunity for underinvested communities
    <bullet>  Use climate resiliency as an opportunity to rebuild 
damaged communities. Many American communities are broken from a 
history of disinvestment and racial injustice. America has the 
opportunity to recreate its cities in a fair and equitable manner. The 
Federal Government should create incentives for minority and women 
owned businesses to play a key role in the physical transformation of 
America. So called ``Black'' communities around the country are at an 
even higher risk of failure due to the digital technology transition we 
are currently experiencing. Many of the jobs these families depend on 
for an additional paycheck will be obsolete in the coming years 
resulting in more poverty. Investing in minority businesses and 
communities is critical to the long-term success of America. Failing to 
do so will prevent America from reaching its full potential.
    Climate change is an issue this entire country should rally around 
regardless of race or political affiliation. America has the capacity 
to lead Earth in a new direction. Ignoring the power of Mother Nature 
does nothing but put us all at risk of displacement. The climate of 
Earth will constantly evolve, and we must evolve with it. America has a 
chance to recreate itself by investing in climate resilience. America 
also has the opportunity to rebuild communities that it damaged through 
enslavement, racial segregation and private prisons. If America is to 
stand the test of time, it must rebuild in a fair and equitable way. No 
community should be left behind, and no community should be given an 
unfair advantage over the other if we are to reach the apex of our 
potential.
    Thank you for the opportunity to communicate the climate resiliency 
needs of New Orleans and other cities facing similar issues. I urge you 
to take actions that place all of America's people in a position to 
live a decent quality of life. If we do not take care of the Earth, the 
Earth will not take care of us.

    Ms. Castor. Very good.
    Mr. Wemple, you are recognized for 5 minutes.

                  STATEMENT OF CHARLES WEMPLE

    Mr. Wemple. Chair Castor, Ranking Member Graves, and 
members of the committee, thank you for the opportunity to 
speak to you today about the important role smart finance and 
economic resiliency play in creating strong communities.
    I am actually thrilled to be here today to talk about the 
importance of economic resiliency and financial strength. This 
topic is very important, and it rarely gets the attention and 
consideration that it merits. It is often overshadowed by 
infrastructure discussions and housing needs after natural 
disasters. And it is something that ties all of our resiliency 
together, is by looking at our economies and how to make things 
stronger.
    My name is Chuck Wemple. I am the Executive Director of the 
Houston-Galveston Area Council. We are a Regional Planning 
Commission comprised of 13 counties and 110 cities along the 
upper Texas coast. We are home to about 7 million people, 
covering about 12,000 square miles, and we are prone to natural 
disasters, primarily flooding and hurricanes. And understanding 
our economic resilience is very important as we look to a 
future of more intense weather, rapid growth, and changing 
economies.
    The Houston-Galveston Area Council conducted some of the 
earliest work in our region on the effects of environmental 
trends on our quality of life and economy; the intersection of 
transportation, economy, housing, and the environment in 
creating healthy communities; and also a comprehensive economic 
development strategy, which includes resiliency as a primary 
goal. I have included links to these reports in my written 
testimony, and I hope you find them helpful as you move 
forward.
    We have also played a key role in the recovery of our 
communities after natural disasters, most notably starting with 
Hurricane Rita, followed by Ike, and most recently Harvey. And 
I come to you today with the perspective of about 14 years' 
experience working for large cities, small towns, suburban 
neighborhoods, and rural counties to help them understand their 
vulnerabilities in natural disasters and economic shocks, which 
is often overlooked at great expense, in my opinion--we focus a 
lot on natural disasters, but the economic shocks are equally 
as important--and how to better be prepared to bounce back when 
they are knocked off their feet.
    Each time we encounter a disaster, we learn a bit more. We 
learn how we might be able to make processes more streamlined 
and more nimble. Harvey changed the conversation for us, 
though. For the first time, we are hearing in our region a 
discussion of true regional, multijurisdictional projects, that 
one entity, no matter how large, cannot fix the root cause of 
the problem that is in front of us in our region.
    So we are starting to lead efforts, mostly brought together 
by our chief elected officials in urban counties and rural 
counties, to come together and better understand what those 
vulnerabilities are, face those risks head-on, and then come up 
with ways to develop kind of an investment portfolio approach 
to how they might be able to meet those needs.
    I would like to give you one quick example, if I could. We 
have a large water body called Cedar Bayou which drains from 
north to south in our region. It forms the boundary between a 
large urban county and two rural counties. And, in the past, 
those counties and cities had been competing against each other 
for different types of mitigation and disaster recovery 
funding. And they came together, and we helped lead the 
conversation to better understand what is truly happening, what 
is causing the flooding, and what are the most important 
projects to be funded. And so now there is a discussion of 
maybe the best project is not in an individual's jurisdiction 
but it might make a difference if it is somewhere else, could 
make their community better and take away some of that 
competition of funding.
    We have also seen programs in our area that are Federal 
that tend to be small and nimble programs, such as the Economic 
Development Administration and the U.S. Department of 
Agriculture. They tend to be able to get money out very quickly 
after a disaster and also in advance.
    The common characteristic between both those programs for 
us is they have a strong regional presence, they are closely 
connected to the communities, and they have some autonomy in 
being able to make quick funding decisions. And, as a result, 
they are able to bring help and relief very quickly to our 
communities.
    Lastly, back in the area that I represent in the State of 
Texas, we are not going to wait on seeing how the Federal 
funding comes down to us. Our State legislature took action in 
our most recent legislative session to allocate $3 billion out 
of our $10 billion rainy-day fund to put towards recovery and 
mitigation as well; also, made loans and grants available; and, 
also, training requirements for elected officials and others as 
well.
    I would just wrap up my testimony by saying that, if we 
focus on three primary things, we can create stronger, more 
resilient communities: first, working before the next disaster 
strikes to understand our vulnerabilities; facing our risks 
head-on; and then also developing a smart finance framework.
    What is missing is an overarching coordination event to 
help bring all of these different types of funding together to 
fund projects. So, instead of chasing individual funding 
streams, if we can have great projects that make our 
communities more resilient and understand our economy, then we 
can find ways to fund them.
    And, with that, I will conclude my testimony. Thank you.
    [The statement of Mr. Wemple follows:]

        Testimony--Chuck Wemple, Houston-Galveston Area Council

      Hearing of the House Select Committee on the Climate Crisis

                ``Creating a Climate Resilient America: 
                 Smart Finance for Strong Communities''

                      Wednesday, December 11, 2019

    Chair Castor, Ranking Member Graves, and members of the Committee, 
thank you for the opportunity to speak with you today about the 
important roles smart finance and economic resiliency play in creating 
strong communities. I'm thrilled to be here today to talk about the 
importance of economic resiliency and financial strength. This 
important topic rarely gets the attention and consideration it merits 
and is often overshadowed by infrastructure and housing needs after 
natural disasters.
    My name is Chuck Wemple and I am the Executive Director of the 
Houston-Galveston Area Council, a regional planning commission 
comprised of 13 counties and 110 cities along the upper Texas Coast. 
Our region is home to nearly 7 million people, covers over 12,000 
square miles, and prone to natural disasters--primarily flooding and 
hurricanes. Understanding our economic resilience is very important as 
we look to a future of intense weather, rapid growth, and changing 
economies.
    Our agency works with local communities to solve regional problems 
and improve quality of life for our residents--from workforce 
development to public safety, homeland security, transportation, 
economic development, services for the elderly, hazard mitigation and 
more. The Houston-Galveston Area Council has conducted some of the 
earliest work in our region on the effects of environment trends on our 
quality of life and economy, the intersection of transportation, 
economy, housing, and the environment in creating healthy communities, 
and a comprehensive economic development strategy which includes 
resiliency as a primary goal. I've included links to the reports of 
these efforts at the end of this document. We've also played a key role 
in the recovery of our communities after natural disasters; most 
notably Hurricanes Rita, Ike, and Harvey.
    I come to you today with the perspective of over 14-years of 
experience working with large cities, small towns, suburban 
neighborhoods, and rural counties, to help them understand their 
vulnerabilities to natural disasters and economic shocks and how to be 
better prepared and bounce back when knocked off their feet.
    After assisting over 500 households repair and rebuild their homes, 
working with scores of small businesses to re-establish their 
enterprises, allocating over $2 billion in federal disaster recovery 
funds, and crafting locally-driven hazard mitigation plans which list 
the needs of our communities in the hundreds of projects, I can tell 
you without reservation that understanding our vulnerabilities, facing 
our risks head on, and investing in resilient communities is critical 
to our future.
    So how can we all work together to make our communities stronger 
and more resilient? One--Be strategic with future funding for resilient 
and strong communities. Two--Lean in to hard conversations and face our 
risks head on. Three--Consider all sources of funding--federal, state, 
local, and private--as an investment portfolio to strengthen our 
communities.
    I want to be clear that the solution is not as simple as increasing 
funding. By planning in advance of the next disaster and better 
understanding the variety of funding available from federal, state, and 
local sources, we can spend the money already available better and more 
efficiently. Any future increases should be linked to up-front 
planning, focused on planning and projects that strengthen communities 
in advance of major setbacks, and in the case of federal funding, 
programmed through streamlined processes that quickly move money from 
the federal government into the communities in need of help.
    A critical part of strengthening our communities is to lean in to 
hard conversations about what could make our communities more resilient 
and turn challenges into opportunities. These hard conversations tend 
to be centered on impacts to local economies. I'll give three examples 
of where the Houston-Galveston Area Council is working with our local 
governments to start some of these conversations.
    We are coordinating a multijurisdictional project along Cedar Bayou 
a major waterbody in our region which affects three counties, multiple 
cities, rural areas, maritime shipping and the petrochemical industry. 
Cedar Bayou received some of the highest amounts of rainfall during 
Hurricane Harvey and produced massive flooding that impacted 
transportation networks, freight and goods movement, homes, and 
businesses. The first phase of our work used local knowledge to 
prioritize projects and guide future investment of federal, state, and 
local funding. The second phase includes forming a multijurisdictional 
alliance to pursue federal and state funding and a special district to 
produce local revenue. The most challenging discussions and most 
innovative thinking have centered on potential limits on economic 
development and raising local funding. What could have been a roadblock 
has become an opportunity by exploring new ideas for fees and 
incentives rather than an increased tax on land owners. One example is 
the possibility of a flood-mitigation bank which could be used to 
compensate a local government that may experience reduced tax revenue 
due to converting land to detention rather than pursuing traditional 
economic development opportunities. It is important to know that this 
example of upfront planning and collaboration is funded by local 
dollars and intended to provide a mechanism for strategic investment of 
future federal and state funds.
    In the coming year, the Houston-Galveston Area Council will use a 
similar approach to gauge local interest in a regional voluntary-
conservation plan which could provide a triple bottom line win of 
protecting natural resources and communities, reducing reliance on 
federal disaster recovery funds, and diversify our regional economy by 
increasing recreational opportunities for our residents. This project 
is locally funded. Results of this work may also be transferrable to 
help local communities offset the cost associated with a reduced tax 
base resulting from home buy out programs and other land use 
restrictions.
    Quality housing is directly linked to a community's economic 
resiliency. One of the small cities along our coast moved quickly to 
get city services restored after Hurricane Ike. The city also benefited 
from a strong group of local businesses who rapidly reopened their 
restaurants, shops, and storefronts. While everything seemed set for a 
speedy recovery, one important piece was missing. The workers. Many of 
the employees had been displaced and the city did not have adequate 
workforce housing nearby. The city suffered a worker shortage which 
slowed recovery. As a region we work to build off these experiences to 
better understand our vulnerabilities and seek solutions.
    Based on our experience working on economic development 
initiatives, job and population forecasts, and disaster recovery 
housing experience, the Houston-Galveston Area Council recently 
conducted the region's first housing assessment to identify local 
challenges to addressing unmet housing needs. One of the key findings 
of the work included identifying opportunities for local governments to 
work with the private sector and community nonprofits to increase 
access to workforce housing. Housing discussions can be challenging in 
many cities and towns but providing economic context and conducting the 
work at a regional level result in positive outcomes and strengthen our 
communities. As with the two previous studies, this work was locally 
funded.
    One of the first steps in considering the suite of funds available 
to increase community resilience as a portfolio is to develop a 
framework that either coordinates or consolidates the various funding 
streams.
    When communities are hit by a disaster, they are highly focused on 
immediate critical needs like clearing roads, restoring water and sewer 
service and removing debris and they simply don't have the time to 
figure out where to find resources offered by many federal agencies. 
Immediately after a disaster strikes, the Houston-Galveston Area 
Council launches a webpage providing access to the various agencies 
offering funding. This list is dynamic and grows and shrinks as 
programs start and end and can easily top a dozen federal and state 
agencies offering multiple programs. This effort focuses on recovery 
and as a result is reactionary rather than anticipatory.
    Our regional resiliency efforts are beginning to bring together 
opportunities from federal, state, and local funds and we will begin 
providing a funding toolbox to our members. The State of Texas took 
action during the most recent legislative session to open opportunities 
to use our reserve fund and create other loan and grant opportunities 
to help communities become more resilient and prepared. One particular 
area of private funding that holds promise for helping create more 
resilient residents is our new work with banks and lenders to leverage 
community reinvestment act funds in some of our most needy communities. 
These efforts will increase the fiscal strength of individuals by 
teaching financial literacy, improving creditworthiness, and providing 
access to financing. And we are exploring the viability of other 
mechanisms which could induce more private sector investment in 
mitigation and resiliency, including the possibility of franchise/
concession funding for maintenance and operation of infrastructure and 
mitigation banks.
    Regional planning commissions and federal agencies both have roles 
in coordinating resilience funding. The regional US Department of 
Commerce Economic Development Administration (EDA) office which covers 
Texas and the four surrounding states has taken the lead and partnered 
with us to host integration meetings which bring our communities and a 
host of other federal agencies together to make connections and help 
our communities see federal opportunities as a portfolio rather than as 
single agencies.
    Other federal models also exist and could be modified FEMA's ESF-14 
and the current National Framework could be good starting points but 
could use stronger economic resiliency components.
    We have observed that programs with relatively small allocations of 
funds that are also closely connected to local communities and have 
strong partnerships with local leaders and regional planning 
commissions are able to react nimbly and quickly deliver funds which 
brings hope to communities and speeds recovery. Two great examples 
include the US Department of Commerce Economic Development 
Administration (EDA) and the US Department of Agriculture. Both have 
strong district/regional presence, know local conditions and needs, and 
are empowered by their headquarters outside of Washington. Both 
programs exhibit accountability and flexibility to address local needs 
and priorities. One program of particular note from USDA is the 
Community Facilities Program which offers a mix of direct loans, grants 
and loan guarantees to assist rural communities in expanding, 
constructing, or improving community assets like fire and rescue 
stations, hospitals and clinics, public buildings and transportation 
infrastructure. This program increases economic competitiveness and 
resiliency.
    To summarize, the conventional approach of mitigation and recovery 
takes too long and has substantial impediments that limit our ability 
to create truly resilient communities. We can create stronger more 
resilient communities by focusing in three primary tasks. One--working 
before the next disaster strikes to understand our vulnerabilities. 
Two--facing our risks head on and identifying projects that mitigate 
these risks. Three, developing a smart finance framework that 
coordinates all sources of funding--federal, state, local, and 
private--as an investment portfolio to strengthen our communities. Look 
to regional planning commissions and local governments for exciting 
examples that can help illustrate how this is currently working and can 
be expanded. Nimble federal programs that rapidly provide funding to 
support the implementation of resiliency projects will be critical for 
our efforts to be successful.
    Together we can take a holistic approach to addressing our current 
challenges and making our communities better prepared to adapt to any 
changes that might come their way. The Houston-Galveston Area Council 
stands ready to serve. This concludes my testimony and I look forward 
to answering any questions you may have.
    Links to reports referenced on page 1 of this testimony.

    Regional Economic Resilience Plan, http: // www.h - gac.com / 
gulf - coast - economic -development-district/documents/
Regional%20Economic%20Resilience%20Plan.pdf
    Comprehensive Economic Development Strategy, http: // www.h - 
gac.com / gulf - 
coast-economic-development - district / documents / Draft - 2018 - 
2022 - GCEDD - CEDS - to -EDA.pdf
    Our Great Region 2040 Sustainable Communities Plan, http://
www.ourregion.org/download.html
    Foresight Panel on Environmental Effects, http://www.h-gac.com/
foresight-panel-on-environmental-effects/documents/
foresight&lowbar;panel&lowbar;on&lowbar;environmental&lowbar;effects&low
bar;
report.pdf

    Ms. Castor. Terrific. Thank you.
    Ms. McFadden, you are recognized for 5 minutes.

                  STATEMENT OF MARION MCFADDEN

    Ms. McFadden. Chair Castor, Ranking Member Graves, and 
other esteemed members of the committee, thank you so much for 
the opportunity to appear before you today to present my 
recommendations.
    I am the Senior Vice President for Public Policy and a 
Senior Advisor for Resilience at Enterprise Community Partners. 
And, as you heard, I previously spent 15 years working on 
disaster recovery and infrastructure programs at HUD.
    Enterprise is a nonprofit organization that for more than 
35 years has been helping build the capacity in both the public 
and private sectors so that capital can be deployed more 
effectively. We have invested more than $43 billion in 585,000 
homes across all 50 States.
    Currently, Enterprise is supporting rebuilding and 
resilience initiatives in Puerto Rico, the United States Virgin 
Islands, Florida, Georgia, Texas, Louisiana, North Carolina, 
D.C., New York, Michigan, Illinois, and California.
    At Enterprise, we don't just take it on faith that 
incorporating resilience measures will save money. We saw that 
firsthand in 2017 when a heavy rainfall flooded New Orleans and 
deluged the Faubourg Lafitte homes that Enterprise and 
Providence Community Housing rebuilt after Hurricane Katrina. 
Residents found their streets waist-deep in water, but our 
development escaped harm because the homes had been built an 
additional 2 feet above the base flood elevation, taking into 
consideration the possibility of future flooding. Our efforts 
to do what was within our own control paid off.
    Large-scale damage caused by wildfires, floods, tornadoes, 
and hurricanes has become the new normal. I commend the House 
and particularly this committee for embracing the need to 
better prepare communities. You have put your money where your 
mouth is by making funds available for resilience. I 
particularly thank you for authorizing FEMA to set aside 6 
percent of disaster relief funds for hazard mitigation 
projects.
    Despite growing interest and commitment though, we are not 
moving at the necessary pace of change. I would like to offer 
six brief recommendations.
    The first is that you charge Federal agencies with working 
together to provide the best available risk data to communities 
in a manner that is easily usable at the address or block 
level.
    No private company, nonprofit institution, or local 
government is better suited than the U.S. Government to make 
accurate climate science and risk data available to the public. 
In creating risk data, it is important to include the unique 
needs of elders, people with disability, people with limited 
English proficiency, and people of modest means.
    The Federal Government alone has the power to shine a light 
on the risk we face, but it will not need to act alone once 
adequate information is shared.
    My second recommendation is to develop a Federal framework 
for rating resilient infrastructure. This would help cities 
design, build, and operate infrastructure to ensure its long-
term viability and to deliver other environmental, economic, 
and social benefits.
    Thirdly, I recommend that Congress improve and harmonize 
Federal infrastructure requirements. Private investment in 
Federal infrastructure projects is hampered by inefficiencies 
and lack of certainty on the front end. In particular, Congress 
should require the executive branch to improve, simplify, and 
standardize its benefit-cost analysis methods and prioritize 
mitigation investments in communities with the highest 
vulnerability to hazards.
    My fourth recommendation is to ensure that all federally 
funded infrastructure projects, and not just disaster recovery 
projects, are built to resilience standards. Given our 
knowledge of what is to come, we must stop investing taxpayer 
dollars in projects that don't plan for reasonably foreseeable 
risks.
    Last year, Congress wisely approved a one-time infusion of 
nearly $16 billion to the Community Development Block Grant 
Program for resilience activities, such as risk assessments and 
planning, infrastructure upgrades, building retrofits, and buy-
outs. Funds were allocated only to those places that have had 
the worst disasters in recent years. My fifth recommendation is 
that Congress permanently expand the annual CDBG program to 
allow communities nationwide to embrace a proactive approach to 
mitigation and resilience.
    My final recommendation is to further explore partnering 
with the private sector to ensure robust investment in 
resilient infrastructure through the creation of a national 
infrastructure bank. The use of private financing for 
infrastructure projects in the United States is not as 
substantial as it should be. The infrastructure bank should 
provide funds to complement, not replace, existing Federal 
programs.
    In conclusion, in order to spur the level of investment and 
focus that is required to combat the looming threats of climate 
change, we must act boldly. I commend the committee for your 
commitment to examining how to best create a climate resilient 
America. Working collaboratively across all levels of 
government, the public sector, and nonprofit institutions, we 
can build resilient futures.
    Thank you, and I look forward to answering any questions 
you may have.
    [The statement of Ms. McFadden follows:]

 Written Testimony of Marion Mollegen McFadden, Senior Vice President, 
    Public Policy & Senior Advisor, Resilience Enterprise Community 
                                Partners

          Before the Select Committee on the Climate Crisis, 
                 United States House of Representatives

                           December 11, 2019

           Hearing on Creating a Climate Resilient America: 
                  Smart Finance for Strong Communities

                              Introduction

    Chair Castor, Ranking Member Graves, and members of the House 
Select Committee on the Climate Crisis, thank you for the opportunity 
to submit this testimony. I am the Senior Vice President for Public 
Policy and Senior Advisor for Resilience at Enterprise Community 
Partners. Enterprise is a nonprofit organization committed to making 
well-designed homes affordable so that communities can thrive. We have 
eleven regional offices and in the past several years have worked in 
more than 425 communities nationwide. For more than 35 years, 
Enterprise has been committed to helping communities break down silos 
and build organizational capacity in both the public and private 
sectors so that funding is deployed more effectively. We have invested 
more than $43 billion in capital to help create or preserve 585,000 
homes in all 50 states plus the District of Columbia and Puerto Rico. 
We have been working with disaster-impacted communities for well over a 
decade. This testimony is informed by work we did from 2017-2018 with 
more than two dozen American cities participating in the 100 Resilient 
Cities network, which was pioneered by The Rockefeller Foundation.
    Before working at Enterprise, I spent more than 15 years working on 
disaster recovery and infrastructure grants and loan guarantees at the 
U.S. Department of Housing and Urban Development (HUD). During that 
time, I served as Deputy Assistant Secretary for Grant Programs, 
overseeing billions of dollars in infrastructure programs, and served 
as Chief Operating Officer and Acting Executive Director of the 
Hurricane Sandy Rebuilding Task Force, overseeing development of an 
innovative $1 billion flood control design competition. I have learned 
that while no two disasters are alike, the people whose lives, homes, 
and jobs are affected by the worst disasters all need the same thing--a 
safe and secure future, starting with safe places to live, work, get an 
education, and receive medical care. And they need reliable routes to 
get to where to where they need to be.
    Currently Enterprise is supporting rebuilding and resilience 
initiatives in Puerto Rico, the United States Virgin Islands, Florida, 
Georgia, Texas, Louisiana, North Carolina, D.C., New York, Michigan, 
Illinois, and California. Enterprise provides a spectrum of resources 
in the form of capital, programs, and policy both before and after 
disasters occur. We are not first responders, but rather act as an 
intermediary supporting emergency preparedness, mitigation planning, 
and long-term disaster recovery. Through our nationwide work as a 
Community Development Financial Institution (CDFI), a syndicator of 
Low-Income Housing Tax Credits, and investor of other public and 
private funds, we have built a track record of successfully investing 
capital to build more resilient futures.
    At Enterprise, we don't just take it on faith that incorporating 
resilience measures saves money. We saw that firsthand in 2017 when a 
very heavy rainfall flooded New Orleans and tested the new Faubourg-
Lafitte development which Enterprise and Providence Community Housing 
rebuilt after Hurricane Katrina. The deluge overwhelmed the city's 
drainage systems. Residents found their streets waist-deep in water, 
but our development escaped harm. Water did not breach the first floor 
of our property because the homes had been built two feet above the 
base flood elevation, taking into consideration the possibility of 
future flooding. These homes were unharmed, so residents could quickly 
get back to their daily lives once the water receded, and there was no 
need to make a claim on the development's National Flood Insurance 
Program policy. Better underground infrastructure is needed throughout 
the city to allow water to drain more quickly, but our efforts to do 
what was within our own control to minimize risk paid off.
    I have learned that resilience isn't just about a building or road 
or sewer system, but also about drawing from the inherent strength in 
communities to help everyone prepare for and move forward in the face 
of our new climate future. As Members of this Committee well know, the 
challenges of our new climate are many, so Enterprise has identified 
the risk of our changing climate and its disproportionate effect on 
lower income communities and communities of color as an existential 
threat that we must address. We stand committed to deploying existing 
and new solutions that are cohesive and equitable, ideally harnessing 
both public and private will and capital to keep people and property 
safe from harm.

                   The Challenges of our New Climate

    The increasing intensity of natural disasters all over the United 
States has placed a significant strain on communities and local 
economies. Since 1980, the U.S. has endured 254 weather and climate 
disasters where the overall cost reached or exceed $1 billion--totaling 
more than $1.7 trillion in damage. The frequency of these devasting 
storms is only increasing, and already this year there have been ten 
weather and climate disaster events with losses above $1 billion each. 
2019 marks the fifth consecutive year in which 10 or more billion-
dollar disaster have impacted the U.S.\1\ Large-scale damage caused by 
wildfires, floods, tornadoes, and hurricanes has become the new normal. 
A recent report by the Trump Administration forecasted that this trend 
will continue in the coming years and decades. The Fourth National 
Climate Assessment stated that not only will our changing climate 
exacerbate existing vulnerabilities across the United States but that 
it will also present growing challenges to human health and safety, 
quality of life, and the rate of economic growth.\2\
---------------------------------------------------------------------------
    \1\ NOAA National Centers for Environmental Information (NCEI) U.S. 
Billion-Dollar Weather and Climate Disasters (2019). https://
www.ncdc.noaa.gov/billions/
    \2\ Jay, A., D.R. Reidmiller, C.W. Avery, D. Barrie, B.J. DeAngelo, 
A. Dave, M. Dzaugis, M. Kolian, K.L.M. Lewis, K. Reeves, and D. Winner, 
2018: Overview. In Impacts, Risks, and Adaptation in the United States: 
Fourth National Climate Assessment, Volume II [Reidmiller, D.R., C.W. 
Avery, D.R. Easterling, K.E. Kunkel, K.L.M. Lewis, T.K. Maycock, and 
B.C. Stewart (eds.)]. U.S. Global Change Research Program, Washington, 
DC, USA.
---------------------------------------------------------------------------
    While disasters are agnostic to whether a neighborhood is high or 
low income, low-income households and vulnerable communities generally 
pay the highest price when a major disaster strikes.\3\ Low-income 
populations and people of color are less likely to have the resources 
necessary to prepare for a storm and they are more likely to lack 
savings before disasters strike. Evacuating alone can be too costly for 
many, given that fewer than 40 percent of Americans have enough savings 
to cover a $1,000 emergency.\4\ Socially vulnerable populations are 
more likely to live in physically vulnerable areas that have greater 
natural hazard risks due to historical, economic, and political factors 
and thus cost less than homes in safer locations. Lower-quality homes 
are less stable in the high winds of hurricanes and tornados, posing 
additional risk to individuals and families who cannot afford to pay 
for something safer. Experience shows that natural disasters exacerbate 
wealth inequality.
---------------------------------------------------------------------------
    \3\ Krause, Eleanor, Reeves, Richard V. ``Hurricanes hit the poor 
the hardest.'' September 18, 2017. https://www.brookings.edu/blog/
social - mobility- memos /2017/09/18/hurricanes - hit - the - poor- 
the-hardest/
    \4\ Blatchford, Laurel. ``Climate Change Disproportionately Affects 
Low-Income Communi- 
ties.'' December 7, 2018. https: // www.enterprisecommunity.org / 
blog / 2018 / 12 / climate - change - disproportionately-affectslow-
income-communities
---------------------------------------------------------------------------
    I commend the Congress and particularly this Committee for 
embracing the need to better prepare communities and making funds 
available for resilience, adaptation and mitigation. In February 2018, 
Congress approved a one-time of infusion of nearly $16 billion for HUD 
to prepare communities for future disasters. The HUD Community 
Development Block Grant (CDBG)-Mitigation program will fund disaster 
mitigation activities such as mitigation planning, infrastructure 
upgrades, building retrofits, and strategic relocation (also known as 
buyouts). Funds were allocated to places that have had the worst 
disasters recently, including California, Florida, Georgia, Missouri, 
Texas, West Virginia, Puerto Rico and the U.S. Virgin Islands. As with 
the annual CDBG program, the CDBG-Mitigation program appropriately 
gives flexibility to state and local governments to choose from a menu 
of eligible activities to suit their local needs. Mitigation measures 
have been proven to more than pay for themselves. A FEMA-endorsed study 
by the National Institute of Building Science found that taxpayers save 
an average of $6 in future disaster recovery costs for every dollar 
spent on hazard mitigation.\5\ I further commend the Congress for 
authorizing FEMA, through the Disaster Recovery Reform Act, to set 
aside six percent of Disaster Relief Fund dollars for hazard mitigation 
projects.
---------------------------------------------------------------------------
    \5\ National Institute of Building Science, https://www.nibs.org/
page/mitigationsaves
---------------------------------------------------------------------------
    As a nation we are becoming more aware of our physical and 
financial exposure to impacts of the changing climate, with about six 
in ten Americans at least ``somewhat worried'' and more than one in 
five Americans (23%) ``very worried'' about global warming.\6\ However 
our worry has not been matched with proactive lifestyle, zoning, and 
building code changes. All over the country, people are confused about 
what they can do to protect themselves and their communities from 
what's to come. Forward-thinking cities, including more than two dozen 
American cities that participated in The Rockefeller Foundation's 100 
Resilient Cities initiatives, have been working hard to design 
community-scale plans for protection, setting an excellent model for 
similarly-situated cities. But still as a nation we are underinvesting 
in preparing for the impacts of extreme weather events. Despite growing 
interest and commitment, our housing, infrastructure, and regions are 
not mitigating or adapting at the necessary pace of change. And 
inefficiencies in programs which are tolerable in normal times 
exacerbate post-disaster challenges.
---------------------------------------------------------------------------
    \6\ https: // climatecommunication.yale.edu / publications/climate-
change-in-the-american-mind-april-2019/4/
---------------------------------------------------------------------------
    In the extreme, the lack of physical infrastructure and natural 
systems necessary to withstand extreme weather conditions has led to 
displacement of entire communities of people, from Alaska to Louisiana 
to Puerto Rico. And we have a lack of user-friendly available data that 
can educate our communities on hazard risk, so we continue to build 
infrastructure that is not designed to withstand what's to come.
    This lack of investment and forethought leaves our communities 
vulnerable. As a result, the Federal Government is often called upon to 
authorize large supplemental appropriations to help communities rebuild 
homes and apartment buildings, reopen hospitals and schools, and cover 
uninsured losses for small businesses. According to the Government 
Accountability Office (GAO), since 2005 the federal government has 
spent at least $450 billion on disaster assistance. The unprecedented 
levels of funding for disaster recovery must be spent with an eye to 
the future. And to improve efficiency, communities should be encouraged 
to align their federally-mandated planning processes, so that, for 
example, a community's hazard mitigation plan aligns with its 
consolidated plan and disaster recovery plan.
    Local governments rely on partnerships, in many cases with the 
Federal Government, to make their communities safer and more resilient. 
Federal grants, loans, loan guarantees, and other federally-backed 
sources such as mortgage insurance and flood insurance help cities 
finance and protect critical investments. Federal regulations and 
guidance set minimum requirements and provide information to guide 
cities' decision-making and use of federal dollars. And federally 
generated data inform project planning and implementation. The Federal 
Government has done an admirable job of investing in states' and 
cities' projects and programs, providing some data and technical 
expertise and regulating private and utility actors. Communities deeply 
benefit from and value these investments, but they often come with 
challenges. For instance, while cities rely on federal funds for 
affordable housing, infrastructure, and small businesses growth, all 
are authorized by different laws. Each funding source and corresponding 
law comes with a unique set of regulations, and this complexity can 
create barriers for cities and counties trying to use federal funding 
efficiently for integrated and effective solutions. In addition, while 
the federal data on flood plains is invaluable to cities, in many 
places, these data are out of date, lacking a reflection of changes to 
the built environment and climate conditions. And all communities 
suffer from the lack of a single source of data identifying all climate 
risks.
    Through this testimony I recommend that Congress:
    1.  Charge Federal agencies with working together to provide the 
best available risk data to communities in a manner that is easily 
useable at the address or block level
    2.  Develop a Federal framework for rating resilient infrastructure
    3.  Improve and harmonize federal infrastructure requirements
    4.  Ensure that all federally-funded infrastructure projects--not 
just disaster recovery projects--are built to resilience standards
    5.  Increase HUD Community Development Block Grant (CDBG) program 
funding and mandate that a portion of the funds be used to identify and 
address local risks
    6.  Create a National Infrastructure Bank to further private 
investments in resilience

                            Recommendations:

    Charge Federal agencies with working together to provide the best 
available risk data to communities in a manner that is easily useable 
at the address or block level

    No private company, nonprofit institution, or local government is 
better suited than the U.S. Government to make accurate climate science 
and risk data available to the public. Further, in the absence of 
publicly available, uniformly applied metrics evaluating communities, 
individual jurisdictions and companies could suffer a ``first-mover 
disadvantage'' for disclosing risks while their counterparts do not.\7\ 
The Federal Government alone has the power to shine a light on the risk 
we face, but it will not need to act alone once adequate information is 
shared. In creating risk data, it is important to include the unique 
needs of elders, people with disabilities and dependence on medical 
equipment, people with limited English proficiency, and people of 
modest means.
---------------------------------------------------------------------------
    \7\ See Alice C. Hill & Leonardo Martinez-Diaz, Building a 
Resilient Tomorrow, Oxford University Press 2020, p. 61.

---------------------------------------------------------------------------
    Develop a Federal framework for rating resilient infrastructure

    Federal agencies should develop a framework for rating and 
evaluating resilient infrastructure design. The framework should serve 
as a best practice guide to help cities design, build and operate 
infrastructure to ensure its long-term viability and to deliver other 
environmental, economic, and social benefits, where feasible. Once a 
rating system is designed, federal agencies should then condition the 
receipt of federal funds on projects meeting a required resilience 
rating.
    A rating framework would help agencies ensure that federally funded 
projects are evaluated consistently, and that federal investments are 
yielding resilient infrastructure systems. This consistency could, over 
the long term, create more efficiency and reduce operating and 
insurance costs, as well as mitigate risk. And predictability would 
remove a current obstacle to private investment.
    The rating system should:
    <bullet>  Include metrics to help decision makers evaluate the 
factors of infrastructure resilience.
    <bullet>  Establish risk tolerance guidelines and help project 
designers incorporate risk mitigation.
    <bullet>  Address both future shocks and stresses, including sea 
level rise, extreme heat and changing precipitation patterns.
    <bullet>  Help design and develop infrastructure investments that 
provide multiple benefits, including projects that deliver improvements 
to infrastructure and the environment (including promoting reliable 
communication and mobility; ensuring continuity of critical services; 
providing and enhancing natural and man-made assets); health and well-
being (including air quality and water quality); economy and society 
(including financial systems and job opportunities); leadership and 
strategy (including engaging and empowering community stakeholders).
    <bullet>  Include guidance on how cities can rehabilitate or 
incorporate resilience into existing infrastructure or integrate 
resilience into asset management planning.
    <bullet>  Complement other sustainability rating systems that 
address specific infrastructure types (e.g. roads or ports) or can be 
incorporated into them (as the Water Environment Federation has done 
with Envision).
    <bullet>  Help decision makers prioritize community needs to ensure 
that investments made in infrastructure systems are efficient, 
equitable and risk-based.
    <bullet>  Require compliance with local, state and federal law.
    Congress should direct the National Institute of Standards and 
Technology to work with federal agencies, the U.S. Global Change 
Research Program and other private sector standard-developing 
organizations, to develop or identify certifications for resilient 
infrastructure that also pinpoint a consistent and authoritative set of 
climate information to be used.
    Once a framework is identified, Congress should require its use in 
appropriation bills, such as the water resources developments acts, 
military appropriations and transportation reauthorization bills.
    Congress should require agencies to prioritize projects that 
achieve higher resilience scores when awarding funds for infrastructure 
projects through discretionary competitive grant programs such as the 
Transportation Investment Generating Economic Recovery (TIGER) as well 
as for United States Army Corps of Engineers and Department of Defense 
infrastructure work.

    Improve and harmonize federal infrastructure requirements

    Private investment in federal infrastructure projects is hampered 
by inefficiencies and lack of certainty on the front end. Many federal 
funding programs require applicants to demonstrate that their project 
is ``cost-effective'' by submitting a complex benefit-cost analysis 
(BCA, also known as a benefit-cost ratio or BCR) showing how the 
benefits of the project outweigh the costs. It is prudent to ensure 
that taxpayer dollars are invested in projects that will deliver 
maximum results. However, a traditional BCA imposes unnecessary 
transaction costs and decreases government efficiency and innovation at 
both the federal and local levels. This problem is typical for both 
routine and disaster recovery projects. Current agency practices for 
comparing benefits to costs are flawed and the complexity and 
uncertainties discourage leveraging federal funds with private 
investments.
    There is no harmonization between departments and agencies such as 
the Departments of Transportation, Homeland Security, Commerce and the 
U.S. Army Corps of Engineers. Each federal agency has its own processes 
and formulas for developing a BCA. This system creates burdens on both 
federal agency staff and the cities applying for federal funds, because 
applicants are saddled with additional transaction costs by having to 
prepare different BCAs for different agencies, often for the same 
project. Typical agency BCA methods do not properly account for 
increasing potential for loss in consideration of future risks, such as 
impacts of climate change. BCA methods do not adequately allow project 
applicants to capture a project's economic, social and environmental 
co-benefits, including ecosystem services, or adequately quantify 
externalities of either cost or benefit. The discount rate is a rate 
set by the Office of Management and Budget (OMB) to determine the 
``present value'' of the investment being made, using the concept of 
the time value of money to normalize when benefits are realized. 
However, it generally does not accurately account for future risk, or 
for projects like wetland restoration that appreciate over time.
    The complexity of the BCA process for many federal grants 
discourages smaller communities with fewer staff and less resources 
from applying for competitive grants such as FEMA's Pre-Disaster 
Mitigation program grants. Rather than investing in technical 
assistance to teach smaller communities to navigate varying and complex 
approaches across agencies, Congress should require the Executive 
Branch to improve, simplify, and harmonize its BCA methods.
    Congress should commission a National Academies study to develop a 
process for harmonizing benefit-cost analyses across agencies and 
departments that grant funds or regulate infrastructure and other 
development projects. This group would be charged with evaluating 
current agency BCA processes and identifying options for aligning these 
processes in ways that account for the full life-cycle benefits of a 
project, future disaster risks to the project, as well as the full 
range of social, economic, and environmental co-benefits. An explicit 
goal of the endeavor should be facilitating the use of natural 
infrastructure projects such as restoration of wetlands which will have 
low costs to operate and maintain over time. The National Academies, 
Department of Transportation, Economic Development Agency, and Housing 
and Urban Development should engage the public, including finance, 
insurance, engineering and construction, utility, credit rating, and 
institutional investor communities, in an open dialogue about best 
practices for conducting BCA for projects with a long design life. 
These discussions should address calculations of future risks and 
benefits, given projected climate and other changes.
    The Congressional Budget Office should ensure that project budget 
analysis incorporates risk mitigation's impact on future savings to 
infrastructure and communities.

    Ensure that all federally-funded infrastructure projects--not just 
disaster recovery projects--are built to resilience standards

    Agencies such as HUD and FEMA provide assistance for resilient 
rebuilding to communities that have survived the worst. Those grant 
funds come with standards for resilient rebuilding, such as increased 
elevation of homes and critical facilities located in the 100 year 
flood plain, in consideration of future and not just current risk. 
However, the regular, non-disaster-specific Federal resources available 
for building roads, bridges, schools, hospitals, nursing homes, 
affordable housing, and other public facilities do not consistently 
require a consideration of flood risk over the course of the useful 
life of infrastructure. Every year, flooding is the costliest type of 
disaster damage.\8\ We should stop investing taxpayer dollars in 
projects that don't plan for reasonably foreseeable risks. Congress 
should direct funded agencies to reinstitute the Federal Flood Risk 
Management Standards and develop other cross-cutting resilience 
requirements.
---------------------------------------------------------------------------
    \8\ Lightbody, Laura. ``Flooding Disasters Cost Billions in 2016.'' 
February, 2017. https://www. pewtrusts.org/en/research-and-analysis/
articles/2017/02/01/flooding-disasters-cost-billions-in-2016
---------------------------------------------------------------------------
    Proactively combating the impact of these disasters and building 
towards a more resilient future begins with building codes. In January 
2019, a study by the National Institute of Building Sciences found that 
up-to-date model building codes save $11 for every $1 invested through 
earthquake, flood and wind mitigation benefits.\9\ FEMA's current 
Strategic Plan highlights the fundamental role that up-to-date building 
codes have to play in disaster resilience and the promotion of public 
safety and property protection. However, more than two-thirds of 
communities facing hazard risk use out-of-date codes. If the Federal 
government is going to continue to supply state and local jurisdictions 
with aid to rebuild, they should require new repairs and construction 
to be done to the latest model building code. Additionally, where 
funding is going to new construction or substantial rehabilitation, 
they should meet green building certification, such as my 
organization's Enterprise Green Criteria.
---------------------------------------------------------------------------
    \9\ National Institute of Building Science, https://www.nibs.org/
page/mitigationsaves
---------------------------------------------------------------------------
    The benefits of consistent codes are clear and will ensure that we 
have safer and more resilient homes, schools, workplaces, and childcare 
and healthcare facilities. Additionally, uniform adoption of modern 
model building codes is one of the easiest, most cost-effective ways to 
address our nation's affordable housing shortage. While it is vital 
that we tackle affordable housing challenges for American families, 
building cheap homes that will collapse in the face of any event, from 
minor flooding to historic is not the way to do it. All families 
deserve well-built homes they can afford, as well as the peace of mind 
that comes with knowing that their home can survive a natural disaster 
without bankrupting them. To protect families across the country, it's 
vital that we take these steps.

    Increase Housing and Urban Development Community Development Block 
Grant (CDBG) program funding and mandate that a portion of the funds be 
used to identify and address local risks

    CDBG provides essential annual resources to more than 1,200 cities, 
counties, states and rural areas nationwide. This formula allocation 
program is a crucial source of funding for a wide range of local 
projects, including funding infrastructure improvements, filling 
funding gaps in the development of affordable housing, and supporting 
code enforcement and other essential municipal services that have a 
real impact on the quality of a city's housing stock. For more than 40 
years, CDBG has served as the cornerstone of the federal government's 
commitment to partnering with states and local governments to 
strengthen our nation's communities and improve the quality of life for 
low- and moderate-income Americans.
    CDBG can be a powerful tool for advancing the resilience and 
adaptive capacity necessary to address future climate risks. The 
program already has a successful track record of being able to leverage 
funds. Based on reported leveraging data from 2018, there were 1,358 
public infrastructure and public improvements activities recorded. 
These activities were funded with more than $390 million of CDBG funds 
and leveraged $563 million additional funds. Congress should expand the 
annual CDBG program, making additional capital available every year for 
activities now eligible under the one-time CDBG-Mitigation program. 
This funding should require that grantees adhere to forward-facing 
building codes, to ensure that new projects are up to the latest 
standards. This will allow communities nationwide to embrace a 
proactive approach to mitigation and resilience regardless of whether 
or not they have already been affected by a major disaster.
    The program should identify and expedite activities known to 
mitigate risk:
    <bullet>  Explicitly state that eligible hazard mitigation projects 
include all activities permitted in FEMA's Hazard Mitigation Grant 
Program and Pre-Disaster Mitigation Program.
    <bullet>  Create catalogue of best practice mitigation strategies 
states can pre-approve and preauthorize for grantees.
    <bullet>  Maintain properties that have flooded multiple times as 
open space in perpetuity and deed restricted or used productively for 
water management or similar mitigation purposes.
    <bullet>  Encourage grantees to use funds for green infrastructure 
projects or other nonstructural, nature-based flood protections that 
are known to adapt to as well as mitigate flood risk and provide 
multiple co-benefits. Also allow funds to be used for operation and 
maintenance of green infrastructure projects.
    <bullet>  Allow and encourage other activities that reduce risk and 
benefit LMI communities.
    Maintain a continuous feedback loop on whether programs are 
sufficient to meet community needs with ongoing CDBG-DR community 
participation requirements:
    <bullet>  Direct grantees to conduct a minimum number of public 
hearings to maximize community input and buy-in and for all major 
projects and programs.
    <bullet>  Direct grantees to create advisory bodies of affected 
populations (including homeowners participating in buy-out programs, 
small business owners receiving loans for their properties, residents 
and businesses living near infrastructure projects with $50 million or 
more of federal funding, etc.) to consider ongoing decisions and input 
as programs and projects progress. Grantees should produce periodic 
reports detailing why proposed changes were accepted or not accepted. 
Prioritize use of taxpayer dollars for projects that both reduce risk 
and deliver other needed benefits for low- and moderate-income 
communities.
    Require that mitigation projects deliver a benefit greater than 
risk reduction alone:
    <bullet>  Encourage CDBG-eligible activities that produce risk 
reduction along with other co-benefits to low-income communities.
    <bullet>  Prioritize mitigation investments in communities with the 
highest vulnerability to hazards.

    Create a National Infrastructure Bank to further private 
investments in resilience

    The Federal Government should further explore partnering with the 
private sector to ensure robust investment in resilient infrastructure 
investment through the creation of a National Infrastructure Bank. The 
use of private financing for infrastructure projects in the United 
States is not as substantial as it should be, in part because financing 
requires a revenue stream to pay back the loan. Infrastructure service 
fee structures do not account for the full cost of service, repair and 
maintenance and thus often private investors do not deem these projects 
to be financially prudent.
    By creating a National Infrastructure Bank (NIB), Congress could 
enable private sector investment to rehabilitate and enhance the 
resilience of infrastructure. Infrastructure banks are often 
capitalized by public sector dollars, with public sector money then 
lent to state and local governments at below-market rates to attract 
private loans or deployed via loan guarantees for infrastructure 
projects that provide a clear public benefit. Revenues generated from 
the projects are then used to repay the loan and recapitalize the bank 
to fund other projects. To ensure that projects receiving NIB financing 
are meeting the resilience needs of cities, legislation creating a NIB 
should be designed with the following principles in mind. The NIB 
should: provide funds to complement, not replace, existing federal 
programs such as the Highway Trust Fund and State Revolving Funds and 
provide financing options for a variety of infrastructure projects 
(e.g., energy, water, transportation, communications).
    The NIB could bring a great deal of value to many cities. For 
example, New York City's partially funded $3.7 billion coastal 
protection plan calls for flood-protection infrastructure and ecosystem 
restoration to enhance the city's flood resilience.\10\ Berkeley's 5-
year, $30 million initiative calls for street improvements and green 
infrastructure to address storm water management and other resilience 
objectives.\11\ These investments would not only help these cities 
enhance their resilience, but also create job opportunities and 
increased economic investment into local city economies by supporting 
goods procurement and support for service.\12\
---------------------------------------------------------------------------
    \10\ 100 Resilient Cities Resilience Strategy accessed from 
Georgetown Climate Center Adaptation Clearinghouse: http://
www.adaptationclearinghouse.org/networks/100rc-resilience-advisory-
council/resilience-strategies.htm
    \11\ This initiative was passed by voters in 2012. http://
www.ci.berkeley.ca.us/City_Manager/Press_Releases/2014/2014-08-
28_Measure_M_spurs_the_paving_of_streets _ throughout _ Berkeley. aspx
    \12\   
---------------------------------------------------------------------------
    Congress should create and capitalize a NIB to facilitate private 
financing for projects aimed at rehabilitating and modernizing 
infrastructure. The expertise of leading infrastructure agencies should 
be sought in the design of the NIB to ensure that NIB financing can be 
blended with other public-sector dollars and financing mechanisms. 
Departments with leading roles in infrastructure funding and financing 
include the Department of Transportation, US Department of Agriculture 
with investments in rural communities, Department of Defense, 
Department of Energy and the Environmental Protection Agency.

    Conclusion
    In order to spur the level of investment and focus that is required 
to combat the looming threats of climate change, we must act boldly. I 
commend the House Select Committee on the Climate Crisis for your 
commitment to examining how to best create a climate resilient America 
and thank you for seeking my organization's input. Working 
collaboratively across all levels of government, the private sector, 
and nonprofit institutions, we can build resilient futures.

    Ms. Castor. Well, thanks to all of our witnesses for your 
very substantive recommendations to the committee.
    At this time, I will recognize Ms. Bonamici for 5 minutes.
    Ms. Bonamici. Thank you very much, Chair Castor and Ranking 
Member Graves.
    And thank you to the witnesses for this important 
conversation, for bringing your expertise.
    I am from the Pacific Northwest, where we know, of course, 
climate change isn't just a distant threat; it is a reality. 
And we know the science is clear, and we know the consequences 
of inaction are serious. If we don't take steps to help our 
communities prepare for the climate crisis, the effects will 
continue to disproportionately affect frontline communities.
    In the Pacific Northwest, this includes Tribes that have 
treaty rights and a deep cultural connection to our natural 
resources but also economically disadvantaged communities and 
communities of color. So I am glad that some of this hearing 
today is focused on making vulnerable communities a priority.
    The Portland Harbor Superfund Site in my home State of 
Oregon was added to the EPA's National Priorities List in 
December of 2000. I will say that again: December of 2000. The 
site is extremely complex. It involves hundreds of contaminants 
from industrial activities, more than 150 potentially 
responsible parties, and thousands of acres along the 
Willamette River, which passes through Oregon's most populous 
city.
    And, last month, the GAO released a new report finding that 
60 percent of Superfund sites are threatened by the climate 
crisis. And we also know from a 2017 report from the EPA that 
the communities near Superfund sites across the country 
disproportionately affect people of color, low-income 
households, and individuals with less than a high school 
education.
    So, Mr. Gaffigan--did I say your name right? Was I close?
    Mr. Gaffigan. You were right on.
    Ms. Bonamici. In your testimony, you mentioned that the 
Federal Government does not currently strategically identify 
and prioritize projects to address significant climate risks.
    And as our committee works on recommendations to direct 
agencies like the EPA to consider climate resilience when 
making investments in programs like the recovery of Superfund 
sites, how can we incentivize Federal agencies to become more 
responsive to the needs of frontline communities?
    Mr. Gaffigan. Yeah, I think it is an excellent question. 
And, as you know, in that report, what we pointed out with EPA 
is they lack an alignment of their goals to the risk associated 
with climate change. And, you know, again, it starts with that 
vision and those goals.
    And we think, not only at EPA but in terms of a broader 
strategy, whatever goals and vision can be set aside that 
identifies the needs of those communities--those communities 
that are in position to not have the resources to apply for 
grants, those communities need to be helped and can be 
targeted, but we don't have goals around that. And I think that 
would be something Congress can think about, in terms of 
targeting help for these communities.
    Ms. Bonamici. Thank you so much.
    And, Mr. Gaffigan again but also Ms. McFadden, you each 
mentioned the concept of a climate infrastructure bank to help 
finance resilient infrastructure projects. And I frequently 
hear from elected officials in the Pacific Northwest about the 
need for additional opportunities to leverage local and Federal 
dollars in transportation and infrastructure projects.
    So how could the structure of a climate infrastructure bank 
complement existing Federal funding opportunities? And then, 
also, how should it be structured to make sure that it is 
valuable for both large, urban areas but also smaller, rural 
communities?
    And I will start with Ms. McFadden and then go to Mr. 
Gaffigan.
    Ms. McFadden. Thank you so much for the question.
    Of course, an infrastructure bank won't work for every type 
of infrastructure project. There needs to be some ability to 
pay back a loan. But for those projects where there is a 
reasonable opportunity to find that payback, it is going to be 
important to subsidize capital and make sure that that is 
available for communities.
    Ms. Bonamici. Thank you.
    Mr. Gaffigan. And I would just add that, you know, in terms 
of the Federal Government, I talked about the Federal 
Government being in a position to provide information, 
integration, and incentives. And I think that incentive piece 
is the part that really can help here, by incentivizing local 
communities with incentives to take complementary types of 
action, such as the latest building codes and those sorts of 
things. So I think that is the role the Federal Government can 
play when it comes to incentives.
    Ms. Bonamici. Thank you very much.
    I am going to yield back the balance of my time to the 
chair. Thank you.
    Ms. Castor. Mr. Palmer, you are recognized for 5 minutes.
    Mr. Palmer. Thank you, Madam Chairman.
    I want to talk about a couple of things here, and 
particularly with the GAO. I tell people that GAO is my 
favorite organization, but I am a nerd, so that speaks volumes 
about my personality, I guess.
    Mr. Gaffigan. Well, we are all nerds too, so that is 
probably why.
    Mr. Palmer. That is why we get along so well.
    Mr. Graves. Say all that behind you all's back.
    Mr. Gaffigan. No, they usually say it in front of us.
    Mr. Palmer. No, I work for a couple engineering companies, 
and I tell people engineers are people who are good at math but 
don't have enough personality to be an accountant. No offense 
to the accountants in the room.
    But one of the things--and we actually had a discussion 
about this in one of the hearings that I chaired on the 
Oversight Committee, is about the failure of various Federal 
agencies that are listed as high-risk to follow through and 
make the necessary corrections.
    And I think in your testimony you point out that the GAO 
has highlighted the Federal agencies related to climate change 
and the risk and practically nothing has been done. Is that 
correct?
    Mr. Gaffigan. We have a long way to go. It is a hard task, 
I will say that, because they are trying to coordinate 
activities across a very crosscutting type of issue, and we are 
not set up for that.
    And, again, I will go back to--the one theme here is that 
there hasn't been a strategic vision established. So a lot of 
agencies are interested in helping, but a lot of times we hear, 
``That is not my job,'' or, ``I don't have the authority,'' and 
that is the thing that needs to be fixed.
    Mr. Palmer. But you also identify in your testimony, or 
mention in your testimony, about the misuse of funds, the lack 
of--for lack of a better word, the lack of transparency and 
accountability, which has been a problem throughout the Federal 
agencies, particularly in respect to improper payments and that 
sort of thing, which brings me to what Mr. Burns mentioned 
about Katrina.
    There is a long history there of bad decisions and misspent 
money that you really don't address in your report but I think 
should be addressed, in respect to what happened with Katrina, 
that was avoidable. There were literally hundreds of millions 
of dollars that were misspent--ill-conceived projects to 
protect the city from, at a minimum, a Category 3 hurricane; 
money that was spent to put in access to casinos. The Corps of 
Engineers wanted to put in locks to protect the city from 
flooding from Lake Pontchartrain; instead, contracts were let 
to raise the levees, which were in--the foundations were 
inadequate. The piling wasn't deep enough. And those pilings 
collapsed, and that is what flooded many of the streets.
    I think that has to be part of what we address in 
resiliency, is we got to make sure that when we do the 
studies--and the Corps of Engineers is--Lord knows they are 
famous for long, long studies. But once we reach a conclusion 
on design, it needs to be implemented.
    Mr. Gaffigan. Yeah. And I think it goes back, again, to not 
having a clear vision of what these projects are about. And 
when you don't have that, it is wide open and you get the kind 
of things that you are talking about, where there is not clear 
direction on what this money is for.
    Mr. Palmer. Well, the point that I have tried to make in 
this committee time and time again is that the climate is 
changing. We spend most of our time talking about 
CO<INF>2</INF>, but if you look at the geological record, we 
know the climate is changing. We are going to have some major 
issues to have to deal with, whether it is storms, whether it 
is flooding, whether it is drought. And I think we really need 
to be preparing for that.
    You know, I went back and I looked at some of the data on 
the intensity of storms. The deadliest storm in the history of 
the United States was in your area, 1900, the Galveston 
hurricane. If you adjusted the damages that were reported at 
that time--and I am not sure those estimates were accurate--in 
today's dollars, that would have been well over a billion 
dollars, I think, and somewhere between 6,000 and 12,000 people 
killed.
    We try to attribute these storms to climate change. I think 
the International Panel on Climate Change report has indicated 
that there is no connection; at least, they haven't found a 
connection to that. The bottom line, though, is that the 
climate is changing, and we are going to have to deal with it.
    And my perspective, Madam Chairman, is that when we get 
these studies, when we know what the design ought to be, we 
have got to have some ability to have some oversight to make 
sure that what needs to be done actually gets done and the 
money is spent where it needs to be spent.
    Thank you for giving me an extra 15 seconds. I yield back.
    Ms. Castor. Mr. Huffman, you are recognized for 5 minutes.
    Mr. Huffman. Well, thank you, Madam Chair.
    And thanks to this terrific panel. I appreciate the 
opportunity here to examine the ways that existing resiliency 
policies are failing to meet the needs especially of the 
frontline communities, disadvantaged communities. So thank you 
for giving us a chance to focus on that as well.
    As this committee develops its recommendations on how to 
increase resiliency, I think it is very important that the 
policies that we support have to work for all Americans. In 
addition to assuring that our policies work for all Americans, 
we have got to ensure that they are forward-looking. And I am 
really pleased that that was kind of a common theme we heard 
from all of our panelists here today.
    I know climate change is not only happening, it is going to 
get worse in the years ahead. In my home state of California, 
we now have a year-round fire season, a fire season that 
visited my district pretty brutally just a few months ago.
    And with warmer climates, more intense storms, atmospheric 
rivers that have made it a very wet December so far in northern 
California, more heavy and intense rainfall, all of this is 
going to contribute to more extreme and intense flooding as 
well as greater frequency of superstorms.
    And so, as we rework our policies aiming for resiliency in 
rebuilding communities after disasters, I think it is not only 
important that we not rebuild to the last disaster, that we 
rebuild maybe even better than to the next disaster. Let's look 
ahead to the next decade's or the next generation's disasters 
while we are at it. And I appreciate that this seemed to be 
something that all of our panelists were interested in doing.
    Mr. Gaffigan, I want to start with you. I was interested in 
your testimony that recommended--your GAO recommendation that 
the Federal Government achieve an organizing arrangement to 
identify and prioritize climate risk.
    But that was pretty vague. And so I guess I want to ask you 
to----
    Mr. Gaffigan. Yeah.
    Mr. Huffman [continuing]. Be a little more specific, 
sharpen that. What does it look like? Are you talking about a 
new Federal agency, or are you talking about new rules of the 
road for all Federal agencies so that we can identify and 
prioritize climate risk?
    Mr. Gaffigan. Yeah, and it was worded intentionally vague, 
because we want to give you guys the wide option to make these 
policy decisions. But, in our report, we talk about some 
particular options. And I think it can look in different ways. 
It could look like a task force. It could look like a new 
agency. We could take advantage of some of the current working 
groups. I think there is a wide range of options there.
    I think the most important thing is to designate who is in 
charge. And that can be a working group. That could be a lead 
Federal agency. It just needs to be done. We have tried in this 
work over climate change over the past 10 years to focus 
recommendations towards the Executive Office of the President, 
thinking that might be where it is at.
    But Executive Orders don't last in the long term. So we 
think, in the long term, there needs to be some Congressional 
direction, you know, of course, in concert with the Executive 
branch, to decide on what is the best path forward. But 
identifying that authority and making sure it has the authority 
to lead, that is what is missing.
    Mr. Huffman. Do you have any thoughts on whether this would 
be a coordinating, like at the CEQ-like authority?
    Mr. Gaffigan. It would totally have to be an integrating 
body, because there are so many ongoing programs, and you want 
to take advantage of the ongoing programs. And you can 
mainstream some of these thoughts into those existing programs. 
But what is missing is everything else that gets left.
    For example, we have programs that focus on infrastructure 
like wastewater, drinking water, roads, but we don't have 
something that sort of tries to head off the kind of disaster 
relief that we have to provide for private homeowners. In the 
flooding arena, the Flood Insurance Program is not solvent.
    So those are the areas that need to be covered. There needs 
to be some entity that focuses on climate resilience in those 
other areas.
    Mr. Huffman. Okay.
    Ms. McFadden, you testified that you recommend developing a 
Federal framework for rating resilient infrastructures. I was 
interested in that.
    And coming from fire-prone northern California, where our 
electricity transmission infrastructure seems to be sparking 
fires every time the wind blows, I wondered if you could 
envision electricity transmission infrastructure being part of 
a rating policy like that.
    Ms. McFadden. I would hope that it would be, but I can't 
offer a specific recommendation around that. I understand from 
my visits to northern California that sometimes it is as much 
as clearing brush can make a big difference in the safety----
    Mr. Huffman. Although that is not what happened this time.
    Ms. McFadden. No. And I would----
    Mr. Huffman. This time, it was a jumper in between a pole 
and a high-capacity line that failed and dropped to the ground. 
And I didn't realize that these devices are so energized that 
they can spark fires because of molten metal that can get 
spewed when these things fail.
    Ms. McFadden. I would defer to NIST to determine the 
appropriate people to bring to the table, but I would hope that 
there would be a solution there.
    Mr. Huffman. Thank you.
    And thanks, Madam Chair. I yield back.
    Ms. Castor. Mrs. Miller, you are recognized for 5 minutes.
    Mrs. Miller. Thank you, Chair Castor and Ranking Member 
Graves.
    And thank you to all you all for being here today.
    Given our discussions in this committee, all of us have 
experienced some kind of natural disaster in our states. When a 
disaster strikes, it is our state and local communities who are 
left to pick up the pieces and rebuild.
    Ensuring that communities not only have financing but also 
have the knowledge on how to access the financing and the tools 
to cut through bureaucracy is crucial. The time after a natural 
disaster is so stressful for any community, and any time 
cutting through red tape should be minimized. Because you know 
what it is like when you are always waiting.
    Mr. Wemple, how have communities within the Houston-
Galveston Area Council utilized public-private partnerships?
    Mr. Wemple. Thank you, Mrs. Miller.
    I would say that public-private partnerships in our region 
traditionally have been more around economic development and 
commercial development, but there are some very recent 
examples, one that we are working on, that looks at resiliency.
    There is a community in one of our counties that has a 
railroad that comes through it, and it is actually called the 
``candy cane'' because it is shaped like a candy cane when it 
comes through. It causes a lot of delays, people trying to get 
around. It affects their evacuation going forward and actually 
has hampered their economic development activities because 
businesses don't want to relocate there because it is such an 
issue.
    They are teaming with our state Department of 
Transportation and also the railroad companies and other 
private investors to look at rerouting that entire candy cane 
part to where it will be better for the community to help with 
their evacuation, to help with their economic development, and 
actually open up a part of that county to future economic 
development along the rail.
    And, as a bonus, once that is done, the county will have a 
better idea of where they can install large, regional-scale 
detention facilities for future floods.
    And so that would not happen without that private-sector 
investment from the railroads and others. So that is one 
example I would offer up.
    Mrs. Miller. A majority of communities within my district 
are very rural. What are some of the best practices you have 
seen in the HGAC to access financing after a disaster?
    Mr. Wemple. One other thing that we work with through our 
regional council--I have communities that are highly urban, 
suburban, and rural. We place a lot of emphasis on helping our 
rural communities because they tend to lack capacity to be able 
to navigate some of these issues.
    And one of the thing we first do at Houston-Galveston Area 
Council after a disaster or when funding becomes available is 
we put a big list, have an umbrella, here is all the funding 
that is available, and we actually provide technical assistance 
to those communities to help them navigate that structure.
    That is something that could be considered. I mentioned an 
investment portfolio approach earlier to looking at resiliency. 
And having a body or at least an initiative that provided more 
flexibility across those funds would be very helpful.
    What we oftentimes hear in our rural areas, ``We have a 
great project that needs to be funded.'' ``Well, we can't fund 
that because that is an Army Corps of Engineers project,'' or, 
``We can't fund that because it is a FEMA project.'' Why can't 
we just fund the project and find a way to help that community 
be more resilient?
    So one thing that could be very helpful would be to work to 
increase the flexibility and look at the spectrum of funding 
that is supporting more resilient communities and great 
projects as opposed to falling within those silos. That would 
help a lot with rural communities.
    But mostly our technical assistance efforts are one thing 
that we pride ourselves on.
    Mrs. Miller. What about pre-disaster mitigation?
    Mr. Wemple. Pre-disaster mitigation. We also help our rural 
counties by conducting the FEMA-required hazard mitigation 
plans at the county level. For our rural counties, we just 
completed a recent cycle on that as well. So the Regional 
Planning Commission is very much a partner in helping provide 
that technical assistance and work for our rural communities.
    Mrs. Miller. Okay.
    My next questions are for Mr. Burns and Mr. Wemple. 
Recovering from a disaster depletes capital from communities. 
How can communities rebuild capital for future events?
    Mr. Burns. I think the important thing to do is what we 
talked about earlier, which is encouraging private capital to 
come in. The capital just doesn't exist on the public side, and 
it won't exist without an economy to generate it.
    So I think creating space for private capital to come in. 
Also, foundations have been more interested in public finance. 
It is really on all-hands-on-deck approach that I think needs 
to be taken by all levels of government.
    Mrs. Miller. Thank you.
    Mr. Wemple. One thing that we saw after Hurricane Ike is 
our coastal communities in our NASA area, home to Mission 
Control, were heavily damaged. They all bonded together to try 
and help pursue disaster recovery funding and mitigation 
funding. Right after that happened, NASA announced that the 
human space flight program, shuttle program, would be shutting 
down, and that was a huge economic shock.
    And so one thing that we are encouraging our communities to 
do is to diversify their economies so they can better withstand 
economic shocks. And, also, that will allow them to generate 
more sales tax revenue, more business revenue, property tax as 
well.
    We have also had communities take a close look at their own 
vulnerability. One of our coastal communities found out real 
quickly that they were overly dependent on sales tax for their 
revenue to do their operations and general services. Because 
they were shut down for 2 months after the storm, and when you 
don't have any businesses coming in, any sales tax revenue, you 
see a reduction in your loss of ability to be able to fund 
those operations. So----
    Mrs. Miller. What did they do?
    Mr. Wemple. What they have done is they have started to 
have the discussion of increasing property tax. That is not 
always a comfortable conversation, one of those hard 
conversations that is out there. And then also just making sure 
that they have the ability to pre-position contracts to take on 
debt if they need to, as well, to meet future needs.
    Mrs. Miller. Thank you.
    Ms. Castor. Mr. Neguse, down there at the end, welcome. You 
are recognized for 5 minutes.
    Mr. Neguse. Thank you, Madam Chair. And apologies for the 
delay in my arrival.
    And I would be remiss if I didn't first say a note of 
gratitude for the leadership of our chair, who did an 
incredible job in assisting in leading a delegation to the U.N. 
COP25 conference just last week, and a number of the committee 
members who had an opportunity to attend, and to see the way in 
which the leader of this committee was received by so many of 
our international partners as we engaged in topics, including 
the one that is the subject of today's hearing----
    Ms. Castor. Thank you. You can have 6 or 7 minutes.
    Mr. Neguse. I appreciate that, Chairwoman.
    This topic is incredibly important for me. My district, as 
some of you know, I represent northern Colorado--Boulder, Fort 
Collins, the Central Mountains--the most beautiful 
Congressional district in the United States, in my view. And, 
in 2013, our district experienced historic flooding, which some 
of you may be familiar with, along the Front Range of our 
state, which destroyed more than 1,800 buildings, mostly 
residential homes, and damaged at least 16,000 more, in 
addition to destroying 120 bridges and many miles of roads. 
And, unfortunately, we lost many people in those floods.
    My district is still struggling to recover from those 
floods, as recovery guidelines outlined by FEMA currently 
require cities, counties, and homeowners to rebuild 
infrastructure in the exact way that it had been built 
previously in order to qualify for reimbursement, irrespective 
of the exigent circumstances presented by some of that 
rebuilding.
    And I had a chance to tour some of the rebuilding earlier 
this year and to see the impracticality of this approach and, 
in my view, the shortsightedness of FEMA's approach in this 
regard firsthand.
    There were new guidelines, as I know you all or some of you 
are probably aware, that were recently issued by FEMA, required 
as part of the Disaster Recovery Reform Act of 2018, which 
addresses some of these concerns but certainly not all of them. 
So I think this discussion is certainly a timely one and an 
important one.
    So, with that, Ms. McFadden--and I apologize that I missed 
your oral testimony, but I did review your written testimony 
and found it particularly interesting, given that reference to 
the catastrophic flooding. In your written testimony, you 
state, quote, ``Every year, flooding is the costliest type of 
disaster damage. We should stop investing taxpayer dollars in 
projects that don't plan for reasonably foreseeable risks.''
    And I agree with you. And I think we can all agree that 
identically rebuilding infrastructure that was destroyed in a 
flood 6 years ago isn't just incredibly dangerous but it 
ultimately is not an efficient use of those resources.
    And so what would be your recommendations for making sure 
that our Federal agencies and our programs are able to help 
communities not just rebuild but improve their infrastructure 
to make sure it ultimately survives the next disaster?
    And I should provide the added context that just getting 
FEMA to issue its guidance, which it did just last month, was a 
Herculean effort. And while I applaud, you know, the 
individuals in the agency who I know work incredibly hard, I 
will just tell you, there are a number of us here in the 
Congress deeply frustrated by the amount of time it took to 
even get to where we are now.
    So, with that, if you could expound on that.
    Ms. McFadden. Thank you for the question.
    I think that the 2013 flooding in Colorado is a painful 
example of the problem of having different standards across 
different Federal agencies. And I know that your Governor's 
office was particularly frustrated at the time, having to deal 
with multiple requirements across HUD and FEMA, for example, 
where HUD was requiring resilient rebuilding standards and the 
fight you mentioned with FEMA to put things back.
    I think it is incumbent on the Federal Government to speak 
with one voice and to ensure that the rebuilding dollars are 
being used to address all foreseeable hazards and not being 
backward-looking and not just looking at the risks that the 
communities are facing right now but that they are going to 
face in the decades to come, as you think about the projected 
useful life of infrastructure and housing.
    Mr. Neguse. Well, I appreciate that. And I would say, we 
welcome any particular statutory recommendations or regulatory 
ones that you might recommend, certainly from my part, to this 
committee as we consider the recommendations to make to the 
full Congress. Because I think this has to be a core component 
of the work for us moving ahead.
    Ms. McFadden. Thank you. And I will take you up on that 
because I know you have been a stellar champion of low- and 
moderate-income people. Thank you.
    Mr. Neguse. With that, I would yield back the balance of my 
time.
    Ms. Castor. Thank you.
    Mr. Carter, welcome. You are recognized for 5 minutes.
    Mr. Carter. Well, thank you very much, Madam Chair.
    And thank all of you for being here. This is extremely 
important. Resiliency is extremely important to addressing 
climate change and addressing what we are doing in our 
communities.
    Ladies and gentlemen, I have the honor and privilege of 
representing the First Congressional District of Georgia. And 
just for your benefit and the benefit of reminding my 
colleagues here on the dais that Georgia is the number-one 
forestry state in the nation. I just wanted to make sure you 
all knew that.
    But I also represent 110 miles of coastline----
    Mr. Graves. Football.
    Mr. Carter. I also represent 110 miles of pristine 
coastline, the entire coast of Georgia. Over the past 3 years, 
we have had three hurricanes, and we barely dodged one this 
year, with Dorian, and we were very fortunate to have dodged 
it. But this, as you can imagine, has caused us a lot of pain.
    And one of the things that has really hindered us has been, 
some of the communities are still trying to get some of the 
funding from FEMA as a result of the 2017 hurricanes and trying 
to recoup some of the moneys that we spent in cleaning up after 
that. In 2017, we had Hurricane Irma, and even in Glynn County 
and Brunswick, Georgia, we are still having to recoup some of 
those costs and fight tooth and nail for them.
    I just wanted to ask you, Mr. Wemple, if you have had any 
kind of similar issues in the Houston-Galveston area after a 
storm like we have experienced.
    Mr. Wemple. Representative Carter, it is part of the way 
that the FEMA work goes, it seems, that our communities are 
given approval for a project, they conduct the work, and then 
they wait to see if they are going to be reimbursed. And that 
causes an incredible amount of stress because that money has 
been committed, they don't know if they are going to be 
reimbursed or not, and it might actually keep them from working 
on other projects that could increase the resiliency for their 
community.
    It also becomes very frustrating and a long endurance test. 
One of our coastal communities had their wastewater treatment 
plant, which was located right along the coast--they are a 
small community kind of hemmed in by others around them--
heavily damaged wastewater treatment plant. Got damaged again 
by Harvey, and FEMA said, yeah, we think it is great that you 
want to relocate that wastewater treatment plant, because they 
finally found an area where they could move it to.
    So they were initially approved, but then not approved, 
because, as they talked about the project more, the discussion 
became, is it a relocation or is it a new facility? And the 
idea was, they would build a new facility, keep the old one on 
line, and then bring that one up and turn that one down----
    Mr. Carter. Which makes perfect sense, right?
    Mr. Wemple. And it is like, no, that is not a relocation, 
that is a new facility, because you are not moving the facility 
to a new location.
    Mr. Carter. Yeah. Welcome to the Federal Government.
    Mr. Wemple. So there was a lot of discussion back and 
forth, back and forth. We had help from our legislative 
delegation on those discussions, as well, and finally have come 
around to that project being approved. But it took incredible 
persistence and a lot of time and opportunity cost to focus on 
making that happen.
    Mr. Carter. Right.
    And don't misunderstand me. We appreciate FEMA. And we 
appreciate them----
    Mr. Wemple. We do too.
    Mr. Carter [continuing]. Being there. They are there when 
we need them, and thank goodness they are there. But it is 
situations just like what you have described and just like what 
I have described that--it just leads you to believe there has 
got to be a better way.
    We can streamline this to make it to where, you know, 
instead of using this time trying to recoup moneys that have 
already been expended, we could be investing in projects that 
would make us more resilient, just like the one that you noted 
there.
    Mr. Wemple. And I would say reducing the complexity that 
helps those conversations not happen, where we get caught up in 
a couple different words----
    Mr. Carter. Right. Right.
    Mr. Wemple [continuing]. Would be very helpful.
    Mr. Carter. And I want to give you another example. You 
know, of course, we have barrier islands on the coast of 
Georgia and beautiful--the Golden islands and St. Simons. 
Jekyll Island is one of those examples. Jekyll Island is a 
State-owned island. And we have had a project going on there, 
that we have been working on the revetment structure that 
actually is intended for resiliency, is intended to make it 
that way. And, again, FEMA is partner in this project and in 
providing money for the project. And although we have gotten it 
resolved now, it took almost 7 months for us.
    Another example of just, you know, bureaucracy and how we 
need to streamline this process. Any suggestions?
    Mr. Wemple. You know, I think--and as I put some thought to 
this, it is interesting. I don't know if it is the massive 
amounts of funding that paralyze agencies and people. It is 
almost like, when the funding gets very large, all of us just 
kind of clench up a little bit, right? And you don't want to be 
the entity or the individual that approves some large, massive 
investment and didn't have it meet the eligibility criteria, 
for example.
    And so I think, when we have programs that are able to 
quickly move and have strong trust and relationships in the 
communities, that then those projects tend to be better 
understood and more quickly approved than if it is a situation 
where you have people coming into a community who haven't been 
there before, don't quite know if this is really the right 
project or not. All of that requires a lot more vetting of 
those projects.
    And so I think entities like the Economic Development 
Administration and the U.S. Department of Agriculture have very 
strong regional presence and strong connections to their 
communities and a certain level of autonomy to approve those 
funding projects.
    Mr. Carter. Right.
    Well, thank you very much.
    Thank all of you for being here. It is extremely important.
    And I yield back.
    Ms. Castor. Thank you.
    Now I will recognize myself for 5 minutes for questions.
    So a lot of local communities and regional areas are doing 
resiliency planning. They have done it without a direction from 
the Federal Government or many incentives at all, but it has 
grown out of necessity to plan ahead for the impacts of 
climate.
    Where should this evolve to? How should the Federal 
Government encourage those communities to do that, to 
incentivize it? We have never really been in the--we are not a 
super-land-use-planning type of organization or structure.
    But there has to be a way to encourage communities to do 
this resiliency planning, to provide the technical assistance 
of the Federal Government--I hear that loud and clear--and 
ensure that the communities that don't have the resources get 
the aid, assistance, grants to protect their areas. Are there 
some models now? Is one model the NPO structure? Please give us 
your ideas.
    And let me start with Mr. Burns on this. What would work?
    Mr. Burns. Thank you, Chair Castor.
    I would say that the first thing that needs to happen is 
all the Federal agencies need to get on the same page in terms 
of----
    Ms. Castor. So that goes back to the overarching strategic 
vision.
    Mr. Burns. Yes. So the first thing is we need to get on the 
same page, understanding what climate resilience is, how it 
impacts us, what are all of the risks.
    Ms. Castor. Educate communities, like you said.
    Mr. Burns. That is right. And then we can transfer that 
down to the communities and have common plans among 
communities.
    Right now, you have cities adopting their plans, and 
everybody is coming up with something a little different. And 
it should be, because every community is different. But at the 
end of the day, we all need to be on the same page. And all of 
the programs need to be designed in a way that climate 
resilience is just a permanent box, and every agency 
understands what that box means, and that can be communicated 
to the communities.
    And then streamlining access to capital, whether it be 
FEMA, whether it be through private markets. There just needs 
to be a streamlining of how we can access capital and the 
flexibility----
    Ms. Castor. So that needs to be built into it.
    Mr. Burns. Absolutely--and the flexibility of that capital.
    Ms. Castor. Uh-huh.
    Mr. Wemple.
    Mr. Wemple. I think what I would add to the testimony--I 
agree with the points that were just made.
    A couple of models that have been successful in encouraging 
adherence to new ideas, like resiliency, hazard mitigation, 
when FEMA announced that you had to have a FEMA-approved hazard 
mitigation plan to be able to receive hazard mitigation funds 
and pre-disaster mitigation funds, people made sure that it was 
included in their plans and did it. The grants to help make 
those plans possible were incredibly important, especially to 
our rural communities as well.
    So that is one way to----
    Ms. Castor. So that was in areas that had an overarching 
resiliency planning effort and those that did not----
    Mr. Wemple. Yeah, it was basically you needed to have a 
plan that identified your risks and vulnerabilities and how you 
were going to mitigate those. Our plans for our region list 
those projects in the hundreds, for some of our rural counties. 
That effort probably wouldn't have happened without that 
requirement and the funding to help get that plan done. It was 
a small amount of funding, very critical, very good investment.
    And then one that wasn't as required but more encouraged 
was the HUD Sustainable Communities effort from a few years 
back, where Housing and Urban Development, Department of 
Transportation, and EPA came together--HUD led the effort--and 
we were actually required to develop a plan that looked at all 
those things in concert as opposed to in their individual 
silos. Other agencies wanted to join on. USDA eventually joined 
on; Economic Development Administration.
    So something, again, that informs all the agencies that 
resiliency is incredibly important, and here is what we mean by 
resiliency, and finding ways to link it to your planning 
efforts and to your funding are important.
    Our NPO has started to make resiliency part of our scoring 
criteria for transportation investments in our region. We are 
not required to do that, but we decide to do it because it is 
important, because we keep hearing how we had to move the 
region forward.
    Ms. Castor. So, Ms. McFadden, you were probably involved in 
that previous effort through CDBG and the other HUD 
initiatives.
    Ms. McFadden. Yes.
    Ms. Castor. What do you recommend?
    Ms. McFadden. I think that it is very important for 
Congress to maintain some deference to the state or local 
governments to determine who the strongest local leaders are 
and not be overly prescriptive, because I have seen different 
parts of the country, different sectors, and different areas. 
So regionalism is strong and good in some places, and other 
places are a little more protective of their turf and stay 
within the boundaries of their own jurisdictions.
    Ms. Castor. Yeah. Some folks don't want the--they know 
better on the regional level rather than the state oversight, 
but it is flipped in other areas. How do we structure that?
    Ms. McFadden. Well, my recommendation would be to use the 
vehicle of the Community Development Block Grant Program, which 
is already working successfully in providing funds to more than 
1,200 jurisdictions across the country, allowing that local 
flexibility.
    Ms. Castor. Do you have some thoughts on this, Mr. 
Gaffigan?
    Mr. Gaffigan. So, just from the Federal perspective, I 
think Mr. Wemple made a couple comments that I wrote down about 
the need for an overarching coordinating event. And that is the 
role of the Federal Government can play, as an integrator.
    He talks about all these entities chasing all these 
different streams, all with different requirements, and those 
requirements changing every time there is a new program. It is 
no wonder it takes so long to get these things out, because 
they come with all these strings. All these strings have to be 
figured out. The rules have to be written. The auditors are 
waiting to make sure that they get it done. And so that is why 
it is taking a long time.
    So if we can focus on the integration role for the Federal 
Government in bringing all these partners together, that is 
where we are going to have success. And Mr. Wemple talked about 
how USDA has that regional presence. I think that is kind of 
the model we need to think about.
    Ms. Castor. Okay.
    All right. Mr. Graves, you are recognized for 5 minutes.
    Mr. Graves. Thank you, Madam Chair.
    Ms. McFadden, I appreciate you bringing up the issue about 
giving more discretion to local governments. I think it is an 
important lesson learned that we do need to apply to disaster 
planning, to resilience in the future.
    Mr. Gaffigan, I want to ask you a question. You cited the 
Louisiana model that I am very familiar with and, actually, 
created in the previous life. What we chose to do, recognizing 
you have got HMGP, PDM, CDBG-DR, Corps of Engineers--you know, 
we could go on and on and on--we created the coordinating 
entity at the state level, and we blew up parts of five state 
agencies, we reconfigured and established the new agency and 
said, ``You are in charge.''
    Now, recognizing the regulatory and expertise and other 
roles of agencies, we created a board of directors. We created 
a coastal board of directors, effectively, that included those 
various cabinet officials, including some state-wide electeds 
that run their own agencies with appropriate expertise. We also 
appointed regional representatives. So you had everybody at the 
table, and you could never be in a scenario where, you know, 
they say, oh, we are waiting on them, because ``them'' was at 
the table.
    We ended up pulling together 42 funding streams, $26 
billion, and made more progress in 6 years than I would put up 
against any 40-year period of time.
    Now, politically, it took Hurricane Katrina to have people 
let go of those fiefdoms. And that is one thing that many other 
places around the country haven't experienced. Mr. Wemple, you 
all have, in the aftermath of Hurricane Harvey. But you know 
what? I said this in my opening, and I will say it again: I 
would never wish that upon anyone. And we have got to learn 
from those painful mistakes.
    Do you think that this has to be at the Federal level, or 
do you think, recognizing you have a different scenario in 
Texas than you have in Louisiana, than you have in California, 
than you have in Florida, that possibly--and I don't have an 
answer; I am just curious--do you think that it has to be at 
the Federal level? Or do you think that the coordinating role 
could be done locally in an effort to allow them to tailor it 
to their particular issues and problems and priorities?
    Mr. Gaffigan. Yeah, I think that coordination has to happen 
there. I mean, you know the old phrase about all politics are 
local? Well, all adaptation is local, because that is where you 
need to understand the needs and bring the things together. And 
those are the players, those are the people who know what is 
best.
    What we are talking about is just the Federal Government 
needs to be a partner in that and to coordinate. They need to 
coordinate amongst themselves, firstly, but then also make sure 
that they are providing the incentives to these local 
communities so they have the support to do what they need to 
do. Because it is going to fall down to all those partners.
    And that is why I talked, at the beginning, about the 
Federal Government is just one stakeholder here. In no way do I 
envision the Federal Government being an overall coordinating 
body for all the climate resilience. That won't work. They 
don't have the expertise; they don't have the money. But they 
can be a strong partner in that. And I think that is where the 
key lies.
    Having the ability to integrate, to bring people together, 
that is a role the Federal Government can bring, to bring 
information that an entity might not on its own have, but bring 
the kind of information and science that is needed to make the 
decisions, and, finally, to incentivize, with what resources we 
have, those sorts of things that are complementary to ensuring 
resilience.
    I think that is a model that will work. We thought the 
Louisiana model was a good example, and that is why we used it 
in our report.
    Mr. Graves. Well, thank you.
    You know, we found, as we put that model together, there 
were numerous funding streams that previously were being spent, 
in some cases, actually contrary to the objectives of our 
resiliency. In other cases, we found opportunities where 
dollars were being managed just separately, and we were missing 
the opportunity to establish those symbiotic relationships or 
commingling funds.
    In fact, we built one project, as I recall, six different 
funding streams, and all the different rules and regulations. 
And it was like a puzzle, putting it together. We eventually 
did it and got it done.
    But I think there is a lot of opportunity there, and I want 
to thank you for your in-depth report and testimony.
    Mr. Burns, other than your bloodline, which we have issues 
with, I do want to thank you for being very thoughtful about 
the role that finance plays in this. Because finance 
incentivizes the right actions, the wrong actions. And you 
talked about how, effectively, financial markets aren't 
designed to achieve the right type of outcomes and that we need 
to be more thoughtful about how to design the financing 
mechanisms that achieves these outcomes where we have more 
resilient communities, including access in low-income 
communities to housing.
    What does that look like for you, in terms of you being a 
practitioner? What does that look like? What role does the 
Federal Government need to play, what steps, in order to make 
that happen?
    Mr. Burns. Well, the first thing is, we get most of our 
funding from the tax-exempt bond market. And most cities do. 
And as I mentioned in my testimony, there is no difference 
between the green bonds----
    Mr. Graves. The green bonds and the municipals.
    Mr. Burns [continuing]. And the regular bonds. So I think 
the first thing that needs to happen is we need to create 
separation between the two. And that could be through a 
discount or a premium or one or the other.
    Also, there is a need for tax credits for projects that 
don't generate capital, necessarily. For example, a green 
infrastructure project that is built behind a neighborhood. 
Maybe the water district wants to build a project that doesn't 
generate revenue itself but provides a lot of savings, a lot of 
benefit. We need to find a way to bring capital, private 
capital, into those types of projects.
    And, again, the insurance component. There are savings that 
come from having the right kind of insurance. There are savings 
that come from having preventative insurance. And most of our 
programs right now run on insurance from the Federal 
Government. If you are talking about----
    Mr. Graves. Figuring out how to monetize or capture those 
savings and invest it in proactive resilience-type measures, 
recognizing----
    Mr. Burns. I think that is part of it. It is capturing 
savings, but also proactively encouraging capital to come in on 
the front end so that we can have that flexibility to make 
those investments to create the savings. Because that is the 
problem.
    Mr. Graves. Yep. You can monetize the savings by creating 
the right financial mechanism to allow it to be invested on the 
front end and then paid back, effectively.
    Mr. Burns. We need the capital on the front end to do it.
    Ms. Castor. I want to continue with that thought. And then 
how do we really ensure that there aren't communities that are 
left behind, that we do not replicate the inequities of the 
past?
    Because so many communities are going to bear the brunt of 
the climate crisis, and it is going to be very expensive to 
them. So what are the criteria, what are the checks all along 
the way to ensure that we are lifting people up at the same 
time and it is not just the wealthy communities with a lot of 
resources that get all the grease and the extras?
    Mr. Burns. Right. So, a lot of times when you have these 
programs, like the tax credit programs, they mostly go to 
benefit the developer or the corporation that is sponsoring the 
project, and the community gets some ancillary benefits, but 
the community is never really put to work. And I think you have 
to start putting the communities to work.
    So it is hard for the Federal Government to tell the City 
of New Orleans what its disadvantaged-business requirements 
should be. We already have those, and each community is 
responsible for adopting those. So, in New Orleans, ours is 35 
percent. We try as much as we can to go above and beyond that 
at the Finance Authority.
    But I think what the Federal Government can do, as it 
creates these incentives and these programs based on 
resiliency, incentivize these local cities and governments to 
create space for disadvantaged businesses, for Black 
businesses, Hispanic businesses, women-owned businesses. Create 
the space and the incentives for them to do it. And make it 
dependent upon--make the funding, make the access dependent 
upon how equitable they are being with those investments on the 
ground.
    And I think that is the best way to communicate it, from 
the top to the bottom. But, at the end of the day, each 
community is going to be responsible for making sure that the 
investments are going into the right places.
    Ms. Castor. And then, Ms. McFadden, do you have some 
thoughts on that?
    Ms. McFadden. Sure. I agree with all of that. And I would 
add that it is really important to strengthen community 
engagement at every phase of large infrastructure projects. So, 
even with HUD funding, which is intended to primarily benefit 
people of modest means, historically there has only been one 
time that the public gets to weigh in on what a community plans 
to do. I was very pleased that we saw the Trump administration 
accept a recommendation to have a continuous feedback loop for 
the mitigation money, where the community forms a community 
advisory board to let the government know how things are going. 
Because it is really important to ensure that these projects 
are done for communities and not to them.
    Ms. Castor. I have one other question, and then I will 
recognize you for another 5 minutes, if you would like.
    Mr. Gaffigan, does GAO have any recommendations on the 
budget picture for climate?
    You know, we don't have a rainy day fund or a disaster 
fund. Instead, if we have a natural disaster, there is a 
disaster funding bill, maybe a few. It leaves people in the 
lurch, the communities that need it. Yes, there is some money 
that can go out, but it is so bureaucratic, oftentimes, that 
people don't get the assistance that they need.
    Does GAO have some recommendations on how we can be smarter 
about planning ahead for the increasing extreme weather events 
and Federal disaster aid?
    Mr. Gaffigan. Yeah. So, at least with the last act, there 
is sort of a carveout, 6 percent of funding that can go towards 
mitigation. And I know FEMA is working on rules around that.
    But I think Congress needs to decide where they want to 
target this funding. And they can do that. Particularly if you 
are wanting to target vulnerable populations, you could be 
explicit in that and have dedicated funding. That is one of the 
options. You could also mainstream some of those requirements 
in existing programs. But it starts with making that a goal, an 
explicit goal.
    And it is interesting how--you mentioned being at the U.N. 
You are probably familiar with the U.N. Sustainable Development 
Goals. And they have a goal around serving these populations. 
It is to build the resilience of the poor and those in 
vulnerable situations and reduce their exposure and 
vulnerability to climate-related extreme events.
    So they have set up a goal. We could do that. Congress 
could do that. Congress could explicitly target a program to 
serve those communities with some dedicated funding. That is an 
option.
    Ms. Castor. Terrific. Thank you very much.
    Mr. Graves, you can have another 5 minutes.
    Mr. Graves. Thank you, Madam Chair. I just--I wanted to hit 
a few things very quickly.
    Mr. Gaffigan, again, in regard to your recommendations, I 
agree with virtually all of the recommendations you all have 
made. But I do think that we need to recognize--and I think you 
affirmed this--that the states need to step up as well. They 
need to create some type of coordinating entity, decide what it 
is that they want a resilient Indiana, a resilient Texas, a 
resilient Iowa to look like, and need to then take all the 
tools in the tool chest--and it is going to be everything from 
building standards and zoning requirements to how you use your 
CDBG funds and HMGP and PDM, as you just mentioned--use all 
those dollars to achieve that goal. Everything funnels into 
that objective.
    Also, I have been incredibly frustrated--I believe Mr. 
Wemple discussed this a little bit--at the Federal Government 
actually prohibiting the integration. The Corps of Engineers 
saying, well, wait a minute, this is our authorized project, 
therefore you can't use your Pre-Disaster Mitigation, your 
Hazard Mitigation Grant Program, your Community Block Grant 
Disaster Recovery funds to advance this project that has been 
authorized for 30 years and hasn't been funded.
    And what Mr. Palmer made mention of--I won't get into the 
full history, but there was an environmental group that sued 
the Corps of Engineers, made them pivot from the 1960s project 
to build the barrier at the lake to build multibillion-dollar 
rings around the entire length of the lake that was not 
completed in time for Katrina. The project dated back to the 
early 1970s. Today, the Corps of Engineers has a $100 billion 
backlog, and we are appropriating a couple billion a year.
    Why in the world we would not not just allow but 
incentivize--incentivize--the use of the FEMA dollars and CDBG-
DR and others for that purpose? If you have got the most 
important resilience project in your community, Mr. Burns, by 
God, let's incentivize the money to go there, not prohibit it. 
It is crazy what we are doing, and it is really inappropriate.
    Now, similarly, in regard to coordinating roles, look, I 
have said this twice or three times now. As awful as disasters 
are, they are an opportunity to rebuild differently.
    You are going through it, you have done it.
    You have done it, Ms. McFadden, as well.
    We have got to make sure that we take full advantage and we 
facilitate and incentivize the right type of behavior. And I am 
happy with what happened last year in the Disaster Recovery 
Reform Act, where we established the new resilience standard 
within FEMA and provided more funds and flexibility in how to 
achieve it.
    But it is infuriating to watch FEMA come in and do 
immediate recovery, and then HUD is somewhere out here years 
later, and you have got this gap. And the people that you work 
with and the people that I represent, the people that you are 
currently--they are just stuck. They have a gap here. Their 
home flooded. They were paid for for a hotel for a couple 
months. HUD is 2 years out with the money. What are they 
supposed to do?
    And so then they say, ``Oh, well, we are going to rebuild 
resiliently.'' No, my ``resiliently'' is trying to find a tent 
to live in right now. This isn't okay, and we have got to do a 
better job with this.
    And I cringe when I hear you recommend CDBG as the 
solution. I don't think HUD is capable. And I know you work 
there, and I just--I don't think they are capable, based on our 
experience. It took them 18 months to get the rules out for 
flood mitigation. I mean, this is inexcusable.
    We have hundreds of millions of dollars sitting in the bank 
right now for recovery in Louisiana from a disaster over 3 
years ago, and people are still homeless. And they can't seem 
to connect the dots. This is crazy, that it is happening in the 
United States.
    And I know I just ranted, but respond, somebody.
    Mr. Gaffigan. No, but I think it is consistent with what we 
have seen, in that there is not that overall vision and that 
coordinating event that can be brought together. And so that is 
what is missing, that strategic look. And so you have all these 
little streams and all these pieces that can't work together.
    Mr. Graves. I just would love to see better coordination at 
the Federal level and then those entities at the state level 
with their clear objectives on what it is they are trying to 
achieve and then having the Federal dollars sort of help 
facilitate that.
    We have got 30 seconds left. Just tell us about your 
family. No. Come on, anybody.
    Mr. Wemple. I would just echo the comments here and say 
that the citizens that are impacted, they don't distinguish 
between FEMA and HUD. They just know that the Federal 
Government is not providing them the assistance that they 
believe that they are entitled to or need at this time.
    And so whatever we can do to, kind of, not have so many 
divisions on all the funding--I hate to keep harping on it, but 
that is key to all of this. If we start to think that way, then 
we will start to act that way, as well, too.
    And people say, what do we need the most? I think we need 
resilient people. Resilient people means investment in 
infrastructure, investment in economy, and investment in 
education for those individuals.
    One thing we are looking at is working with private lenders 
to help them look at their Community Reinvestment Act 
requirements to help people become more fiscally strong, 
credit-worthy, access to capital, just how to manage their 
finances, so when disaster does come--an economic layoff, 
something that puts you out of work because your apartment is 
out of commission and your business is closed for 2 weeks and 
now you are evicted from your apartment--we don't want to have 
that type of thing happening. So we are doing what we can to 
try and use what is available.
    Mr. Graves. Great. Thank you.
    Ms. Castor. Do you have a unanimous consent request?
    Mr. Graves. Oh, yes, I do. Yes, ma'am.
    Madam Chair, I ask unanimous consent to include in the 
record testimony of Mr. Burns' adjacent parish, St. Bernard 
Parish, the chief strategy and resilience officer testimony, 
expressing some of their experiences recovering from Hurricane 
Katrina and other disasters.
    And I ask that be included in the record.
    Ms. Castor. All right. And without objection.
    [The information follows:]

                       Submission for the Record

                      Representative Garret Graves

                 Select Committee on the Climate Crisis

                           December 11, 2019

Written submission for the record from Reese C. May, Chief Strategy and 
    Innovation Officer, SBP
``Creating a Climate Resilient America: Smart Finance for Strong 
    Communities''
Select Committee on the Climate Crisis

Chairwoman Castor, Ranking Member Graves, and Members of the Committee,

    My name is Reese May and I am the Chief Strategy and Innovation 
Officer for SBP--a nonprofit disaster preparedness and recovery 
organization committed to shrinking the time between disaster and full 
recovery. Since our founding in 2006 we've rebuilt homes for thousands 
of survivors, shared our best practices with hundreds of other 
organizations, and we've helped lead recovery efforts in disaster 
impacted communities all over the country from Louisiana to South 
Carolina to New York City, Puerto Rico, Texas and many places in 
between.
    America's system for disaster recovery is slow and unpredictable 
and routinely fails to meet the challenges of devastated communities 
and survivors short on hope. Indeed, disaster survivors have perished 
on backlogged lists, awaiting recovery assistance that simply failed to 
reach them in time. After more than eight years with SBP, I've spent as 
much time working in disaster recovery as I spent as a US Marine. I am 
often thanked for my military service, but I am certain that the reform 
of our disaster recovery policy and regulation is more important to 
America and to Americans than either of my tours in Iraq. I appreciate 
this opportunity to share SBP's experiences on behalf of survivors 
waiting around the country and to offer suggestions on how we might 
improve.

                       SBP History and Background

    SBP began six months after Hurricane Katrina when our founders, 
Zack Rosenburg and Liz McCartney, a DC-based criminal defense lawyer 
and educator, visited New Orleans to volunteer and were shocked by the 
lack of recovery progress. Homes were not yet being rebuilt at scale 
and families were losing hope. There were few resources and almost no 
organization and, as a result, disaster survivors were experiencing 
unnecessary suffering and being pushed beyond their breaking point.
    Survivors like Mr. Andre, a proud American WWII veteran who owned 
his home before Katrina. For months he lived out of the back of his 
Ford Ranger pickup truck, eating community meals served from a tent in 
St. Bernard Parish.
    He applied repeatedly for assistance, quietly driving each morning 
and night to a remote government lot to ask for a FEMA trailer. He 
repeated the process every day for months and was denied assistance. 
One night, he broke down to his fellow survivors over dinner at the 
food tent--ashamed that he needed help, that he could not continue on 
his own. Eventually, eight months after the storm, Mr. Andre got a FEMA 
trailer which was delivered to his property without a key. He still had 
no truly secure place to lay his head or keep his belongings. 
Nightmares like this one play out in disaster-impacted communities all 
over the country causing needless human suffering and pushing survivors 
beyond their breaking point.
    This notion of the breaking point is central to SBP's work. While 
different for every individual, we all have one. After disasters, an 
individual's breaking point is determined by three critical factors:
    1.  Time--the amount of time it takes to make a full recovery.
    2.  Predictability--does a survivor have a clear path to recovery 
or are they staring into an abyss of uncertainty?
    3.  Access to Resources--Are survivors able to access the resources 
they need to fully recover and to survive while they do so?
    Imagine for a moment constituents in your district: hardworking 
families who achieved the American dream of home ownership until a 
tornado, flood, or hurricane erase it all in an instant. How many of 
your vulnerable neighbors could survive a two year wait for hope repair 
funds? How many could handle the administrative redundancy of applying 
separately to three different federal agencies for assistance, only to 
apply again to state and local programs years later? How many families, 
who pay their taxes, who are current on their mortgage, could self-fund 
a $35,000+ flood repair because they didn't live in a mandatory flood 
zone and so were not required to have flood insurance? These are the 
families SBP serves. When disaster recovery is protracted and 
unpredictable, and when families are unable to access resources, they 
are at increased risk of being pushed beyond their breaking point.
    Beyond the breaking point we lose hope. We lose our ability to be 
productive members of our community. We lose the ability to focus on 
our work and care for our families. In communities across the country I 
have seen this hopelessness manifest in the form of domestic violence, 
drug and alcohol abuse, and worse. SBP's mission is to reduce the time 
between disaster and recovery because by doing so we will prevent 
needless human suffering and fortify our fellow Americans against their 
breaking point.
    In New Orleans in 2006 SBP began rebuilding homes one or two at a 
time. We partnered with local and national businesses, schools and 
churches to bring additional resources and volunteers. We later 
partnered with Toyota to improve our organizational efficiency and 
reduced our construction time by 48%, cutting in half the amount of 
time it took us to return families to their homes. To keep costs low 
and reach even more families we partnered with AmeriCorps to enlist 
service-minded individuals to help recruit and lead volunteers on 
construction sites conducting high-quality, low cost home repairs for 
families unable to afford market rate contractors. I began with SBP as 
an AmeriCorps member in New Orleans. After completing two tours in Iraq 
as a U.S. Marine, disaster recovery became my new mission.

                  Part II--Expansion and Interventions

    In 2011, after an EF-5 tornado devastated Joplin MO, community 
leaders contacted SBP to ask if we could share what we had learned. A 
partnership was formed and SBP began work in Joplin. In late 2012, 
Hurricane Sandy impacted New York and New Jersey and SBP began 
partnership and direct service operations in New York City and along 
the New Jersey shore. We continued our expansion to South Carolina, 
Texas, Florida, Puerto Rico and other impacted communities to help 
begin rebuilding more quickly and to mitigate human suffering however 
possible.
    Our expansion was not only geographic but also operational. It did 
not take long to recognize that while each disaster and community are 
unique; the ways that disasters affect communities are often the same. 
If we really wanted to shrink the time between disaster and recovery, 
and fortify humanity against the breaking point, we would need to do 
more than rebuild homes after they'd been destroyed. So we crafted our 
five strategic interventions aimed at increasing the efficacy of the 
disaster recovery ``industry''.
    Today we build homes quickly, efficiently, and affordably using 
volunteer labor and Toyota Production System-inspired workflows and 
processes. We share our model and our resources with other 
organizations to increase the capacity of partners and raise the 
capacity of other groups. We help communities and individuals prepare 
for disasters through a variety of trainings and guides. We advise 
state and local disaster leaders on the most effective tactics, 
techniques, and procedures for administering federally funded long-term 
recovery programs. Finally we advocate for changes to federal policy 
and regulation that will positively impact the lived experience of 
millions of disaster impacted Americans each year. These strategic 
interventions are aimed at reducing time, increasing predictability, 
and making resources more widely and easily accessible thereby ensuring 
fewer Americans are pushed beyond their breaking point.

                   Part III--Successes and Challenges

    My first person experience in more than a dozen communities has 
given me a clear look at long-term recovery efforts around the country. 
I have had the great privilege to meet some of the most thoughtful and 
deeply dedicated government employees from FEMA, HUD, SBA, and others 
as well as hundreds of servant-leaders in state and local governments 
who rise to the needs of their community.
    I have met thousands of volunteers who cannot be categorized in any 
way other than profoundly American. They do not seek to help survivors 
of any specific political party, race, or religion. They simply give 
freely of themselves, their time, their energy, their expertise, and 
their dollars to help their fellow citizens in need. I say the 
following in the spirit of continuous improvement: America's system for 
disaster recovery does not currently match the empathy or the will of 
our citizen volunteers.
    For an example of typical delay and lack of predictability consider 
long-term recovery CDBG-DR funds that flow from HUD to impacted 
communities. When disasters occur, Congress must first appropriate 
funds, then HUD must issue a federal register outlining the regulations 
for the use of those funds, then state and local governments must 
produce action plans, then HUD must approve these plans, and only then 
are disbursements made to state and local governments. The state and 
local governments then begin long and complicated procurement and 
contracting procedures to hire contract teams that take still more time 
to scale up and reach capacity.
    The result is that it routinely takes two years for long-term 
recovery assistance to reach the first eligible families. It can take 
six years or more to reach the majority of eligible applicants and, all 
too often, not all eligible applicants are served. Many fall through 
the cracks of local programs while others self select out before 
receiving assistance, unable to deal with the uncertainty and delay. 
America built the transatlantic railroad in six years but somehow we 
struggle to deliver long term housing assistance to our most vulnerable 
citizens affected by natural disasters.
    Another significant challenge is access to capital markets funds 
for quick and immediate repairs. There is a bit of a donut hole when it 
comes to financing for long term recovery efforts. Those with the most 
resources are the top half of the donut. These folks are self-insured. 
However, not all is doom and gloom. change is not impossible. There are 
also bright spots at the state and local levels worth celebrating and 
highlighting:
    <bullet>  FEMA and Puerto Rico's forward thinking and creative 
approach to STEP programs and difficult ownership verification are 
bright spots that show how innovation can drive better outcomes and 
results for survivors, taxpayers, and government at every level.
    <bullet>  South Carolina's Disaster Recovery Office has led one of 
the most efficient and productive federally funded housing recoveries 
in memory. CDBG-DR funds made it to citizens in month thirteen and 
services have been provided effectively, efficiently, and predictably 
throughout. It is rightly held up as a model for other state and local 
governments to emulate.
    But innovation will be necessary to keep pace as more Americans in 
more disparate regions are affected by more frequent and intense 
natural disasters. The Disaster Recovery Reform Act has made a good 
start but more can and should be accomplished. Below, I offer four 
recommendations that could further improve disaster recovery and 
prevent more Americans from being pushed past their breaking point.

           Create Single Application for Disaster Assistance

    Disaster survivors are often required to complete duplicative 
applications with multiple federal, state, and local agencies, many of 
which require identical information that is often already in the hands 
of other government agencies. A survivor is expected to know that they 
must apply to FEMA and that they can appeal FEMA's initial decision if 
they disagree. Survivors are expected to know that if FEMA refers them 
to SBA the attendant loan application is something they need to fill 
out regardless of their ability to repay--because denial from SBA may 
make them eligible for additional assistance from FEMA and is an 
important factor in determining an individual's eligibility for long 
term assistance from HUD. They'll also need to apply again to a state 
or local program years later when HUD funds arrive. I've been looking 
at this process for years and I still don't understand the logic.
    Think of the proud, hard working citizens, in your district. Folks 
who identify as givers and are loath to ask for help. How can we expect 
them to navigate this labyrinth in their most difficult days? A single 
application for assistance can simplify this process help reduce the 
burden of application for those most in need.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     Improve FEMA's Capabilities for Damage Assessment and Analysis

    Following large-scale disasters FEMA currently deploys teams of 
individual inspectors to assess damage to homes one at a time using 
paper and pen or tablet devices. After Hurricane Michael in Florida, 
SBP worked with FEMA Individual Assistance Data and aerial imagery 
provided by the National Insurance Crime Bureau to compare individual 
assistance awards amounts to visible destruction in the images. Based 
on a very small sample of that data in one community, local officials 
asked and FEMA reinspected seven properties where five received 
additional assistance and one award went from $1100 to $34,000. Imagine 
the impact of this at scale.
    When actual damages are underestimated, families are deprived of 
much needed assistance and are required to navigate the complicated 
appeals processes I've described and visualized above. Meanwhile, 
private sector insurance and financial companies are deploying modern 
drone, AI and other technologies to develop more accurate and timely 
damage assessments. FEMA should pilot the use of this technology and 
analysis via a Private-Public-Partnership with technology and insurance 
industry actors, NGOs, and state and local governments. The pilot will 
identify ways to quickly improve the speed, accuracy, and consistency 
of FEMA's damage assessment capabilities.

                       Recovery Acceleration Fund

    Across the Hurricane Harvey impacted areas in Texas, thousands of 
homes have already been rebuilt by nongovernmental organizations and 
volunteers while HUD funds are just beginning to reach survivors 
through state and local government programs. According to the Texas 
General Land Office's October report construction had been completed on 
fewer than 200 homes more than two full years after Hurricane Harvey 
made landfall. More than 13,000 have applied for assistance. The real 
limiting factor here is available, usable funding.
    Under today's post-disaster federal funding model, non-FEMA 
federally authorized funds take at least 24 months to reach affected 
communities. However, eligibility for these funds is knowable as soon 
as HUD publishes the federal register. HUD and state governments should 
work together with NGOs and investors to create a marketplace where 
private and social impact capital can be deployed to quickly repair 
homes for qualified low to moderate-income survivors. Private funds can 
be reimbursed with CDBG-DR funds when they ultimately reach the 
affected community. This `reimbursement' pathway is common in state and 
local action plans for survivors who can self-fund repairs, but no such 
mechanism exists for low to moderate-income families using private or 
charitable assistance.
    Such a mechanism would effectively transfer delay and suffering 
from vulnerable families to investors' balance sheets. Families like 
Ms. Benjamin in Houston, TX who is 81 years young and disabled. Her 
daughter and granddaughter live with her in the family house. Before 
Harvey, with a household income just under 80% of the area median 
income, they had enough income to get them by and they were living a 
happy, normal life. After Harvey, they have struggled to recover. She 
used FEMA funds and savings to make repairs but there is still more 
than $6,000 worth of work left to do. Though she is eligible for CDBG-
DR assistance, her family--like so many others--cannot afford to wait 
any longer on local programs to deliver assistance.
    If the Recovery Acceleration Fund were implemented today nonprofit 
organizations could scale up their assistance efforts since funding 
would be available immediately. Overall repair costs would be reduced 
because houses wouldn't sit untouched falling into further disrepair. 
Most importantly thousands fewer disaster survivors would be pushed 
beyond their breaking point by protracted and unpredictable recovery.

   State and local governments must attract more sustainable private 
                               investment

    Federal resources are but one stream of the assistance needed for a 
full recovery. Many state and local governments may need access to 
capital markets to launch recovery efforts more quickly, often at a 
time when some lenders may look skeptically at recovery prospects. 
State and local governments can and must create better conditions for 
private and social impact investment to hasten recovery efforts as 
well.
    Creative, public-private partnerships that make productive use of 
tax credit incentives and development programs, Opportunity Zone 
investment vehicles, paired with the potential for Community 
Reinvestment Act credit offer creative ways to attract institutional 
investment, grants, and other social impact capital. These funds can 
power programs like the Recovery Acceleration Fund and other 
innovations. State and local leaders must experiment and develop 
programs that attract this investment in long term recovery and in 
projects that better protect their communities from future disasters.

                         Support and follow up

    SBP is committed to shrinking the time between disaster and 
recovery and preventing unnecessary suffering in the process. We must 
bring disaster recovery outcomes back in line with American values. 
Timely and predictable disaster assistance preserves the dignity of 
survivors and reaffirms the value of citizenship--in uncertain times, 
for those who need it the most. Needlessly complex, delayed, and 
unpredictable disaster assistance does the opposite.
    SBP is a willing partner to Members of this Committee, relevant 
federal agencies, state and local governments, and other organizations 
interested in piloting and testing the approaches we recommend 
above.Thank you for this opportunity to submit comments and please call 
on us if we can assist in any way as you proceed.

Very Sincerely,

Reese C. May
Chief Strategy and Innovation Officer, SBP

    Ms. Castor. Well, I would like to thank our witnesses for 
being with us today.
    Without objection, all members have 10 business days within 
which to submit additional written questions for the witnesses. 
I ask our witnesses to please comply as promptly as you are 
able.
    [The information follows:]

                United States House of Representatives 
                 Select Committee on the Climate Crisis

                      Hearing on December 11, 2019

                ``Creating a Climate Resilient America: 
                 Smart Finance for Strong Communities''

                        Questions for the Record

                             mark gaffigan

                           Managing Director,

                   Natural Resources and Environment

                    Government Accountability Office

The Honorable Kathy Castor
    GAO has reported that the federal government's fragmented and 
reactive approach to funding disaster resilience presented challenges 
to effective reduction of climate-related risks.

    1. GAO reported that Congress could consider establishing a federal 
organizational arrangement to identify and prioritize climate 
resilience projects for federal investment. You testified that 
strategic goals for climate resilience need to be established and a 
federal structure is needed with the authority to lead, identify and 
integrate all stakeholders, define responsibilities, and address how 
the effort will be funded. As Congress considers establishment of such 
an approach, what lessons can we apply regarding the current approaches 
to federal investment in order to increase efficiency and effectiveness 
and speed delivery of those investments?

    Currently, the federal government does not have a strategic 
approach for investing in climate resilience projects--that is, an 
intentional, cross-cutting approach in which the federal government 
identifies and prioritizes projects for the purpose of enhancing 
climate resilience. Federal agencies may take actions to invest in 
projects with potential climate resilience benefits related to their 
own mission areas using funds from federal programs designed for other 
purposes. However, no federal entity looks holistically at the federal 
government's investments to strategically prioritize projects to ensure 
they address the nation's most significant climate risks and provide 
the highest net benefits relative to other potential projects. As we 
reported in 2019, a strategic and iterative risk-informed approach for 
identifying and prioritizing climate resilience projects presents an 
opportunity to enhance the nation's resilience to climate change and 
reduce federal fiscal exposure. In particular, such an approach could 
help target federal resources toward high-priority projects--namely, 
those that address the nation's most significant climate risks and 
provide the greatest expected net benefits relative to other potential 
projects--that are not already addressed through existing federal 
programs.
    Congress could apply several lessons from current programs, and 
several opportunities exist to increase the impact of federal 
investment in high-priority climate resilience projects. These include:
    <bullet>  ensuring that there is adequate and consistent funding 
for climate resilience investment,
    <bullet>  encouraging investment by nonfederal players and 
complementary resilience activities (e.g., climate-resilient building 
codes and zoning regulations that limit development in high-risk 
areas), and
    <bullet>  allowing investment funds to be used at various stages of 
project development such as project design, implementation and 
monitoring.

    2. As part of a broad-based federal strategic arrangement for 
evaluating federal exposure to climate risks, how important would it be 
to require that agencies evaluate the impacts of climate change on 
their missions, budgets, and operations, and report to Congress on any 
additional authorities they may need to address those impacts?

    We and others have reported that understanding the federal 
government's fiscal exposure to climate change risks is increasingly 
critical for policymakers charged with making sound investment 
decisions and acting as stewards of the federal budget over the long 
term. According to the U.S. Global Change Research Program's Fourth 
National Climate Assessment, a significant portion of climate risk can 
be addressed by mainstreaming--integrating climate adaptation into 
existing investments, policies, and practices such as planning, 
budgeting, policy development and operations and maintenance. However, 
as we reported in our 2019 high-risk list update, beginning in 2017, 
the administration revoked policies that had identified addressing 
climate change as a priority and demonstrated top leadership support 
for executive branch action. For example, a 2013 executive order that 
required agencies to develop adaptation plans--plans to evaluate the 
most significant climate change related risks to, and vulnerabilities 
in, agency operations and missions and outline actions to manage these 
risks and vulnerabilities--was rescinded in 2017. As such, limiting the 
federal government's fiscal exposure by better managing climate change 
risks remains on our list of high-risk areas needing attention by the 
executive branch and Congress.
    Nevertheless, according to the Fourth National Climate Assessment, 
mainstreaming may prove insufficient to address the full range of 
climate risks. Additional, strategic federal investments in large-scale 
projects--such as those discussed in our October 2019 report--may also 
be needed to manage some of the nation's most significant climate 
risks, since climate change cuts across agency missions and poses 
fiscal exposures larger than any one agency can manage.

    3. Your testimony reports that of the 17 recommendations GAO has 
made to agencies to improve federal climate change strategic planning, 
14 remain unmet. GAO had made 62 recommendations related to the 
Limiting the Federal Government's Fiscal Exposure by Better Managing 
Climate Change Risks high-risk area. Twenty-five of those 
recommendations remain open. What should Congress do to help implement 
GAO's recommendations to limit federal fiscal exposure and improve 
federal climate change strategic planning?

    Congress can continue to conduct oversight of these issues. These 
recommendations can be found in the ``What Remains to be Done'' section 
of the 2019 high-risk report. Limiting the federal government's fiscal 
exposure to climate change requires significant attention because the 
federal government has revoked prior policies that had partially 
addressed this high-risk area and has not implemented several of our 
recommendations that could help reduce federal fiscal exposure. We are 
ready to provide briefings on the status and importance of these unmet 
recommendations and the strengths and limitations of various paths 
forward laid out in our work.
    When disasters occur, the destruction they cause must be addressed 
immediately, and disaster relief funding must be delivered 
expeditiously.

    4. GAO research has identified challenges faced by states and local 
governments in navigating complex disaster recovery programs. What 
progress can you report from HUD and FEMA in implementing program 
changes to reduce program complexity and accelerate disbursement of 
recovery funds?

    The Federal Emergency Management Agency (FEMA) has acknowledged 
that the complexity of disaster assistance programs can present 
challenges. FEMA's 2018-2022 Strategic Plan, which is organized around 
three high-level strategic goals, entirely dedicates 1 of the 3 goals 
to simplifying and streamlining processes. In the course of conducting 
over 50 engagements related to the 2017 and 2018 disasters, we have not 
encountered an overarching effort or mechanism at FEMA that is 
specifically dedicated to achieving this strategic goal. However, we 
have observed examples of efforts to streamline and simplify within the 
policies, procedures, and guidance of individual programs. The most 
sweeping of these was a recent end-to-end review and redesign of the 
Public Assistance program's delivery model. In 2015, FEMA began working 
with a contractor to help implement a redesigned Public Assistance 
program. In the redesign, FEMA developed a new, web-based project 
tracking and case management system to address past challenges, such as 
difficulties in sharing grant documentation among FEMA, state, and 
local officials and tracking the status of Public Assistance projects. 
Both FEMA and state officials involved in testing the redesigned 
delivery model stated that the new case management system's 
capabilities could lead to greater transparency and efficiencies in the 
program. Similarly, in a memo to all FEMA staff about the 2020 Planning 
Guidance, the Administrator laid out several expectations for FEMA's 
Mission Support, Grants Program Directorate, and Office of Response and 
Recovery in reducing complexity.
    Nevertheless, in the course of conducting recent work, we have 
continued to encounter examples of difficulties that delay or limit 
recovery efforts and frustrate officials at different levels of 
government as they attempt to navigate disaster recovery programs. For 
example, in October 2019 we reported that both the complexity of the 
Public Assistance application and the relative lack of experience at 
different levels of government, including within FEMA, with wildfire 
damage of the magnitude experienced, created challenges and 
frustrations for local governments dealing with wildfire devastation. 
In that report, we recommended a comprehensive assessment of operations 
including policies, procedures, and training to enhance future wildfire 
response and recovery. In October 2019, we also reported on challenges 
with the grid recovery in in Puerto Rico, including uncertainty about 
FEMA funding eligibility, capacity constraints, uncertainty about the 
timing and amount of federal funding available, and the need for 
coordination. For example, according to local officials, FEMA had not 
provided sufficient guidance on how it would implement new authorities 
and determine eligible uses of FEMA funding to guide grid recovery 
efforts. Further, while multiple sources of federal funding were 
available, each funding source had different eligibility criteria, 
requirements, and time frames.
    Challenges navigating across multiple programs administered by 
different federal departments and agencies is not unique to the 
recovery in Puerto Rico. For example, we found similar problems in 2015 
when we examined the efforts to enhance disaster resilience during the 
recovery from Hurricane Sandy. In our analysis of the frameworks that 
guide the nation's efforts to prepare for, respond to, recover from, 
and mitigate the risk for disasters, we found 17 separate departments 
and agencies that have a role to play. Particularly, but not 
exclusively, for our nation's largest and most costly disasters, when 
recovery funds have been appropriated through a supplemental 
appropriation, state and local governments are left to work out how to 
use a patchwork of programs designed for different purposes and 
initiated at different points toward a comprehensive recovery and 
hazard mitigation approach. It will be important for FEMA to continue 
to make progress toward its strategic goal of reducing complexity and 
for all relevant federal departments and agencies to pay attention to 
opportunities to help disaster assistance recipients pursue more 
comprehensive recovery and hazard mitigation approaches.
    With regards to the progress with HUD programs, we noted in March 
2019 that the ad hoc nature of the Community Development Block Grant-
Disaster Recovery (CDBG-DR) had created challenges for CDBG-DR 
grantees, such as lags in accessing funding and requirements that may 
vary for each disaster. We also found that grantees had difficulty 
coordinating with multiple federal agencies. We reported that because 
HUD lacks permanent statutory authority, CDBG-DR appropriations require 
HUD to customize grantee requirements for each disaster. We concluded 
that establishing permanent statutory authority for a disaster 
assistance program that meets verified unmet needs would provide a 
consistent framework for administering funds going forward. Therefore, 
we recommended that Congress consider legislation establishing 
permanent statutory authority for a disaster assistance program 
administered by HUD or another agency that responds to unmet needs in a 
timely manner and directing the applicable agency to issue implementing 
regulations. Since that report, legislation that would permanently 
authorize CDBG-DR has been passed by the House and referred to the 
Senate. It is important to note, however, that while a permanent 
authorization--no matter to which agency--may provide more stability 
and predictability in the functions that the CDBG-DR program serves, it 
will not reduce all of the complexity officials at different levels of 
government encounter when they must work across federal programs.

    5. GAO has reported that, due to an artificially low indicator for 
determining a jurisdiction's ability to respond to disasters that was 
set in 1986, the Federal Emergency Management Agency risks recommending 
federal assistance for jurisdictions that could recover on their own. 
GAO has recommended that FEMA adjust its methodology for determining 
local capacity to ensure that the agency is focused on disasters that 
exceed local capacity. In the DRRA, Congress directed the FEMA 
Administrator to update the factors considered when evaluating requests 
for major disaster declarations. What progress has the agency made in 
implementing this provision?

    The Disaster Recovery Reform Act of 2018 (DRRA) requires FEMA to 
initiate rulemaking to update the factors considered when evaluating 
governors' requests for major disaster declarations, including 
reviewing how FEMA estimates the cost of major disaster assistance, and 
consider other impacts on the capacity of a jurisdiction to respond to 
disasters. DRRA requires the FEMA Administrator to initiate the 
rulemaking by October 2020. As of January 2020, FEMA reported that it 
is currently reviewing the six regulatory factors used to determine 
whether to recommend that the President declare a major disaster and 
has begun the process of developing a Notice of Proposed Rulemaking, 
which it anticipates publishing in 2020. Until FEMA implements a new 
methodology, FEMA will not have an accurate assessment of a 
jurisdiction's capabilities to respond to and recover from a disaster 
without federal assistance and runs the risk of recommending that the 
President award Public Assistance to jurisdictions that have the 
capability to respond and recover on their own.

    6. GAO has reported that the risk for improper payments increases 
when billions of dollars are being spent quickly. For many years, GAO 
and the Inspector General community have identified internal control 
weaknesses in the federal government related to agencies receiving 
supplemental funds for disaster assistance. Have payment integrity 
provisions helped assure that all federal disaster recovery funds are 
being spent as efficiently and effectively as possible? Has 
implementation of those provisions had any effect on the pace of funds 
disbursement, either to accelerate or delay communities receiving 
disaster recovery funds?

    We have not conducted the work necessary to fully answer this 
question. However, the payment integrity provisions in the disaster 
supplemental appropriation acts can serve as a critical transparency 
tool for controls over disaster funds. Nevertheless, implementation of 
these provisions has varied. In June 2019, we reported that, of six 
selected agencies, one agency did not submit required internal control 
plans to Congress for funds appropriated following the 2017 disasters. 
Of the five agencies that did submit the required plans, four were not 
timely and all lacked necessary information, such as how they met OMB 
guidance and federal internal control standards. These issues were 
caused, in part, because OMB lacked an effective strategy for helping 
agencies develop internal control plans for the needed oversight of 
these funds. Because OMB did not establish an effective strategy for 
timely communicating requirements for agency reporting in internal 
control plans, federal agencies lacked the information needed to meet 
the statutory deadline. As a result, Congress and others did not timely 
receive agency internal control plans. We recommended that the Director 
of OMB develop a strategy for ensuring that agencies communicate 
sufficient and timely internal control plans for effective oversight of 
disaster relief funds. OMB disagreed with this recommendation and 
stated that they do not believe timeliness and sufficiency of internal 
control plans present material issues that warranted OMB action. We 
continue to believe that future internal control plans could serve as a 
critical transparency tool for controls over disaster funds.
    Regarding the pace of funds disbursement, we have not conducted the 
work necessary to answer this question. Nevertheless, our Framework for 
Managing Fraud Risk in Federal Programs acknowledges that managers' 
defined risk tolerance may depend on the circumstances of individual 
programs and other objectives beyond mitigation of fraud risks. For 
example, in the context of disaster assistance, managers may weigh the 
program's objective of expeditiously providing assistance against the 
objective of lowering the likelihood of fraud, because activities to 
lower the risk related to fraudulent applications, such as conducting 
inspections, may cause delays in service. Alternatively, managers may 
define their risk tolerance as ``very low'' with regard to providing 
certain disaster assistance in order to provide a high level of 
certainty that the assistance is actually going to those in need as 
opposed to fraudulent applicants. Accordingly, when developing an 
antifraud strategy, managers should consider benefits and costs of 
control activities, such as the benefit to the program of reducing the 
likelihood or impact of a fraud risk.

    7. The National Flood Insurance Program (NFIP) and the Federal Crop 
Insurance Corporation are sources of federal fiscal exposure due, in 
part, to the vulnerability of insured property and crops to climate 
change. Federal flood and crop insurance programs were not designed to 
generate sufficient funds to fully cover all losses and expenses, which 
means the programs need budget authority from Congress to operate. GAO 
has described these programs as providing coverage where private 
markets for insurance do not exist, typically because the risk 
associated with the property or crops is too great to privately insure 
at a cost that buyers are willing to accept. Has GAO studied the 
current state of the market for private insurance to assess whether 
private insurers are able to compete with discounted NFIP and crop 
insurance rates, or to provide insurance products that may complement 
federal programs to bring more affordable insurance solutions to 
market?

    Yes, we have conducted work on private insurance and the National 
Flood Insurance Program (NFIP). Specifically, in July 2016, we reported 
on barriers to the increased use of private flood insurance. 
Stakeholders we spoke with for that report--private flood insurance 
companies and organizations in the insurance and lending industries--
told us that a primary barrier to private participation in the flood 
insurance market was the ability of the private sector to compete with 
the NFIP's discounted rates. Stakeholders said insurers needed to 
charge premium rates that reflect the full risk of potential flood 
losses, but with NFIP charging discounted rates that were not 
actuarially sound, private companies found it difficult to compete in 
the market. Other barriers cited in our report included an uncertain 
regulatory environment for private flood insurance and some recent (at 
that time) changes to NFIP by FEMA. Specifically, we found that a 2015 
NFIP policy change could discourage consumers' use of private 
insurance. FEMA had stopped allowing policyholders to obtain a refund 
of their unused NFIP premium if they obtained a non-NFIP policy. Since 
we issued our report, in March 2018 FEMA reinstated the ability of 
policyholders to cancel their NFIP policy and be eligible for premium 
refunds, on a prorated basis, if they obtained a duplicate non-NFIP 
policy effective October 1, 2018.
    With respect to crop insurance, we have not assessed the current 
state of the market for private crop insurance, but we plan to initiate 
work in the future that addresses climate change and agricultural 
issues, potentially including the crop insurance program. However, we 
have issued several reports addressing crop insurance more generally, 
and in our 2019 High Risk List, we identified the federal government's 
role as the insurer of property and crops as an area where government-
wide action is needed to reduce federal fiscal exposure.

    8. Has GAO analyzed trends in economic versus insured disaster loss 
and default rates for uninsured disaster survivors with federally-
insured loans, and what have those studies found with regard to actions 
Congress can take to mitigate uninsured economic loss?

    We have not conducted work analyzing trends in economic versus 
insured disaster loss and default rates for uninsured disaster 
survivors with federally-insured loans.
                            references page
    FEMA, Memorandum for All FEMA Employees: Calendar Year 2020 Annual 
Planning Guidance (Washington, D.C.: Dec. 12, 2019).
    FEMA, 2018-2022 Strategic Plan (Washington, D.C.: Mar. 15, 2018).
    GAO, Climate Resilience: A Strategic Investment Approach for High-
Priority Projects Could Help Target Federal Resources, GAO-20-127 
(Washington, D.C.: Oct. 23, 2019).
    GAO, Disaster Resilience Framework: Principles for Analyzing 
Federal Efforts to Facilitate and Promote Resilience to Natural 
Disasters, GAO-20-100SP (Washington, D.C.: Oct. 23, 2019).
    GAO, Wildfire Disasters: FEMA Could Take Additional Actions to 
Address Unique Response and Recovery Challenges, GAO-20-5 (Washington, 
D.C.: Oct. 9, 2019).
    GAO, Puerto Rico Electricity Grid Recovery: Better Information and 
Enhanced Coordination Is Needed to Address Challenges, GAO-20-141 
(Washington, D.C.: Oct. 8, 2019).
    GAO, 2017 Disaster Relief Oversight: Strategy Needed to Ensure 
Agencies' Internal Control Plans Provide Sufficient Information, GAO-
19-479 (Washington, D.C.: June 28, 2019).
    GAO, High-Risk Series: Substantial Efforts Needed to Achieve 
Greater Progress on High-Risk Areas, GAO-19-157SP (Washington, D.C.: 
Mar. 6, 2019).
    GAO, 2017 Hurricanes and Wildfires: Initial Observations on the 
Federal Response and Key Recovery Challenges, GAO-18-472 (Washington, 
D.C.: Sept. 4, 2018).
    GAO, Climate Change: Analysis of Reported Federal Funding, GAO-18-
223 (Washington, D.C.: Apr. 30, 2018).
    GAO, Disaster Assistance: Opportunities to Enhance Implementation 
of the Redesigned Public Assistance Grant Program, GAO-18-30 
(Washington, D.C.: Nov. 8, 2017).
    GAO, Crop Insurance: Opportunities Exist to Improve Program 
Delivery and Reduce Costs, GAO-17-501 (Washington, D.C.: July 26, 
2017).
    GAO, Federal Disaster Assistance: Federal Departments and Agencies 
Obligated at Least $277.6 Billion during Fiscal Years 2005 through 
2014, GAO-16-797 (Washington, D.C.: Sept. 22, 2016).
    GAO, Flood Insurance: Potential Barriers Cited to Increased Use of 
Private Insurance, GAO-16-611 (Washington, D.C.: July 14, 2016).
    GAO, Hurricane Sandy: An Investment Strategy Could Help the Federal 
Government Enhance National Resilience for Future Disasters, GAO-15-515 
(Washington, D.C.: Jul. 30, 2015).
    GAO, A Framework for Managing Fraud Risks in Federal Programs, GAO-
15-593SP (Washington, D.C.: July 28, 2015).
    GAO, Crop Insurance: In Areas with Higher Crop Production Risks, 
Costs Are Greater, and Premiums May Not Cover Expected Losses, GAO-15-
215 (Washington, D.C.: Feb. 9, 2015).
    GAO, Hurricane Sandy: FEMA Has Improved Disaster Aid Verification 
but Could Act to Further Limit Improper Assistance, GAO-15-15 
(Washington, D.C.: Dec. 12, 2014).
    GAO, Considerations in Reducing Federal Premium Subsidies, GAO-14-
700 (Washington, D.C.: August 8, 2014).
    GAO, Hurricanes Gustav and Ike Disaster Assistance: FEMA 
Strengthened Its Fraud Prevention Controls, but Customer Service Needs 
Improvement, GAO-09-671 (Washington, D.C.: June 19, 2009).
    GAO, Hurricanes Katrina and Rita Disaster Relief: Continued 
Findings of Fraud, Waste, and Abuse, GAO-07-300 (Washington, D.C.: Mar. 
15, 2007).
    U.S. Global Change Research Program, Impacts, Risks, and Adaptation 
in the United States: Fourth National Climate Assessment, vol. 2. 
(Washington, D.C.: November, 2018).

                        Questions for the Record

                              damon burns

                  President & Chief Executive Officer

                  The Finance Authority of New Orleans

The Honorable Kathy Castor
    1. In your testimony, you recommended that Congress work to ensure 
a market for affordable insurance. In your experience, how are 
retrofits to homes currently accounted for in the National Flood 
Insurance Program? As FEMA works to adjust its flood insurance rating 
methods, what are the sorts of flood and storm mitigation measures that 
should be accounted for to reduce risk and insurance rates? How 
important is it to your strategic program for community resilience 
finance for federal insurance to discount insurance costs based on 
those resilience characteristics of homes for your borrowers?

    The National Flood Insurance Program as currently structured does 
not adequately account for climate resilience retrofits. The majority 
of homes across America lack the proper protection against catastrophic 
climate events. Financial markets have not fully adjusted to the 
realities of climate change and the risks placed upon cities. Prior to 
Hurricane Katrina, The Finance Authority of New Orleans had an 
approximately $395 million balance sheet mostly composed of residential 
mortgage backed securities. Today that portfolio is valued at around 
$20 million as a direct result of homes and infrastructure not being 
resilient enough to withstand a major climate and financial disaster.
    FANO's story is a cautionary tale of the wide-ranging effects 
climate events can have on a community. Moving forward, we must ensure 
that every home and the public infrastructure supporting those homes is 
protected from climate events. This can be accomplished by the Federal 
Government using its financial resources to create a market for climate 
disaster insurance tied to the existing mortgage market.
    The tandem of a climate resilience mortgage and insurance product 
would provide upfront capital to allow the homeowner to invest in 
climate mitigation measures such as roof fortification, stormwater 
management systems, solar panels, permeable pavement, energy efficient 
equipment and other measures specific to certain geographies. Many 
communities do not have adequate resources to fix these problems on 
their own. Innovation is needed and it must begin with the public 
sector. FANO is actively recruiting private financial institutions and 
corporations to play a role in addressing our climate challenges but 
more support is needed from the Federal Government to make American 
cities first-class.

    2. What do communities most need in terms of technical assistance 
to ensure that planning is inclusive and that investments drive 
resilient outcomes for everyone in the community?

    Community education regarding the realities of climate change is a 
critical need on all levels of society. Municipalities, private 
companies and non-profit organizations must cooperate to fully 
understand the severity of this issue. In my estimation, the issue of 
climate change is not fully understood and accepted by all community 
stakeholders.
    Congress should provide direct financial support for cities to lead 
the effort to educate America about the opportunities and risks of 
climate change. Community design sessions focused on green and smart 
infrastructure is an example of how cities can utilize technical 
assistance funding. All cities should be required to deliver a climate 
resilience plan built by their respective communities. This is also an 
opportunity for cities to collaborate by sharing knowledge and 
solutions with an eye toward innovation. America should have the most 
innovative cities in the world.

    3. How can Congress help ensure that minority- and women-owned 
local businesses can take advantage of redevelopment and climate 
resilience investments, which would provide additional economic 
benefits to localities?

    Congress should provide financial incentives and support to cities 
that actively invest in minority and women owned businesses focused on 
climate resilience. I recommend the following solutions:
    1.  Technical assistance funding for educating and training 
minority and women owned businesses to capture the opportunities 
provided by a city investing in climate resilience.
    2.  Federal tax credit program for minority and women owned small 
businesses that start climate resilience-based companies and/or 
projects.
    3.  Financial incentives for cities that prioritize operating and 
capital budget spending on minority and women owned businesses.
    4.  Below-market or tax-exempt funding for minority owned financial 
institutions to invest in climate resilience businesses and community 
development projects.
    5.  Funding for minority developers and homebuilders to encourage 
housing innovation in distressed communities.

The Honorable Garret Graves

    1. Being from coastal Louisiana, you and I both know that people 
are always going to live by water. With that reality, it's necessary 
that communities have the tools they need to adapt to safely live by 
water.

    a. How do you suggest we monetize certain gov. functions and 
infrastructure that will be necessary to build resilience?

    Climate resilience based financial products are limited in today's 
market. Property Assessed Clean Energy (``PACE'') financing is gaining 
momentum but less than half of U.S. states have passed legislation to 
activate this method of financing climate resilience. PACE financing 
allows a property owner to finance climate resilience and green 
measures on its annual property tax bill. The cost of resilience to the 
property owner is spread over a 20-year period and can be passed on to 
future property owners until all improvements are paid for.
    PACE financing is becoming popular because it is otherwise 
difficult to fully finance climate resilience improvements with 
conventional bank financing. Commercial banks limit the amount of 
improvements that can be made and require a more aggressive payback 
term. Alternatively, PACE financing allows a property owner to use 
their tax bill as a financing tool. As a result, PACE lenders or 
investors have seniority over the mortgage lender for the underlying 
property. This has made commercial banks uncomfortable and led to many 
states rejecting PACE based financing for their cities.
    Existing mortgage and insurance products do not allow a property 
owner to maximize climate mitigation. However, a combination of PACE 
financing with a climate resilience-based mortgage and insurance 
product would stimulate climate mitigation investing. The Federal 
Government should require states to allow PACE financing or develop 
alternative plans for financing climate resilience. It is unacceptable 
that states are exposing its citizens to danger by ignoring the 
realities of climate resilience. Every state should be held accountable 
for a solution to mitigate climate risks.

    b. How do you see green infrastructure playing a role as we adapt 
for the changing climate?

    Green infrastructure is the foundation of climate resilience 
investing for cities. Cities must lead the way by transforming our 
public spaces into climate resilience projects that protect and 
beautify our communities. Prioritizing and incentivizing investment in 
green infrastructure will fuel capital markets, increase innovation and 
give disadvantaged minority communities a chance to rebuild. A 
coordinated green infrastructure strategy for all levels of government 
is needed to make green infrastructure a reality.

    2. For some communities, federal disaster insurance is not an 
option. The National Flood Insurance Program (NFIP) exists for those in 
a 100 year floodplain, where communities often see reoccurring floods. 
However, when disaster strikes areas where flood insurance is not 
required or when communities are devastated by exceptional disasters 
other than floods, the taxpayer steps in to help anyway. In these 
cases, homeowners receive payments from taxpayer-funded disaster 
assistance programs without ever having to pay premiums.

    a. Given your financial and public service background, how can the 
federal government reconceptualize its approach to comprehensive 
disaster coverage to ensure that homeowners are able to afford the 
insurance coverage they need, without leaving the taxpayer on the hook 
again and again?

    A missing link in the U.S. mortgage market is a connection to 
climate resilience. FHA has taken a step forward by creating an Energy 
Efficient Mortgage (``EEM'') product that allows homeowners to upgrade 
their homes with green or climate resilient features. However, more 
support is needed to ensure a climate resilient housing stock in all 
cities. FHA's EEM provides the homeowner with some assistance but it is 
typically short of what is needed to completely mitigate climate risks.
    A new form of comprehensive homeowner's disaster insurance should 
be considered to increase the amount of upfront funding and long-term 
protection available to homeowners. The U.S. government has the balance 
sheet to create a market for this type of insurance product. This new 
climate resilience insurance product can be delivered through the 
nation's housing finance agencies and green banks alongside their 
existing single-family mortgage programs. Housing finance agencies 
issue over $20 billion in mortgage revenue bonds annually with a 
minimal amount of those funds dedicated to making homes more climate 
resilient.
    Creating a climate resilience product will incentivize housing 
finance agencies to form partnerships with insurance companies and 
commercial banks. The desired end result of this collaboration is a 
more climate resilient America and increased economic opportunity. 
Cities will be able to physically transform their housing stocks with a 
U.S. government supported climate insurance product.
                            references page
    PACE Nation Fact Sheet https://pacenation.org/wp-content/uploads/
2016/10/PACEBasics_2016 _10_7.pdf

                        Questions for the Record

                              chuck wemple

                           Executive Director

                     Houston-Galveston Area Council

The Honorable Garret Graves
    1. It is extremely important to begin the recovery process as 
quickly as possible after a disaster, and you know this well having 
recently suffered from Hurricane Harvey. In your opinion, what are the 
top two roadblocks that have kept your response to Harvey from being 
the most efficient and successful way to expedite disaster recovery at 
the lowest possible cost?

    Many recovery activities are locally initiated immediately after 
the first stage of response; long term recovery committees are 
established, chambers of commerce reach out to returning businesses, 
schools coordinate openings with returning residents, and volunteers 
and advocacy groups begin working with homeowners to begin repairs and 
bring stability and hope. Local governments assess their emergency 
reserves and options for debris pick up and ensuring basic services are 
working and their communities are safe. The role of federal assistance 
in recovery should not be overlooked. It is a critical part of helping 
communities bounce back after a disaster and to successful recovery of 
local economies.
    After working through several disasters over the past 15 years, 
there are two consistent phenomena that get in the way of rapid 
recovery. It is important to understand that I am referring to recovery 
and not the initial response immediately after a disaster. (1) The hope 
of quickly delivered federal funds coupled with caution that only 
certain things will be covered by the federal assistance. Help is on 
the way, but only for certain things, and the funding has a lot of 
requirements that don't necessarily line up with the most effective 
projects, and the rules are somewhat different each time so how do we 
proceed with recovery? Substantial time and effort is spent considering 
what do we fund locally and what is too large to fund locally or is a 
better fit for federal funds? With housing the effect is amplified due 
to extensive qualification and eligibility criteria that result in 
approximately 1 in 4 applicants receiving assistance. And when we add 
on the complexity of numerous federal agencies all offering 
individualized types of recovery funding, communities end up chasing 
possible aid and can encounter rerouting (``We can't fund that, that is 
a USACOE project'') and become discouraged and fatigued while waiting 
for approvals. Which takes me to the second major roadblock. (2) The 
long delays in moving funds from the federal government to communities 
and citizens in need of help. It's a strange limbo or purgatory. An 
announcement comes that Congress has approved recovery funds and help 
is on the way. Then there is a wait for federal register announcements 
and guidance--which is an important and critical step to make sure 
funds are appropriately programmed and spent--but takes too long. Homes 
that could have been quick and efficient repairs deteriorate and become 
more costly tear-down and replacement projects. And households remain 
fragile longer and have an effect on local economies and the social 
fabric of a community. It is often the case that communities wait more 
than a year after a disaster to receive the first disbursements of 
recovery aid. Housing and infrastructure damage advances during this 
time and becomes more costly to address and recovery is slower than it 
could be.

    2. I appreciate your comment that economic resiliency and financial 
strength rarely get the attention and consideration it merits because 
it is often overshadowed by infrastructure and housing needs after 
natural disasters.

    a. How can we do better up front with pre-disaster mitigation?

    First launch a national campaign, an aspirational message, that we 
all have a role in preparing our communities, businesses and homes to 
withstand disasters and to strengthen our ability to bounce back after 
adversity. That individuals, community organizations, employers, 
cities, counties, states, and our federal government are all in this 
together to support and hold each other accountable. That we should not 
shy away from the need to understand our individual and community 
vulnerabilities and the risks they bring in a period of more active 
weather and more frequent storms. To raise awareness that mitigation is 
much less costly than recovery. And then to invest (individual, private 
sector, and government) in real projects and initiatives that have 
noticeable impact on improving our economies and communities. Tie 
federal aid to a demonstrated understanding of mitigation needs and 
actions. An example for communities could be fire-wise programs or the 
community rating system, comprehensive mitigation plans that also 
address economic resiliency, and financial literacy training for 
individuals. Its important to understand that mitigation is not just 
physical infrastructure but also includes local economies.

    b. What are some examples of projects in your region that could be 
financed now to achieve best use federal funds and achieve cost 
savings?

    I'll offer three very different projects that could have a high 
return on investment.
    (1) Relocating a severe bend in a section of railroad that cuts 
through the heart of one of our small cities in a growing county. 
Locally referred to as the Dayton candy-cane due to its location and 
hook-like configuration, the rail and roadway configurations result in 
frequent and substantial delays in the movement of goods and people, 
hampers evacuation and emergency services and limits economic 
development and resiliency in one of our rural counties on the edge of 
urban growth. The County has worked with our regional council to 
develop an alliance with local governments, the private sector, and 
State and Federal funding agencies to reconfigure the rail and 
roadways, establish proper overpass options, and open up a portion of 
the County that has been cut off from economic development. This 
project will also create flood mitigation opportunities within the 
city, create a more vibrant downtown and commercial district, and 
increase the options of freight movement out of our major seaport, 
improving local and regional economic resilience. Despite commitments 
of local, private and government transportation funding, the project 
has a substantial funding gap that could be met with federal mitigation 
funds. The link is improved evacuation routes, better drainage, and a 
stronger economy. This project illustrates the new perspectives that 
need to be adopted as we look to increase economic resiliency by 
preparing or natural disasters while also looking to strengthen local 
economies and increase public safety. Traditional thinking tends to 
focus on very specific pieces of infrastructure like culverts, floodway 
improvements and shoreline protection which are important--but often 
don't have well-developed links to their impact on a community's 
economic resilience and accelerating economic development.
    (2) Upgrades to the water supply system in one of our rural cities. 
Damaged by Hurricane Ike and further impacted by soil contraction 
during a recent historic drought, the city water system experienced 
decreases in water pressure in portions of its water supply system and 
portions of the community did not have adequate hydrant pressure to 
support fire fighting trucks. One of the affected areas included a 
business park and several businesses were prepared to leave the 
community because their enterprises could not be served in the event of 
fire. The city purchased a pumper-style fire truck (which transports 
its own water) to meet fire suppression needs and businesses remained 
in the community--but growth and resiliency are not at levels that 
could be achieved with a proper functioning system. It is important to 
note that the fire truck was purchased using a federally-funded 
recovery loan through the Economic Development Administration and 
administered by our regional council. Mitigation funds that are not 
tied back to specific disasters--but are designed to better prepare and 
strengthen communities against disasters would be a good fit for the 
water supply project. The community is working hard to serve the needs 
of its residents and businesses. Additional investment of federal funds 
would help cure a chronic problem and accelerate their ability to 
withstand future disasters.
    (3) Relocation of a wastewater treatment plant in one of our 
coastal communities. One of our cities has completed the appropriate 
planning and land acquisition to relocate its sewer facility from a 
highly vulnerable location along the coast of Galveston Bay. Local 
officials have worked diligently to secure local funding and work 
through federal recovery funding requirements. The project has been a 
priority for several years. An additional investment of mitigation 
funds (on top of recovery funds) would further strengthen the proposed 
new facility and increase the community's ability to maintain essential 
services and speed up the return of its residents after future storms. 
I provide this example as a situation where persistence in a local and 
federal partnership has paid off and a small additional investment 
could increase the return on investment.

    c. Can you provide your thoughts about how communities can obtain a 
healthy tax base in order to have that economic resiliency and be 
better prepared for when disaster strikes?

    Resist the temptation to grandfather structures from compliance 
with new flood elevation codes. Invest in code enforcement and 
assistance programs that result in durable housing. Consider tax 
incentives for homeowners and businesses that implement improvements 
that strengthen their ability to endure less damage and disruption from 
disasters (go above and beyond minimum requirements). Work with banks 
and financial institutions to leverage community reinvestment act funds 
to increase the fiscal literacy and financial security of their 
residents. Understand where their residents work (often outside the 
immediate community) and partner with other communities to ensure jobs 
and employers are stable and diverse (be aware of the adverse effects 
of being a bedroom community for an employer outside the community).

    3. You make an important point that the solution is not as simple 
as increasing funding, that we can spend the money already available 
better and more efficiently. Where and how can we do that? Which 
federal agencies or programs have you encountered where this 
inefficiency is happening?

    Consider designating an agency to coordinate various recovery and 
resiliency funding streams to reduce rerouting of funding requests 
(``can't fund that here, try another agency''). FEMA's ESF-14 function 
could be a framework worth revisiting. The Department of Commerce 
Economic Development Administration's funding integration effort in 
Region VI (bringing a full suite of funding partners out to regions to 
consider projects in a workshop setting) is an excellent example of 
reducing the silos of funding agencies and focusing on a more efficient 
approach to federal investment.
    Agencies who are tasked to undertake massive amounts of recovery 
funding can become semiparalyzed with the intense scrutiny and 
responsibility of programming billions of dollars. This results in 
delays (see comment 1 above), frustration, reduced efficiency, and 
investment in eligible projects that maybe important but not 
necessarily the highest priorities of local communities. Increasing 
flexibility by focusing on projects and investments that make a 
community stronger (not just build back) and reducing restrictions on 
which agency can fund which projects would substantially increase 
efficiency and speed up the delivery of federal assistance to 
communities in need.

    4. From your experience in emergency management, do you think the 
public adequately knows what resiliency means and what role they have 
in preventing it?

    Terms like resiliency and mitigation are somewhat abstract and can 
be hard for the public to nail down--and as a result can mean very 
different things to different people and also sound like something 
someone else or an organization needs to do (like a corporation or 
government). Terms like prepared, durable, strong, and bounce-back are 
aspirational and can be easily tacked to individual and community goals 
and actions. ``How can I help my neighborhood bounce back after a 
flood? How can I be better prepared if the factory shuts down and I 
don't get paid for a month? Voting for the bond will help prepare and 
protect my neighborhood.'' These simple shifts to less bureaucratic 
words can help.

    a. Do community leaders?

    The considerations regarding word choice and messaging mentioned 
above can become even more important when considered at the level of 
community leaders. Are we seeking to make our schools more resilient or 
is better prepared and safer the message/goal? Are we investing in more 
resilient roads, housing, and drainage or more durable roads and higher 
quality housing (via codes and ordinances)? Another consideration is 
that mitigation and resiliency projects can take longer than office 
terms and be less of a priority than immediate short-term needs 
expressed by the constituents of elected officials. Lastly, economic 
development traditionally focuses on large-prize ventures and can 
result in communities being overly reliant on a single employer or a 
single type of business. There is a natural appeal in attracting a 
large employer--say one that brings 500 jobs. But a local economy can 
better weather down turns and disruption with a diversity of 10 
employers each providing 50 jobs. Conventional thinking tends to focus 
on the immediate short-term result and will require a shift in thinking 
that considers how economic development decisions affect resiliency.

    b. What about leaders in small and rural communities? How do we 
educate them to be ready for extreme weather events?

    Work with networks and national organizations that support small 
and rural counties like the National Association of Counties and the 
National League of Cities. Leverage the strong relationship with 
federal agencies that have high levels of knowledge about small and 
rural communities and a proven track record in improving communities--
specifically USDA and the Economic Development Administration. Allow 
flexibility in existing funding streams to help build capacity since 
local government staff and community leaders in these areas often wear 
many hats and can benefit from targeted technical assistance. The 
earlier comments regarding clarity of language and word choices in 
messaging are universal and apply here, too.

    c. What role should the federal and local governments have to 
further education of risk and resiliency in their communities?

    A critically important role to show that we are all in this 
together and need to work together to be better prepared and adapt to 
future threats. See earlier responses regarding launching a ``We are 
stronger together'' aspirational campaign, items 2.a., 2.c., and 4.a.

                        Questions for the Record

                        marion mollegen mcfadden

                  Senior Vice President, Public Policy

                       Senior Advisor, Resilience

                     Enterprise Community Partners

The Honorable Kathy Castor
    1. You testified regarding the extensive disaster resilience and 
recovery work that your organization has conducted in all 50 states, 
and currently in Puerto Rico, the United States Virgin Islands, 
Florida, Georgia, Texas, Louisiana, North Carolina, Washington, D.C., 
New York, Michigan, Illinois, and California. With this experience and 
your 15 years of experience in disaster recovery with HUD, what are the 
top three greatest barriers to the efficient and resilient recovery 
from disasters that communities face?

    Thank you again for the opportunity to share my thoughts with the 
Committee. The first major barrier is the lack of codification of CDBG-
DR, which leads to confusion on the ground and perpetuates a lack of 
interagency communication.
    Second, investments in communities are being made in an inequitable 
manner, because the Federal Government does not prioritize serving low- 
and moderate-income communities. Data show that homeowners receive 
disproportionate assistance compared to renters, and white applicants 
receive a disproportionate share of available benefits. Damage 
assessments frequently underestimate the need of low-income survivors, 
leading to fewer resources in communities where they are needed most.
    Finally, the lack of a federal framework and incentives for 
resilient infrastructure are a real barrier. Communities need guidance 
on how to implement best practices. State and local capacity challenges 
with regard to planning and implementation are real and only the 
Federal Government is in the position to share the best available data 
in a way that can be absorbed locally.

    2. What can Congress do to reduce risk and costs before disasters?

    Congress can task Federal agencies with working together to provide 
the best available risk data to communities in a manner that is easily 
useable at the address or block level. Congress can promote adoption of 
modern codes and ensure that all federally-funded infrastructure 
projects--not just disaster recovery projects--are built to resilience 
standards. Finally Congress can increase annual Housing and Urban 
Development Community Development Block Grant (CDBG) program funding 
and mandate that a portion of the funds be used to identify and address 
local risks, so that all communities have access to resources to 
prepare for the changing climate.

    3. How can we help accelerate the pace of disaster recovery and 
reduce disaster recovery costs?

    CDBG-DR has become an indispensable tool in the federal 
government's disaster recovery arsenal, but exists only when created by 
appropriation. Congress must fund a recovery package after each 
disaster on a one-off basis. Grantees need to then study the rules, 
make policy choices, and build up their own disaster programs. This 
leads to a delay of as much as nine to 12 months from when the disaster 
hits to when CDBG-DR funds start reaching communities on the ground. 
First, Congress can permanently authorize the CDBG-DR Program to enable 
a formal rulemaking process. Grantees and stakeholders will have an 
opportunity to weigh in through comments and advisory panels to ensure 
that the new regulations reflect best practices and lessons learned 
from past disasters.

     I.  Direct HUD to promulgate formal regulations with a public 
comment period.
         Provide deadlines for when this process needs to begin and 
end. Both H.R. 3702 and S. 2301 direct HUD to issue a proposed rule 
within 6 months of enactment, provide a 90-day period for public 
comment and publish the final rule within one year of enactment.

     II. Codify the LMI benefit standard.
         The CDBG-DR Program is based on the annual CDBG Program, in 
which no less than 70 percent of funds must benefit LMI persons. 
Lawmakers should include this 70 percent LMI benefit standard in CDBG-
DR authorizing legislation. Both H.R. 3702 and S. 2301 include the 
codification of the LMI benefit. To complement this, legislation should 
also direct HUD to step up enforcement of the LMI benefit and fair 
housing laws and regulations.

     III.  Authorize more disaster recovery staff and direct hire 
authority.
         Authorize and appropriate additional funding for more 
permanent full-time employees in the Office of Disaster Recovery and 
Special Initiatives (DRSI) at HUD. Additionally, Congress should 
authorize DRSI with direct hire authority so that the office can 
rapidly hire and reprogram staff as needed following a major disaster, 
as is done at FEMA. The current staffing level at DRSI is woefully 
insufficient. New disasters add pressure quickly, while current hiring 
processes are slow. Introduced legislation does not authorize direct 
hire authority.

     IV.  Direct agencies administering disaster recovery funds to 
families (HUD, FEMA, SBA) to develop a common application for disaster 
assistance applicants.
         Direct agencies to create a common application through which 
applicants can input their personal information, see the full menu of 
federal disaster assistance options, and learn their eligibility for 
different programs. A common application will place burden of 
determining eligibility with the agencies providing the disaster 
assistance. The common application will save time for survivors and 
agencies by centralizing data on applicant eligibility and unmet needs 
and reduce opportunities for duplication of benefits. On the backend, 
the common application will also standardize and streamline data 
collection in a single portal for data on damage assessment, unmet 
needs and aid disbursement. This data can then be shared with grantees, 
so they have full information and prevent duplication of benefits. The 
portal should include information from FEMA's disaster relief programs, 
the National Flood Insurance Program, SBA's Disaster Loan Program, and 
CDBG-DR.

     V.  Authorize a CDBG-DR Reserve Fund.
         Authorize a CDBG-DR reserve fund that can be used for 
immediate post-disaster costs and capacity building in advance of a 
congressional appropriation of CDBG-DR. If a grantee knows that it is 
going to get a larger grant, then it should begin its post-disaster 
planning process and building the capacity to administer recovery funds 
as soon as possible. Both H.R. 3702 and S. 2301 authorize this fund to 
be used for providing technical assistance and capacity building 
immediately following a disaster. The Senate bill also authorizes HUD 
to allocate funds to grantees for disaster homelessness assistance 
within 14 days of a disaster declaration, provided that such funds 
serve families experiencing or at risk of homelessness that are not 
receiving rental assistance from FEMA. Lawmakers should strongly 
consider broadening authorized uses for the Reserve Fund and 
specifically authorize pre-disaster planning and community engagement 
grants and rapid response bridge grants for small businesses.

     VI.  Institutionalize mitigation and resilience as part of CDBG-
DR.
         Congress should include a set aside for mitigation in future 
CDBG-DR appropriations and direct HUD to incorporate mitigation 
activities into the CDBG-DR Program's core set of eligible uses, like 
housing, infrastructure and economic development. According to a study 
by the National Institute of Building Science, each dollar the federal 
government invests in mitigation saves $6 in future disaster recovery 
costs.\1\ H.R. 3702 and S. 2301 include this provision by requiring HUD 
to allocate no less than 45 percent of the amount allocated to a 
grantee for unmet needs.
---------------------------------------------------------------------------
    \1\ https://www.nibs.org/page/mitigationsaves

    4. How can we help low-income communities and communities of color 
be more resilient to extreme weather and other effects of climate 
---------------------------------------------------------------------------
change?

    While it is often said that natural disasters do not discriminate, 
we have seen repeatedly that low-income people are hit hardest; are the 
least prepared; and are the least able to recover on their own. This is 
generally not a surprise, given that socially vulnerable groups are 
more likely to live in areas prone to experience disasters and suffer 
their after-effects. These homes tend to be less stable in the high 
winds of hurricanes and tornados, posing additional risk to individuals 
and families who cannot afford to upgrade or pay for housing in a 
different location that may be safer. And with small businesses, we 
have found that getting them to re-open their doors may require 
technical assistance, grants, and access to highly-risk-tolerant 
capital.
    The Federal Government should provide equitable infrastructure and 
mitigation investments in all neighborhoods and require building to 
modern codes so that projects and homes can withstand more damage. 
Disaster recovery planning must take into account fair housing 
planning, specifically looking language barriers and the needs of 
people with disabilities, including seniors and people without access 
to private transportation. Communities must be more cognizant of flood 
plains and building in vulnerable areas, which is most likely to occur 
under stronger leadership from the Congress and Federal agencies.

    5. You've recommended that we develop a framework for rating 
infrastructure resilience that prioritizes community needs to ensure 
that investments made in infrastructure systems are both efficient and 
equitable? Are there metrics for social equity that we should be 
looking at that can help us get beyond property values so that our 
investments focus on protecting people?

    Federal agencies should develop a framework for rating and 
evaluating resilient infrastructure design. The framework should serve 
as a best practice guide to help cities design, build and operate 
infrastructure to ensure its long-term viability and to deliver other 
environmental, economic, and social benefits, where feasible. Once a 
rating system is designed, federal agencies should then condition the 
receipt of federal funds on projects meeting a required resilience 
rating.
    The rating framework would help agencies ensure that federally 
funded projects are evaluated consistently and that federal investments 
are yielding resilient infrastructure systems. This consistency could, 
over the long term, create more efficiency and reduce operating and 
insurance costs, as well as mitigate risk. And predictability would 
remove a current obstacle to private investment. While no such 
framework exists, we would be happy to explore how our free 
Opportunity360 tool \2\ might be useful for identifying vulnerable 
communities.
---------------------------------------------------------------------------
    \2\ https://www.enterprisecommunity.org/opportunity360

    Ms. Castor. This is our last hearing of the year. I am 
really proud of what the committee has done, but the big work 
lies ahead. We need everyone's help and support. If you have 
additional recommendations for the committee, please pass them 
along.
    I want to thank our professional staff and all of the 
members for all their terrific work this year.
    And to everyone, have a lovely holiday season.
    Thank you. We are adjourned.
    [Whereupon, at 4:13 p.m., the committee was adjourned.]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
